APPENDIX

TABLE OF CONTENTS
Appendix A:
Appendix B:
Appendix C:
Appendix D:

Court of appeals opinion,
February 8, 2021............................................ 1a
District court opinion,
July 23, 2019 ................................................. 28a
Court of appeals order,
March 23, 2021 ........................................... 217a
Court of appeals opinion,
July 24, 2020 ............................................... 218a

APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

No. 19-70014

JAMES GARFIELD BROADNAX,
Petitioner-Appellant,
v.
BOBBY LUMPKIN, DIRECTOR, TEXAS DEPARTMENT OF CRIMINAL JUSTICE, CORRECTIONAL
INSTITUTIONS DIVISION,
Respondent-Appellee.

Filed: February 8, 2021
Before: JONES, HIGGINSON, and OLDHAM, Circuit
Judges.
OPINION
JONES, Circuit Judge.
James Garfield Broadnax was convicted of capital
murder and sentenced to death for robbing and fatally
shooting two men. After exhausting his state remedies,
Broadnax filed a federal habeas petition under 28 U.S.C.
§ 2254. The district court rejected his petition and denied

(1a)

2a
a certificate of appealability (“COA”). Broadnax sought a
COA under 28 U.S.C. § 2253(c)(2) to appeal numerous issues. We granted a COA and received additional briefing
on a single issue pertinent to his Batson challenges to the
jury’s makeup: “Whether the district court erroneously
concluded that the spreadsheet was barred by Pinholster
and 28 U.S.C. § 2254(d)(2).” Broadnax v. Davis, 813 F.
App’x 166 (5th Cir. 2020) (per curiam). We now AFFIRM
the district court’s refusal to consider newly discovered
evidence relevant to Broadnax’s Batson claim because
Cullen v. Pinholster, 563 U.S. 170, 131 S. Ct. 1388 (2011),
bars its consideration. We also explain why COA is DENIED on Broadnax’s other claims.
I. BACKGROUND
On June 19, 2008, Broadnax and Demarius Cummings
fatally shot and robbed Stephen Swan and Matthew Butler in Garland, Texas. Broadnax was convicted of capital
murder and sentenced to death. After his arrest,
Broadnax gave several interviews with local news stations
which became the foundation of the State’s case at trial.
In them, he confessed to the murder and robbery and provided explicit details of the murder. He admitted that he
alone killed Swan and Butler, that he had no remorse, and
he hoped for the death penalty.
During voir dire, Broadnax challenged the prosecution’s use of peremptory strikes to remove all prospective
black jurors and a Hispanic juror based on Batson v. Kentucky, 476 U.S. 79, 106 S. Ct. 1712 (1986).1 The trial court
1
Batson held that “the Equal Protection Clause forbids the prosecutor to challenge potential jurors solely on account of their race or
on the assumption that black jurors as a group will be unable impartially to consider the State’s case against a black defendant.” 476 U.S.
at 89, 106 S. Ct. at 1719.

3a
initially denied all Broadnax’s challenges but eventually
reseated one of the struck jurors. At trial, Broadnax did
not dispute that he killed the victims, but he developed an
extensive mitigation case that focused on his drug use at
the time of the offenses. Broadnax presented expert testimony to the effect that because he committed the crimes
at the age of nineteen, his brain would not have been fully
developed. Dr. Frank Lane, a jail physician who treated
Broadnax, testified that Broadnax claimed he was hallucinating, was paranoid, and did not remember talking to the
media. Broadnax also told him that he had used PCP at
the time of the offense. Because of this, Dr. Lane opined
that Broadnax was most likely suffering from mood and
perceptual disturbances due to prior PCP use.
On direct appeal, Broadnax raised fifty-six points of
error, including his challenges to the trial court’s Batson
rulings. The Texas Court of Criminal Appeals (“TCCA”)
affirmed the conviction and sentence. Broadnax v. State,
AP-76,207, 2011 WL 6225399 (Tex. Crim. App. Dec. 14,
2011), cert. denied, 568 U.S. 828 (2012). Broadnax then
filed his state habeas corpus petition. After an evidentiary
hearing, the trial court recommended denial of relief and
the TCCA adopted the trial court’s findings and conclusions. Ex parte Broadnax, WR-81,573-01, 2015 WL
2452758 (Tex. Crim. App. May 20, 2015), cert. denied, 136
S. Ct. 77 (2015).
Having exhausted state remedies, Broadnax petitioned for federal habeas relief claiming ineffective assistance of counsel, Batson violations, erroneous evidentiary
rulings, and errors in the punishment phase jury charge.
He also challenged the constitutionality of the Texas capital punishment scheme and the death penalty. As part of
his Batson challenges, Broadnax submitted for the first
time a spreadsheet created by the Dallas County District

4a
Attorney’s Office in preparation for voir dire. The spreadsheet specified the race and gender of the veniremembers
and bolded the names of prospective black jurors. As
Broadnax admits, this document was previously withheld
by the District Attorney’s Office as privileged work product, and he only gained access when the office revised its
policy. The spreadsheet was not part of the record before
the state court.
The district court refused to consider the spreadsheet
because in Pinholster, the Supreme Court “bar[red] [the
court] from considering new evidence that was not
properly before the Texas Court of Criminal Appeals
when it rejected Broadnax’s Batson claims on direct appeal.”2 Subsequently, the district court denied habeas relief on all grounds and further denied a COA on all claims.
Broadnax appealed to this court and moved for a COA.
This court granted a COA for one issue: “Whether the district court erroneously concluded that the spreadsheet
was barred by Pinholster and 28 U.S.C. § 2254(d)(2).”
Broadnax v. Davis, 813 F. App’x 166 (5th Cir. 2020) (per
curiam).
We first address the Pinholster/Batson claim and then
the denial of COA on Broadnax’s other issues.
II. STANDARD OF REVIEW
Federal habeas proceedings are governed by the Antiterrorism and Effective Death Penalty Act of 1996

2
“If a claim has been adjudicated on the merits by a state court, a
federal habeas petitioner must overcome the limitation of § 2254(d)(1)
on the record that was before that state court.” Pinholster, 563 U.S.
at 185, 131 S. Ct. at 1400. “Similarly, § 2254(d)(2) expressly limits review to the state court record.” Halprin v. Davis, 911 F.3d 247, 255
(5th Cir. 2018).

5a
(“AEDPA”), and a petitioner must first obtain a COA before he may appeal the district court’s denial of habeas relief. See 28 U.S.C. § 2253(c)(1)(A); Miller-El v. Cockrell,
537 U.S. 322, 335-36, 123 S. Ct. 1029, 1039 (2003) (“MillerEl I”). To obtain a COA, a petitioner must make “a substantial showing of the denial of a constitutional right.” 28
U.S.C. § 2253(c)(2). This standard requires the petitioner
to demonstrate “that reasonable jurists could debate
whether (or, for that matter, agree that) the petition
should have been resolved in a different manner or that
the issues presented were adequate to deserve encouragement to proceed further.” Miller-El I, 537 U.S. at 336,
123 S. Ct. at 1039 (internal quotes omitted). “[A]ny doubt
as to whether a COA should issue in a death-penalty case
must be resolved in favor of the petitioner.” Pippin v.
Dretke, 434 F.3d 782, 787 (5th Cir. 2005).
When considering a COA application, this court has
jurisdiction to determine only whether a COA should issue, not the ultimate merits of the petitioner’s claims.
Ward v. Stephens, 777 F.3d 250, 255 (5th Cir. 2015). “This
threshold inquiry does not require full consideration of
the factual or legal bases adduced in support of the claims.
In fact, the statute forbids it.” Miller-El I, 537 U.S. at 336,
123 S. Ct. at 1039. Indeed, “[t]he question is the debatability of the underlying constitutional claim, not the resolution of that debate,” and a “claim can be debatable even
though every jurist of reason might agree, after the COA
has been granted and the case has received full consideration, that petitioner will not prevail.” Id. at 338, 342, 123
S. Ct. at 1040, 1042.
If a COA is granted, our jurisdiction extends only to
“the issue specified in the COA.” Simmons v. Epps, 654
F.3d 526, 535 (5th Cir. 2011) (per curiam). “In a habeas
corpus appeal, we review the district court’s finding of fact

6a
for clear error and its conclusions of law de novo.” Higgins
v. Cain, 720 F.3d 255, 260 (5th Cir. 2013). AEDPA bars
habeas relief for a claim adjudicated on the merits by a
state court absent a showing that the decision was either
(1) “contrary to, or involved an unreasonable application
of, clearly established Federal law, as determined by the
Supreme Court of the United States” or (2) “based on an
unreasonable determination of the facts in light of the evidence presented in the State court proceeding.” 28 U.S.C.
§ 2254(d). A state court decision is “contrary to” federal
law if, on materially indistinguishable facts, it reaches a
conclusion opposite of a Supreme Court case. Williams v.
Taylor, 529 U.S. 362, 413, 120 S. Ct. 1495, 1523 (2000). The
decision is an unreasonable application of federal law if
the state court correctly identified the governing legal
principle but unreasonably applied it to the facts of the
case. Id. Factual findings by the state court are presumed
correct unless rebutted “by clear and convincing evidence.” 28 U.S. § 2254(e)(1).
III. PINHOLSTER, the JUROR SPREADSHEET,
and the BATSON CLAIM
This court granted a COA in order to consider more
fully the contention that the federal district court should
have admitted the racially annotated juror spreadsheet,
not made available in the state courts, when it evaluated
Broadnax’s Batson claim. In Pinholster, the Supreme
Court considered “whether review under [AEDPA]
§ 2254(d)(1) permits consideration of evidence introduced
in an evidentiary hearing before the federal habeas
court.” 563 U.S. at 180, 131 S. Ct. at 1398. This provision
limits federal court habeas review to claims that were “adjudicated on the merits” in state courts. For such claims,
the Court concluded that “the record under review is limited to the record in existence at that same time i.e., the

7a
record before the state court.” Id. at 182, 131 S. Ct. at
1398. Further, the Court noted, § 2254(d)(2) provides “additional clarity” by expressly confining review of the underlying evidence to “evidence presented in the State
court proceeding.” Id. at 185 n.7, 131 S. Ct. at 1400 n.7.
The point of AEDPA, the Court explained, is to require prisoners first to exhaust state court remedies before seeking federal relief, and “[i]t would be contrary to
that purpose to allow a petitioner to overcome an adverse
state-court decision with new evidence introduced in a
federal habeas court and reviewed by that court in the
first instance effectively de novo.” Id. at 182, 131 S. Ct. at
1399. The Court added that, “[a]lthough state prisoners
may sometimes submit new evidence in federal court,
AEDPA’s statutory scheme is designed to strongly discourage them from doing so.” Id. at 186, 131 S. Ct. at 1401.
Pinholster thus confirms limitations on a federal habeas court’s consideration of new evidence when reviewing claims that have been adjudicated on the merits in
state court.3 In such circumstances, the petitioner must
demonstrate that habeas relief is warranted under
§ 2254(d) on the state court record alone. If the petitioner
succeeds in satisfying this threshold requirement, then a
federal habeas court may entertain new evidence pursuant to the limitations of § 2254(e)(2). See, e.g., Smith v.
Cain, 708 F.3d 628, 634-35 (5th Cir. 2013) (holding that an
evidentiary hearing was permissible after the federal trial
court first determined “on the basis of the state court record that the state court’s Batson analysis was contrary to,
3
If a claim was not adjudicated on the merits in state court, §
2254(e)(2) applies. Broadnax does not seek introduction of the spreadsheet based on § 2254(e)(2) because his Batson claim, as he acknowledges, was adjudicated on the merits in state court.

8a
or at least involved an unreasonable application of, clearly
established Federal law” (internal quotations omitted)).
Broadnax principally asserts that a narrow exception to
Pinholster benefits him here. Alternatively, he claims the
spreadsheet is admissible under the approach of Smith v.
Cain. We disagree with both contentions.
A. The Pinholster-Exception Theory
While admitting that he raised Batson challenges to
the prosecutors’ peremptory strikes of minority jurors
and exhausted that claim in state court, Broadnax alleges
that the spreadsheet “fundamentally alters” his Batson
claim because it was “withheld” by the prosecution and
was made unavailable to him in state proceedings. He relies on a footnote in Pinholster, which recognized that in
some instances new evidence may present a new claim of
which federal habeas courts may take cognizance. Pinholster, 531 U.S. at 186 n.10, 131 S. Ct. at 1401 n.10 (stating
that the dissent’s “hypothetical involving new evidence of
withheld exculpatory witness statements . . . may well present a new claim”). But the Court declined in that footnote
“to draw the line between new claims and claims adjudicated on the merits.” Id.
Broadnax asserts that under this exception-to-Pinholster, the “withheld” spreadsheet constitutes such “new evidence” that “fundamentally alters” his Batson claims and
should have been added to the district court’s analysis.
This theory raises a difficult question at the outset. Despite repeated insinuations, Broadnax does not allege that
the state improperly withheld the juror spreadsheet during state court proceedings. Indeed, Broadnax’s initial
federal habeas attorney admitted that the spreadsheet
was nondiscoverable attorney work product that was only
disclosed to the defense, after the federal habeas proceed-

9a
ing commenced, because of a change in the District Attorney’s policies. The spreadsheet does not pertain to
Broadnax’s guilt or innocence and therefore fell outside
the prosecution’s Brady disclosure obligations. In contrast, Pinholster’s majority footnote considers a hypothetical framed around exculpatory evidence and a potential Brady violation. Logically, more than one habeas
“claim” could be predicated on distinct failures to disclose
exculpatory or impeaching information pursuant to
Brady. Broadnax ignores the distinction between the separability of Brady claims and the mere (alleged) evidentiary enhancement of a singular Batson claim by the introduction of the spreadsheet. Broadnax’s “new claim” is
not just non-exculpatory but does not support any kind of
freestanding Batson “claim” at all.4 Whatever lines might
be drawn pursuant to the Pinholster footnote, they are
not implicated here.
An additional impediment to the Pinholster exception
theory is that this court’s post-Pinholster precedent offers no support for it. Within a year after the Supreme
Court’s decision, this court held that “[t]he import of Pinholster is clear: because Lewis’s claims have already been
adjudicated on the merits, § 2254 limits our review to the
record that was before the state court.” Lewis v. Thaler,
701 F.3d 783, 791 (5th Cir. 2012). In so doing, the court
refused to consider expert mitigation evidence offered for
the first time in federal habeas. Another decision rejected
the notion that, after Pinholster, the federal court should

4
Moreover, to the extent that the District Attorney’s office did not
“withhold” the spreadsheet in contravention of any legal duty, that
evidence stands on essentially the same footing as any other evidence
newly found, or created, and offered for the first time in federal habeas proceedings.

10a
consider whether newly offered mitigation evidence constituted an unexhausted claim or “simply supplement[ed]” petitioner’s state court claim. Clark v. Thaler,
673 F.3d 410, 417 (5th Cir. 2012). Instead, the court stated,
“[w]e consider only the record that was before the state
habeas court.” Id. In yet another case, this court rejected
the parties’ joint position on appeal that newly offered
mitigation evidence concerning mental illness rendered a
petitioner’s federal habeas claim unexhausted.5 Ward, 777
F.3d at 258. Then, in addressing the merits, the court cited
Pinholster and analyzed the § 2254(d)(1) claim in light of
the state court record alone. Ward, 777 F.3d at 264. Notably, Smith is this court’s sole foray into applying Pinholster to a Batson claim. And when this court applied Pinholster, it reviewed only the state court record for its conclusion that the state courts decided a Batson claim “unreasonably” pursuant to § 2254(d)(1). Smith, 708 F.3d at
634-35. As a result, only then did the Smith court take into
consideration additional evidence offered in federal court.
Id.
The Fifth Circuit cases cited by Broadnax, when carefully read, do not challenge this court’s otherwise uniform
adherence to Pinholster. One of these granted a COA on
an ineffectiveness claim. First and most important, a COA
is not a definitive ruling on the merits of an issue in habeas.6 See Nelson v. Davis, 952 F.3d 651, 671-72 (5th Cir.
5
The allegedly unexhausted claim in Ward was a “new” diagnosis
of mental illness, different from the diagnosis originally presented in
state court. This court concluded that although the petitioner’s evidence “arguably places his [ineffectiveness of counsel] claim in a
stronger evidentiary position, . . . it does not place the claim in a ‘significantly different legal posture.’” 777 F.3d at 259 (citation omitted).

“[A] claim can be debatable even though every jurist of reason
might agree, after the COA has been granted and the case received
6

11a
2020). Nelson is not a binding statement of law on the issue garnering a COA. Second, the COA issue in Nelson
concerned exhaustion. Citing Pinholster’s footnote 10 (refusing to draw lines between new claims and claims unadjudicated in state courts), Nelson stated that, “while
‘merely putting a claim in a stronger evidentiary posture
is not enough,’ new evidence that ‘fundamentally alters
the legal claim’ or ‘place[s] the claim in a significantly different legal posture’ can render it a new claim that was
not adjudicated on the merits by the state court.” Id.
(quoting the discussion of exhaustion in Ward, 777 F.3d at
258-59). For COA purposes, the court declared, the issue
was that “reasonable jurists could debate whether Nelson’s [ineffective assistance]-Participation allegations
‘fundamentally alter’ his [counsel ineffectiveness] claim,
and so constitute a different and unexhausted claim.” Id.
at 672. Two factually distinct theories of ineffective assistance were at least theoretically implicated. How this
court might rule on the ultimate COA issue and a number
of intertwined issues in Nelson is unknown at this time.
Most important, Broadnax has never argued that his
spreadsheet evidence represents an unexhausted claim.
Escamilla v. Stephens, 749 F.3d 380, 394-95 (5th Cir.
2014), also fails to support Broadnax. That case held forthrightly that where a petitioner’s habeas counsel had
raised an issue in the state habeas court, albeit ineffectively from a constitutional standpoint, the petitioner was
barred by Pinholster from offering new evidence in federal court precisely because the original claim had been
“fully adjudicated on the merits” in state court. Id. Contrary to Broadnax’s view, in light of Escamilla’s clear and
full consideration, that petitioner will not prevail.” Miller-El I, 537
US at 338, 123 S. Ct. at 1040.

12a
unequivocal holding,7 this court did not find that an exception to Pinholster exists whenever newly offered evidence
“fundamentally alters” a claim previously presented to
the state courts. The court merely stated that the additional evidence submitted to the federal habeas court in
that case effected no such alteration. Id. at 395.
Broadnax’s out-of-circuit citations are also unhelpful.
He cites Wolfe v. Clark, but that case does not even cite,
much less apply Pinholster. For that reason alone, Wolfe
is inapposite. Wolfe held that a long-concealed police report, first offered in federal court, supported a new and
separable Brady claim that had not been adjudicated in
state court, rendering § 2254(d) irrelevant. 691 F.3d 410,
423 (4th Cir. 2012). Like Nelson, this aspect of Wolfe concerns the exhaustion doctrine. The spreadsheet fails to
rise to that level, and the Batson claim raised here was
adjudicated in state courts. Broadnax made a detailed
showing in state court by pointing out alleged inconsistencies in the treatment of jurors as well as the final makeup of the empaneled jury. The spreadsheet offered in federal court reflects the prosecutors’ awareness of the race
of prospective jurors. But it is not the “single, plainly momentous item of suppressed . . . evidence” for which habeas relief is warranted. Wolfe, 691 F.3d at 417. Thus,
Broadnax’s Batson claim remains subject to the limitations of § 2254(d).8
7
“Thus, once a claim is considered and denied on the merits by the
state habeas court, Martinez is inapplicable, and may not function as
an exception to Pinholster’s rule that bars a federal habeas court
from considering evidence not presented to the state habeas court.”
Escamilla, 749 F.3d at 395.

His other Fourth Circuit citation is readily distinguishable. In
Winston v. Pearson, the court determined that the Supreme Court of
Virginia’s prior dismissal was not an adjudication on the merits,
8

13a
Finally, even if we were to accept the Pinholster-exception theory espoused by Broadnax, his argument
would fail. The spreadsheet, at most, places Broadnax’s
Batson claim “in a stronger evidentiary position;” in no
way does it “fundamentally alter” the preexisting claim.
As the district court noted, the spreadsheet “does nothing
more than indicate that the Dallas County District Attorney’s Office made a point of memorializing the ethnicity
and gender of the remaining members of the jury venire
prior to the exercise of its peremptory challenges.”
Broadnax v. Davis, No. 3:15-CV- 1758-N, 2019 WL
3302840, at *43 n.73 (N.D. Tex. July 23, 2019). Batson
claims are evaluated under a three-step process: (1) the
defendant makes a prima facie showing that the peremptory challenge was based on race; (2) the prosecution provides a race-neutral basis for the strike; (3) the trial court
determines whether the prosecutor purposefully discriminated against the juror. Foster v. Chatman, 136 S. Ct.
1737, 1747 (2016). The spreadsheet arguably enhances
Broadnax’s argument at the first step, and it may be relevant to the third. But the prosecution was still required
to—and did—provide racially neutral reasons for each of
the strikes. The spreadsheet alone is no smoking gun; it
fails to render all those reasons merely pretextual. Moreover, the district court observed that the Dallas County
District Attorney’s Office has twice been criticized by the
United States Supreme Court for the use of racially discriminatory peremptory strikes.9 Broadnax, 2019 WL
3302840, at *43 n.73. The office would have had consider-

hence, Pinholster had no applicability. 683 F.3d 489, 501 (4th Cir.
2012).
9
See, e.g., Miller-El v. Dretke, 545 U.S. 231, 125 S. Ct. 2317 (2005);
Miller-El v. Cockrell, 537 U.S. 322, 123 S. Ct. 1029 (2003).

14a
able motivation to identify which jury venire members belonged to a protected class when preparing to defend its
use of peremptory challenges.10
For all these reasons, we reject the theory that a narrow exception articulated in footnote 10 of Pinholster’s
majority opinion required the federal district court to admit and evaluate the District Attorney’s spreadsheet pertinent to Broadnax’s fully adjudicated and exhausted Batson claim.
B. Smith v. Cain Approach
Broadnax alternatively contends that the state court
decision was “contrary to, or involved an unreasonable application of, clearly established Federal law, as determined by the Supreme Court of the United States” and
was “based on an unreasonable determination of the facts
in light of the evidence presented in the State court proceeding,” rendering Pinholster’s prohibition on new evidence inapplicable. 28 U.S.C. § 2254(d); Smith, 708 F.3d
at 634-35. This argument finds no traction in the record.
Broadnax alleges that the State exercised its peremptory challenges in a racially discriminatory manner and
intentionally struck every nonwhite veniremember. He
marshals three arguments in support of this contention.
First, Broadnax asserts that “the State treated white and
nonwhite veniremembers differently.” Second, Broadnax
raises as prima facie evidence of discrimination that the
prosecution used its peremptory strikes to remove 100%
of the nonwhite venire members. Finally, Broadnax ar-

10
At the time of his trial, Dallas had elected the first African-American District Attorney in Texas, and his office prosecuted Broadnax.

15a
gues that the trial court’s reinstatement of one struck African-American juror was not a sufficient remedy for the
Batson violation.
The district court conducted a lengthy analysis of the
state’s contemporaneously expressed reasons for exercising strikes on each of the challenged jurors. In the end, it
concluded that “Broadnax has failed to present this Court
with clear and convincing evidence showing the state trial
court’s implicit credibility findings (regarding the prosecution’s race-neutral reasons for its peremptory strikes
against these venire members) were erroneous,” as required by 28 U.S.C. § 2254(e)(1). Broadnax, 2019 WL
3302840, at *43. Thus, the prior dismissal of the Batson
claims was “neither contrary to, nor involved an unreasonable application of, clearly established Federal law, as determined by the Supreme Court of the United States, nor
resulted in a decision that was based on an unreasonable
determination of the facts in light of the evidence presented in his trial and direct appeal.” Id. For the following
reasons, we agree.
After a seventeen-page evaluation of the trial court
record concerning the state’s peremptory strike on each
of eight African-American veniremembers, one of whom
was eventually seated, the district court found that the
proffered justifications for the challenges “all constituted
racially neutral, objectively verifiable, record-based, reasons for a prosecutorial peremptory strike.”11
We need not repeat the district court’s exhaustive and
convincing examination of each strike, but the strikes
share common, race-neutral characteristics. The state
11
Seven of the struck veniremembers were not empaneled. The
eighth veniremember, Juror Patterson, was struck but eventually included in the jury.

16a
gave each prospective juror a questionnaire. Two questions on the first page of the questionnaire are relevant to
this issue. The first asked “Are you in favor of the death
penalty?” The state struck every veniremember, regardless of race, who indicated he or she was not in favor of the
death penalty, including five against whose strikes
Broadnax’s counsel raised Batson objections. Each of the
five gave various explanations for opposing the death penalty, ranging from a belief in second chances to concern
about erroneous convictions.
Second, the questionnaire asked veniremembers to
circle one out of five possible responses to the following
question: “With reference to the death penalty, which of
the following statements best represents your feelings?”
Option three stated: “Although I do not believe that the
death penalty ever ought to be invoked, as long as the law
provides for it, I could assess it under the proper set of
circumstances.” Again, the state struck every veniremember, regardless of race, who selected option three.
Broadnax’s counsel raised Batson objections to the
strikes of two veniremembers who indicated this option.
Broadnax counters that the state did not strike several
white veniremembers who answered their questionnaires
similarly to minority veniremembers who were struck.
But with the exception of Juror Long, every Batson-challenged veniremember who was excluded from the jury indicated he or she was not in favor of the death penalty
and/or believed the death penalty ought not be invoked.
The state struck all who answered this way, a fact
Broadnax glosses over. Moreover, while defendants need
not demonstrate that white and nonwhite veniremembers
were identical in all respects to demonstrate a Batson
challenge, “the comparator-juror must be similar in the
relevant characteristics.” Herbert v. Rogers, 890 F.3d 213,

17a
223 (5th Cir. 2018). As the district court noted, given the
extensive nature of the questionnaire, it is “hardly surprising—or conclusive of anything” that there would be
similarities in some answers between struck and nonstruck veniremembers. Broadnax, 2019 WL 3302840, at
*43 n.73.
Juror Long was the sole minority veniremember who
expressed support for the death penalty and did not select
option three. However, Long indicated that she would be
“automatically prevented” from imposing the death penalty if the defendant was using drugs or alcohol at the time
of the offense. As the state knew that intoxication would
be a core component of the defense theory, Long’s answer
was highly prejudicial to the state’s case. Moreover, several of Long’s explanations for her answers revealed
mixed feelings about the death penalty. While one other
veniremember considered intoxication to be a mitigating
circumstance, Broadnax musters no other potential juror
who believed that intoxication automatically rendered a
defendant ineligible for the death penalty. Yet this automatic ineligibility formed the core of the state’s justification to the trial court for a peremptory strike. The district
court correctly concluded that the state courts did not unreasonably apply Batson in rejecting this claim.
Broadnax further urges that the state court erred in
not properly considering several important circumstances
in the state’s use of its peremptory strikes to remove 100%
of the nonwhite veniremembers. Not so. As this court has
previously emphasized, “[t]he Supreme Court has instructed that, when analyzing Batson challenges, ‘bare
statistics’ are not the be-all end-all.” Chamberlin v.
Fisher, 885 F.3d 832, 840 (5th Cir. 2018) (en banc) (quoting Miller-El v. Dretke, 545 U.S. 231, 241, 125 S. Ct. 2317,

18a
2325 (2005) (Miller-El-II)). The “[m]ore powerful” evidence is a “side-by-side comparison[] of some black venire
panelists who were struck and white panelists allowed to
serve.” Miller-El-II, 545 U.S. at 241, 125 S. Ct. at 2325.
The district court thoroughly conducted side-by-side analysis of the state courts’ determinations and correctly concluded that Batson was not unreasonably applied.
Finally, Broadnax challenges the district court’s conclusion that the state courts did not unreasonably apply
Batson in agreeing that reseating Juror Patterson was a
sufficient response to the State’s Batson violation. After
initially accepting the prosecution’s peremptory strike,
the trial court found a Batson violation regarding Patterson and reseated him. Interestingly, the TCCA found on
direct appeal that no Batson violation occurred.
Broadnax, 2011 WL 6225399, at *4. Nevertheless,
Broadnax proceeds as if a Batson violation occurred and
disputes only the propriety of the remedy. He asserts that
the trial court should have struck the entire jury panel
and begun voir dire anew.
The district court explained that no clearly established
Supreme Court law requires dismissal of an entire jury
panel in the face of a single Batson violation. Nor has
Broadnax brought any such authority to the attention of
this court. Batson itself expressly disavowed requiring
trial courts to dismiss the entire panel and noted that reinstating the improperly challenged juror could be an adequate remedy. Batson, 476 U.S. at 99 n.24, 106 S. Ct. at
1725 n.24. While some other jurisdictions have suggested
that dismissing the entire panel is the “better practice,”
see, e.g., United States v. Walker, 490 F.3d 1282, 1295
(11th Cir. 2007), Texas views reinstating any excluded veniremember as an appropriate remedy for a Batson violation. See, e.g., State ex rel. Curry v. Bowman, 885 S.W.2d

19a
421, 425 (Tex. Crim. App. 1993). In any event, the district
court explained that “the new rule advocated by Broadnax
in this federal habeas corpus proceeding is foreclosed by
the nonretroactivity doctrine of Teague.” We find no error
in the district court’s conclusions. Accordingly, because
Broadnax did not surmount the standards embodied in
§ 2254(d), he had no basis to offer evidence outside the
state court record, and the spreadsheet was correctly
barred from consideration in federal court.
IV. PETITION FOR COA
Broadnax advanced five other claims for relief in
which he sought a COA. These contentions include: (1) an
unqualified juror sat on his jury; (2) the District Attorney’s decision to seek the death penalty was racially motivated; (3) Broadnax was unconstitutionally denied counsel when he gave media interviews; (4) his appellate counsel was ineffective for failing to challenge the admission of
certain expert testimony on appeal; and (5) the district
court applied erroneous legal standards and inadequately
reviewed the record.
A. Refusal of Strike for Cause
Broadnax contends that reasonable jurists could debate the district court’s rejection of his claim that the state
courts erroneously refused to disqualify juror John Vessels. Broadnax alleges that Vessels was unable to consider
mitigation evidence. After reviewing Vessels’s responses,
we conclude that the district court’s resolution of this issue is not debatable.
A trial court must strike for cause a prospective juror
who would automatically impose the death penalty without considering mitigating circumstances. Morgan v. Illinois, 504 U.S. 719, 729, 112 S. Ct. 2222, 2229 (1992). Despite this, the law does not oblige jurors to consider any

20a
specific circumstances as mitigating. See Soria v. Johnson, 207 F.3d 232, 244 (5th Cir. 2000). When asked during
voir dire to give examples of mitigating evidence that
would convince him to change a death sentence to a life
sentence, Vessels responded he could not think of any.
Additionally, Vessels expressed suspicion of evidence of
intoxication and the defendant’s troubled upbringing as
mitigating factors.
The district court agreed with the TCCA that while
Vessels considered these circumstances not to be mitigating, he would not absolutely refuse to consider mitigating
evidence. As this court has explained, these types of evidence can be double-edged and may even be perceived as
aggravating. Id.; see also Dorsey v. Quarterman, 494 F.3d
527, 533 (5th Cir. 2007) (“[T]he law is clear that a defendant in a capital case is not entitled to challenge prospective
jurors for cause simply because they might view the evidence the defendant offers in mitigation of a death sentence as an aggravating rather than a mitigating factor.”).
Vessels expressly stated that he could consider the mitigation special issue with an open mind and that he could
answer “yes” on the issue. Thus, Vessels was not unwilling
to put aside personal views, consider all the evidence, and
follow the law; rather, he honestly acknowledged his suspicions concerning certain types of mitigating evidence.
Reasonable jurists would not debate the district
court’s determination that the state court reasonably rejected Broadnax’s claim that the trial court had to disqualify juror Vessels for cause.
B. Selective Prosecution
Broadnax raises a selective prosecution claim, arguing
that the State sought to impose the death penalty on the
basis of his race. The district court noted, without holding,

21a
that this claim was unexhausted, but it ruled on the merits
instead. To succeed on his selective prosecution claim,
Broadnax must overcome the presumption that a prosecutor acts in good faith and within his discretion; hence a
defendant’s burden is to present clear evidence showing
that the prosecutor’s decisions had both a discriminatory
effect and a discriminatory motive or purpose. United
States v. Armstrong, 517 U.S. 456, 465, 116 S. Ct. 1480,
1487 (2006); In re United States, 397 F.3d 274, 284 (5th
Cir. 2005). To establish a racially discriminatory effect, a
defendant must show that similarly situated individuals of
a different race were not prosecuted. Armstrong, 517 U.S.
at 465, 116 S. Ct. at 1486-87; In re United States, 397 F.3d
at 284.
The district court found that Broadnax is not “similarly situated” to any other offender of any race in Dallas
County because of his media interviews. In the interviews,
Broadnax confessed, described the crimes in graphic detail, repeatedly denied feelings of remorse, and demanded
to receive the death penalty. What he said in the interviews “put Broadnax in a class by himself.”
Broadnax argues this finding is debatable in light of a
statistical study that allegedly shows the death penalty
was imposed in Dallas County more often against African
American defendants accused of victimizing whites than
against other offenders and victims of other races. But
such statistical evidence alone does not establish that “the
decisionmakers in his case acted with discriminatory purpose.” McCleskey v. Kemp, 481 U.S. 279, 292, 107 S. Ct.
1756, 1767 (1987). Indeed, the Baldus study in McCleskey
identified some stark statistical discrepancies. Id. at 287,
107 S. Ct. at 1764; Nevertheless, the Supreme Court denied relief. Further, the discretionary nature of the decision to seek a death sentence led the Court to caution

22a
against inferring discriminatory motive from statistical
disparities alone. Id. at 297, 107 S. Ct. at 1770.
Finally, Broadnax argues that the district court’s focus on Broadnax’s media interviews treats the “similarly
situated” requirement too narrowly. We disagree. The
prosecution relied on them extensively at trial, and the
district court deemed their content sufficiently unusual
that it declared Broadnax “sui generis.” The interviews
graphically and voluntarily confessed Broadnax’s guilt,
cravenness, and extreme future dangerousness. Moreover, Broadnax’s proffered view of “similarly situated,” by
invoking broad generic commonalities such as racial characteristics and crimes charged, would render comparisons
essentially meaningless. Thus, although in some circumstances there might be uncertainty about how to identify
“similarly situated” offenders relevant to a selective prosecution claim, this is not such a case. The district court’s
conclusion that Broadnax was not selectively prosecuted
is not reasonably debatable.
C. Uncounseled Media Interviews
Broadnax next argues that he was denied his Sixth
Amendment right to counsel while giving the media interviews, which he contends were “critical stages” of his trial.
The interviews, which Broadnax voluntarily conducted,
occurred after his initial appearance before the magistrate judge on June 21, 2008, but before he was appointed
counsel on June 24. Before trial, Broadnax moved to suppress the interviews. The trial court denied the motion.
Significantly, Broadnax signed the stations’ request
forms seeking interviews, the reporters were not employed by law enforcement, and no law enforcement officer had requested that they conduct the interviews.

23a
An accused is guaranteed the right to counsel during
all “critical stages” of his trial. Critical stages are “proceedings between an individual and agents of the State,
whether ‘formal or informal, in court or out,’ that amount
to ‘trial-like confrontations,’ at which counsel would help
the accused ‘in coping with legal problems or . . . meeting
his adversary.’” Rothgery v. Gillespie County, 554 U.S.
191, 212 n.16, 128 S. Ct. 2578, 2591 n.16 (2008) (cleaned up)
(emphasis added). “[W]hat makes a stage critical is what
shows the need for counsel’s presence.” Id. at 212, 128 S.
Ct. at 2591.
The district court concluded, pursuant to AEDPA,
that the state courts, which examined numerous ways in
which Broadnax sought to attack the admissibility of the
interviews, did not unreasonably apply governing Supreme Court law nor unreasonably apply the facts to the
legal standards, nor did they unreasonably determine the
facts in light of the record. The court accordingly rejected
his Fifth and Sixth Amendment claims.
The district court alternatively ruled against
Broadnax under a de novo standard. In so doing, the court
examined whether the reporters who interviewed
Broadnax were acting as agents of the State. Concluding
they were not, the district court held that Broadnax’s
Sixth Amendment claims lacked merit. In reaching its
conclusion, the district court considered this circuit’s twoprong test for determining whether an informant was a
government agent: whether the informant “(1) was promised, reasonably led to believe, or actually received a benefit in exchange for soliciting information from the defendant; and (2) acted pursuant to instructions from the
State, or otherwise submitted to the State’s control.”
Creel v. Johnson, 162 F.3d 385, 393 (5th Cir. 1998). There
is no evidence in the record supporting either of these

24a
claims. The mere fact that reporters followed Sheriff’s
Department procedures to request interviews does not
prove that they submitted to the State’s control or received some benefit. The district court correctly observed
that “[t]o hold otherwise would transform every media interview conducted with an individual under custodial detention into a custodial interrogation by a de facto state
agent.”
Not only does Broadnax lack evidence to support his
“critical stage” assertion, but he cites no legal authority
for the proposition that voluntary media interviews, conducted within days of an initial appearance, are a “critical
stage” of a prosecution requiring the presence of defense
counsel. The Teague principle, ensconced in AEDPA, forbids federal courts to make “new rules” of criminal procedure in habeas corpus review of final state convictions.
Woods v. Donald, 575 U.S. 312, 317, 135 S. Ct. 1372, 137677 (2015); Teague v. Lane, 489 U.S. 288, 299-310, 109 S.
Ct. 1060, 1069-1075 (1989).
Reasonable jurists would not debate the district
court’s conclusion that the state courts reasonably rejected this claim.
D. Ineffective Assistance of Appellate Counsel
Broadnax contends that his appellate counsel was ineffective for failing to challenge the admission of Dr.
Price’s testimony on direct appeal. He alleges that although Dr Price, a rebuttal witness for the prosecution, did
not render an expert diagnosis that Broadnax is a “psychopath,” his testimony concerning such a diagnosis was
inflammatory, inadmissible and harmful under various
provisions of Texas law. Despite this, Broadnax’s counsel
did not raise the issue among nearly five dozen appellate
issues he did assert. The district court acknowledged that

25a
Broadnax had not exhausted the claim in the state courts
but rejected it on de novo review, concluding that the appellate counsel did not render ineffective assistance by
failing to assert a meritless challenge to Dr. Price’s testimony. See Davila v. Davis, 137 S. Ct. 2058, 2067 (2017) (declining to raise a claim on appeal is not deficient performance unless that claim was plainly stronger than those
actually presented to the appellate court).
The district court found neither prong of the Strickland test for ineffective assistance of counsel satisfied. See
Smith v. Robbins, 528 U.S. 259, 285, 125 S. Ct. 746, 764
(2000) (explaining that the Strickland test inquires
whether counsel’s conduct was objectively unreasonable
under then-current legal standards and whether counsel’s
allegedly deficient performance “prejudiced” the petitioner). In addition, appellate counsel is not required to
raise every non-frivolous claim on appeal. Id. at 288, 125
S. Ct. at 765-66.
We need not review the professional quality of counsel’s appellate work under Strickland, because we cannot
fault the district court’s conclusion that Broadnax failed
to show that the admission of this evidence was harmful.
On cross-examination, Dr. Price admitted “(1) psychopathy is not listed in the DSM-IV, (2) the closest thing to
psychopathy in the DSM-IV is a personality disorder, (3)
people who have the traits of psychopathy may not be a
psychopath, and (4) some of the traits of a psychopath are
consistent with those of an immature person.” Dr. Price
admitted he was not making a mental health evaluation of
Broadnax. When this testimony is viewed in light of the
heinousness of the crime and Broadnax’s utter lack of remorse, even if its admission was erroneous under state
law, the testimony was not prejudicial. Broadnax did not
demonstrate that but for appellate counsel’s error, there

26a
was a reasonable likelihood that he would not have been
sentenced to death. Strickland v. Washington, 466 U.S.
668, 687-91, 694, 104 S. Ct. 2052, 2064-66, 2068 (1984). The
district court’s rejection of this ineffectiveness claim is not
debatable by reasonable jurists.
E. Relevant Legal Standards
Lastly, Broadnax argues that the district court failed
to apply the correct legal standards when reviewing his
claims. This contention, at its core, is merely an attempt
to dispute the court’s reasoning and portions of the evidence the district court considered in its monumental
opinion. These assertions are meritless.
First, the district court did not misapply AEDPA
standards, because no change in the statutory standards
relevant here was occasioned by Wilson v. Sellers, 138 S.
Ct. 1188 (2018). The district court reviewed the state
courts’ reasoning in accord with AEDPA.
Second, the district court did not fail to base its conclusion about Broadnax’s selective prosecution claim on
an independent review of the evidence in the record. Even
a cursory reading of the district court’s opinion reveals
that it carefully examined the record and new statistical
evidence he raised. The district court did not consider the
statistical evidence persuasive because Broadnax was not
“similarly situated” to other defendants.
Next, Broadnax challenges the district court’s finding
of fact concerning when the State’s spreadsheet detailing
the race and sex of veniremembers was created. That determination is irrelevant to the court’s conclusion, addressed above, that the spreadsheet was barred from consideration by Pinholster.

27a
Finally, Broadnax errs in claiming the district court
made its own finding of fact that Broadnax was not under
the influence of drugs at the time of his media interviews
and thus ignored the testimony of mental health experts
who examined Broadnax. This is inaccurate. The district
court did consider testimony of each of these individuals
concerning Broadnax’s drug use, even as it observed deficiencies in their statements. The district court also considered Broadnax’s demeanor during the taped interviews and the testimony of the jail employee who accompanied Broadnax to his interviews.
V. CONCLUSION
For these reasons, we have DENIED COA in part and
AFFIRM the district court’s judgment in part.

28a

APPENDIX B
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION

No. 3:15-CV-1758-N

JAMES GARFIELD BROADNAX,
Petitioner,
v.
LORIE DAVIS, DIRECTOR,
Respondent.

Filed: July 23, 2019

MEMORANDUM OPINION AND ORDER
GODBEY, United States District Judge.
Petitioner James Garfield Broadnax filed this federal
habeas corpus action pursuant 28 U.S.C. § 2254 challenging his August 2009 Dallas County conviction for capital
murder and sentence of death. For the reasons discussed
below, Broadnax is not entitled to federal habeas corpus
relief or a Certificate of Appealability from this Court.

29a
I. BACKGROUND
A. The Offense and Aftermath
During the early morning hours of June 19, 2008,
Broadnax and his cousin Demarius Cummings fatally shot
and robbed Stephen Swan and Matthew Butler in the
parking lot of Butler’s recording studio in downtown Garland. There is no genuine dispute about these facts.
Within days of his arrest, Broadnax gave a series of recorded interviews with four Dallas area television stations
during which he confessed in graphic terms to fatally
shooting Swan and Butler, robbing them, and driving
away from the crime scene in Swan’s vehicle.1 During one
of his television interviews, all of which were later broadcast, Broadnax informed his interviewer that he hoped to
receive the death penalty and insisted that, if he did not
receive the death penalty, he would kill again.
B. Indictment
On September 15, 2008, a Dallas County grand jury
indicted Broadnax on a single count of capital murder, to
wit, intentionally causing the death of Stephen Swan by
shooting Swan with a firearm, a deadly weapon, in the
course of committing and attempting to commit Swan’s
robbery.2

Three of Broadnax’s videotaped interviews were admitted into evidence and played in open court during the guilt-innocence phase of
Broadnax’s capital murder trial.
1

2
Multiple copies of Broadnax’s indictment appear among the voluminous state court records submitted by Respondent. One copy appears among the state court records from Broadnax’s state trial court
proceeding at Clerk’s Record, Vol. 1 of 3, at 1-2 [38-4 ECF at 5-6 of
219].

30a
C. Guilt-Innocence Phase of Trial
The guilt-innocence phase of Broadnax’s capital murder trial commenced on August 10, 2009.3 The prosecution
called three of the television reporters who interviewed
Broadnax and played recordings of their interviews with
Broadnax, as well as presented a host of other witnesses
who (a) established Swan’s cause of death, (b) linked
Broadnax and Cummings to Swan’s vehicle (the one in
which they were traveling at the time of their arrest) and
a set of tools belonging to Swan which Cummings and
Broadnax pawned the day of the murders, and (c) linked
Broadnax and Cummings to a handgun later determined
to be the murder weapon. The defense presented a series
of witnesses through whom it attempted to show that
Broadnax was intoxicated on PCP and marijuana at the
time of his offense and was suffering from the long-lasting
effects of his PCP ingestion, including experiencing psychotic delusions, at the time he gave his televised interviews.4 The jury returned its verdict on August 12, 2009,
finding Broadnax guilty of capital murder.
D. Punishment Phase of Trial
The punishment phase of Broadnax’s capital murder
trial commenced on August 13, 2009.5 The prosecution
presented (1) victim impact testimony from Butler’s
3
See Appendix I below for a synopsis of the testimony and other
evidence admitted during the guilt-innocence phase of Broadnax’s
capital murder trial.

47 S.F. Trial at 203 [41-21 ECF at 59 of 60]. Broadnax’s guiltinnocence phase verdict form appears at Clerk’s Record, Vol. 3 of 3,
at 635 [38-8 ECF at 98 of 256].
4

5
See Appendix II below for a synopsis of the testimony and other
evidence admitted during the punishment phase of Broadnax’s capital
murder trial.

31a
mother and Swan’s mother, (2) testimony concerning the
results of Butler’s autopsy, (3) the custodian of Dallas
County Jail inmate telephone records, (4) a pair of investigators for the Dallas County District Attorney’s Office,
(5) a Dallas County Jail Special Response Team officer
who helped supervise a shakedown of Broadnax’s cell during which Broadnax became agitated and had to be restrained physically, (6) a Dallas County Jail detention officer who broke up a fight between Broadnax and another
inmate in the jail’s recreational area, (7) a Dallas County
Jail detention officer who witnessed Broadnax strike a different inmate in an unprovoked assault only weeks before
the start of Broadnax’s capital murder trial and the inmate Broadnax assaulted, (8) a member of the Dallas Police Department’s gang unit, who identified various symbols and phrases Broadnax employed in his drawings and
writings as indicating Broadnax’s gang membership,6 and
(9) the assistant Warden of a Texas Department of Criminal Justice (“TDCJ”) unit, who explained the TDCJ’s system for classifying prisoners, the TDCJ’s prison disciplinary procedures, and other aspects of prison life in
Texas.7
Both during his state habeas corpus proceeding and in his federal
habeas corpus proceeding, Broadnax has argued in conclusory fashion that Officer Nelson’s trial testimony was factually inaccurate. The
only disagreement with Officer Nelson’s trial testimony identified
with specificity in Broadnax’s pleadings in this Court, however, is
with Nelson’s opinion that Broadnax was a “member” of the Gangster
Disciples. Broadnax presented the state habeas court, and presents
this Court, with no evidence showing any of the factual information
to which Nelson testified regarding the history, criminal activities, or
symbols of the Gangster Disciples was in any manner inaccurate.
6

As explained in a previous Order, the hard copy version of Volume
49 of the S.F. Trial and the electronically filed version of that same
volume, found at 41-23 ECF both cut off at page 160 [41-23 ECF at
198 of 198]. A complete version of Warden Nelson’s testimony does
7

32a
Broadnax’s defense team called (1) a research psychologist who testified regarding the processes of brain
development in humans, (2) a psychiatrist who treated
Broadnax at the Dallas County Jail and diagnosed
Broadnax with substance abuse-induced psychosis, (3) a
professor and researcher in clinical pharmacology who
opined that Broadnax was under the influence of marijuana and PCP at the time of his offense and during his interviews several days later, (4) a cousin of Broadnax’s
mother, who testified to Broadnax’s good character as a
child, (5) a trio of Broadnax’s maternal aunts, concerning
Broadnax’s abusive childhood, (6) Broadnax’s mother,
who testified extensively regarding her own difficulties
growing up, Broadnax’s family background, her many unstable relationships with men, and Broadnax’s extremely
unstable, difficult, childhood, (7) Broadnax’s brother-inlaw, who testified regarding Broadnax’s good character
traits and responsible behavior as a baby sitter, (8) two of
Broadnax’s cousins, who testified to Broadnax’s good
character, (9) the Dallas County Jail inmate with whom
Broadnax fought in the recreational area, who testified he
started the fight between them because he felt Broadnax
had disrespected him, (10) two persons who knew
Broadnax’s family, who testified via deposition about the
difficult challenges Broadnax faced growing up, (11)
Broadnax’s sister, who testified about Broadnax’s unstable abusive childhood, her own experiences growing up
with their abusive mother, and Broadnax’s difficult teen-

appear, however, on a CD-ROM marked “Volume 1-54 & Supp. Volumes” that was submitted to this Court by Respondent along with
similarly formatted copies of the audio and video recordings filed in
this cause. This Court has printed a hard copy of pages 161-255 from
Volume 49 S.F. Trial and included it with the rest of Volume 49 among
the hard copy of the state court record in this cause.

33a
age years, and (12) one of Broadnax’s mother’s ex-husbands, who testified that he ended their relationship and
threw Broadnax’s mother out of his house after she beat
Broadnax so badly his back was bloody.
After the defense rested at the punishment phase of
trial, in rebuttal the prosecution (1) introduced
Broadnax’s Dallas County Jail commissary account records and a series of recordings of telephone calls
Broadnax made from the Dallas County Jail on the same
day the jury returned its verdict at the guilt-innocence
phase of trial, (2) presented the testimony of a forensic
psychologist, who read a list of the characteristics of a
psychopathic personality, explained in layman’s terms
what each of the terms in the list meant, but also admitted
that he had not interviewed Broadnax and expressly declined to offer an opinion as to whether Broadnax possessed any of the traits of a psychopathic personality he
identified and defined for the jury,8 and (3) presented
more victim impact testimony from Swan’s younger sister
and brother.
On August 20, 2009, the jury returned its punishment
phase verdict, answering the Texas capital sentencing
scheme’s future dangerousness special issue affirmatively

8
While Broadnax argues Dr. Price’s rebuttal testimony was prejudicial and should not have been admitted into evidence, he fails to note
that Dr. Price’s testimony regarding the character traits of a “psychopathic personality” did not differ significantly from the list of
character traits contained in the DSM-IV-TR’s definition of Antisocial Personality Disorder admitted into evidence (as State Exhibit no.
581) during the cross-examination of defense expert Dr. Lane. Testimony of Dr. Frank Lane, 50 S.F. Trial at 147-48 [41-24 ECF at 48 of
90].

34a
and the mitigation special issue negatively.9 After excusing the jury, the trial court pronounced sentence, imposing the death penalty.10
E. Direct Appeal
Broadnax appealed his conviction and sentence.11 The
Texas Court of Criminal Appeals affirmed Broadnax’s
54 S.F. Trial at 4-5 [40-3 ECF at 5-6 of 10]. Broadnax’s punishment phase verdict form appears at Clerk’s Record, Vol. 3 of 3, at 65051 [38-8 ECF at 113-14 of 256].
9

10

54 S.F. Trial at 6-7 [40-3 ECF at 7-8 of 10].

Attorney John Tatum filed Broadnax’s Appellant’s Brief on February 9, 2011, asserting fifty-six points of error. A complete copy of
Broadnax’s Appellant’s Brief appears at 42-7 ECF at 1-152 of 152. In
his first seven points of error, Broadnax argued the state trial court
erred in overruling his Batson challenges to the prosecution’s exercise of peremptory strikes against seven different members of the
jury venire. In his eighth through twenty-third points of error,
Broadnax argued the state trial court erroneously denied his challenges for cause to specific members of the jury venire. In his twentyfourth and twenty-fifth points of error, Broadnax argued his petit
jury was biased and prejudiced against him. In his twenty-sixth
through thirty-third and thirty-fifth points of error, Broadnax argued
the state trial court committed a variety of erroneous evidentiary rulings, including (1) excluding his proffered evidence of diminished capacity, (2) admitting his interviews with television reporters, (3) admitting a variety of graphic autopsy and crime scene photographs,
and (4) admitting expert testimony concerning Broadnax’s alleged
gang affiliation. In his thirty-fourth, thirty-seventh, and fortieth
points of error, Broadnax argued there was legally insufficient evidence (1) establishing he was guilty of capital murder, (2) supporting
the jury’s affirmative finding of future dangerousness, and (3) supporting the trial court’s imposition of court costs as part of its Judgment. In his thirty-sixth point of error, Broadnax argued the trial
court erred in denying his requested limiting jury instruction regarding evidence of gang affiliation. In his thirty-eighth and thirty-ninth
points of error, Broadnax argued the trial court erred in imposing
court costs as part of its Judgment. In his forty-first through fiftyfourth points of error, Broadnax asserted a wide range of challenges
11

35a
conviction and sentence. Broadnax v. State, AP-76,207,
2011 WL 6225399 (Tex. Crim. App. Dec. 14, 2011), cert.
denied, 568 U.S. 828 (2012).
F. State Habeas Corpus Proceeding
Broadnax subsequently filed an application for state
habeas corpus relief.12 The state trial court held an eviden-

to the constitutionality of the Texas capital sentencing special issues,
including challenges to the alleged vagueness of the terms included
therein, the open-ended discretion exercised by his sentencing jury in
answering the mitigation special issue, the lack of meaningful state
appellate review for the jury’s answers to the special issues, as well
as the trial court’s refusal to impose an express “beyond a reasonable
doubt” burden of proof on the prosecution in connection with the mitigation special issue. In his final two points of error, Broadnax argued
the trial court erred in refusing to quash the indictment for due process violations under both state and federal constitutional principles.
Attorney Lydia M.V. Brandt filed Broadnax’s state habeas corpus application on December 20, 2011, asserting eight grounds for relief. An apparently corrupted copy of Broadnax’s state habeas corpus
application (containing shifts in font size and style) appears at 42-1
ECF at 6-106 of 258. As grounds for relief in his state habeas application, Broadnax argued (1) his interviews by the media violated his
rights under the Fifth, Sixth, and Fourteenth Amendments, (2) his
trial counsel rendered ineffective assistance in violation of the Sixth
Amendment by (a) failing to adequately investigate and present evidence showing his media interviews violated constitutional principles,
(b) failing to object to the admission of gang affiliation expert testimony and failing to cross-examine the prosecution’s gang expert, (c)
opening the door to the admission of expert testimony concerning antisocial personality disorder during the direct testimony of Dr. Lane,
and (d) failing to cross-examine and rebut prosecution witness Dr.
Price concerning his characterizations of a psychopathic personality,
(3) the prosecution knowingly introduced false and misleading expert
testimony regarding Broadnax’s gang affiliation, (4) the admission of
evidence of Broadnax’s gang affiliation violated his First Amendment
12

36a
tiary hearing in Broadnax’s state habeas corpus proceeding on December 7, 2012 and heard testimony from (1) a
trio of Dallas area criminal defense attorneys regarding
their experiences with media requests to interview their
own clients at the Dallas County Jail and their belief the
Dallas County Sheriff’s Department encouraged jail inmates to talk to the media, (2) Broadnax’s trial defense
team’s court-appointed investigator regarding his unsuccessful efforts prior to trial to interview and serve subpoenas on the members of the media who interviewed
Broadnax, (3) an educational specialist and gang awareness trainer who represented himself as a gang expert, (4)
two of Broadnax’s three criminal defense attorneys from
his capital murder trial, who testified concerning their
strategic decision-making, and (5) a professor of psychology at Texas A&M University who opined that the list of
psychopathic personality characteristics which Dr. Price
introduced to the jury and the definition of Antisocial Personality Disorder introduced during the cross-examination of Dr. Lane were both scientifically invalid as predictors of future violence in prison.13
On September 17, 2014, the state habeas trial court issued its findings of fact and conclusions of law and recommendation that state habeas corpus relief be denied, concluding in pertinent part that (1) the reporters who interviewed Broadnax prior to trial were not acting as agents
of the State, (2) there was no showing the testimony of either B.K. Nelson or Dr. Price was factually inaccurate or

rights, and (5) the trial court admitted false and misleading testimony
regarding Broadnax’s antisocial personality disorder.
13
See Appendix III below for a synopsis of the testimony and other
evidence admitted during the evidentiary hearing held in Broadnax’s
state habeas corpus proceeding.

37a
otherwise false, (3) Chapter 61 of the Texas Code of Criminal Procedure does not deal with the admissibility of evidence of gang membership, (4) the evidence of Broadnax’s
fascination with the Gangster Disciples was overwhelming, and (5) attorney Lollar furnished credible testimony
regarding the defense team’s strategic reasons for not
challenging the punishment phase trial testimony of Dr.
Price and Detective Nelson.14 On May 20, 2015, the Texas
Court of Criminal Appeals denied Broadnax’s state habeas corpus application in an unpublished order adopting
the trial court’s findings and conclusions. Ex parte James
Garfield Broadnax, WR- 81,573-01, 2015 WL 2452758
(Tex. Crim. App. May 20, 2015), cert. denied, 136 S. Ct. 77
(2015).15
G. Proceedings in this Court
Broadnax filed his original petition for federal habeas
corpus relief on May 18, 2016 [ECF no. 29]. On November
18, 2016, Broadnax filed his first amended federal habeas
corpus petition, asserting a variety of claims of ineffective
assistance by his state trial and appellate counsel, claims
of alleged Batson violations and other allegedly erroneous
rulings by the state trial court during jury selection, and
a host of other claims, including assertions of erroneous
evidentiary rulings, alleged errors in his punishment
phase jury charge, a plethora of challenges to the Texas
capital sentencing special issues, and an Eighth Amendment challenge to death penalty [ECF no. 48]. Respondent filed her answer on June 26, 2017 [ECF no. 63].
The state trial court’s Order issued September 17, 2014 containing its findings and conclusions appears at 42-6 ECF at 39-72 of 163.
14

15
A copy of the Texas Court of Criminal Appeals’ per curiam order
denying Broadnax’s state habeas corpus application appears at 42-8
ECF at 3-4 of 4.

38a
Broadnax filed his reply brief on October 4, 2017 [ECF no.
69].
II. STANDARD OF REVIEW
Because Broadnax filed his federal habeas corpus action after the effective date of the Anti- Terrorism and Effective Death Penalty Act (“AEDPA”), this Court’s review of Broadnax’s claims for federal habeas corpus relief
is governed by AEDPA. Penry v. Johnson, 532 U.S. 782,
792 (2001). Under the AEDPA standard of review, this
Court cannot grant Broadnax federal habeas corpus relief
in connection with any claim that was adjudicated on the
merits in state court proceedings, unless the adjudication
of that claim either: (1) resulted in a decision that was contrary to, or involved an unreasonable application of,
clearly established Federal law, as determined by the Supreme Court of the United States, or (2) resulted in a decision that was based on an unreasonable determination
of the facts in light of the evidence presented in the state
court proceeding. Brown v. Payton, 544 U.S. 133, 141
(2005); Williams v. Taylor, 529 U.S. 362, 404-05 (2000); 28
U.S.C. § 2254(d).
The Supreme Court has concluded the “contrary to”
and “unreasonable application” clauses of Title 28 U.S.C.
Section 2254(d)(1) have independent meanings. Bell v.
Cone, 535 U.S. 685, 694 (2002). Under the “contrary to”
clause, a federal habeas court may grant relief if (1) the
state court arrives at a conclusion opposite to that reached
by the Supreme Court on a question of law or (2) the state
court decides a case differently than the Supreme Court
on a set of materially indistinguishable facts. Brown v.
Payton, 544 U.S. at 141, 125 S.Ct. at 1438; Mitchell v. Esparza, 540 U.S. 12, 15-16 (2003) (“A state court’s decision
is ‘contrary to’ our clearly established law if it ‘applies a
rule that contradicts the governing law set forth in our

39a
cases’ or it ‘confronts a set of facts that are materially indistinguishable from a decision of this Court and nevertheless arrives at a result different from our precedent.’”).
A state court’s failure to cite Supreme Court authority
does not, per se, establish the state court’s decision is
“contrary to” clearly established federal law: “the state
court need not even be aware of our precedents, ‘so long
as neither the reasoning nor the result of the state-court
decisions contradicts them.’” Mitchell v. Esparza, 540
U.S. at 16.
Under the “unreasonable application” clause, a federal
habeas court may grant relief if the state court identifies
the correct governing legal principle from the Supreme
Court’s decisions but unreasonably applies that principle
to the facts of the petitioner’s case. Brown v. Payton, 544
U.S. at 141; Wiggins v. Smith, 539 U.S. 510, 520 (2003). A
federal court making the “unreasonable application” inquiry should ask whether the state court’s application of
clearly established federal law was “objectively unreasonable.” McDaniel v. Brown, 558 U.S. 120, 132-33 (2010) (“A
federal habeas court can only set aside a state-court decision as ‘an unreasonable application of . . . clearly established Federal law,’ § 2254(d)(1), if the state court’s application of that law is ‘objectively unreasonable.’”); Wiggins
v. Smith, 539 U.S. at 520-21. The focus of this inquiry is on
whether the state court’s application of clearly established
federal law was objectively unreasonable; an “unreasonable” application is different from a merely “incorrect” one.
Schriro v. Landrigan, 550 U.S. 465, 473 (2007) (“The
question under the AEDPA is not whether a federal court
believes the state court’s determination was incorrect but
whether that determination was unreasonable—substantially higher threshold.”); Wiggins v. Smith, 539 U.S. at
520; Price v. Vincent, 538 U.S. 634, 641 (2003) (“it is the

40a
habeas applicant’s burden to show that the state court applied that case to the facts of his case in an objectively unreasonable manner”). “Under the Antiterrorism and Effective Death Penalty Act, a state prisoner seeking a writ
of habeas corpus from a federal court ‘must show that the
state court's ruling on the claim being presented in federal
court was so lacking in justification that there was an error well understood and comprehended in existing law beyond any possibility for fairminded disagreement.’”
Bobby v. Dixon, 565 U.S. 23, 24 (2011) (quoting Harrington v. Richter, 562 U.S. 86, 101(2011)).
Legal principles are “clearly established” for purposes
of AEDPA review when the holdings, as opposed to the
dicta, of Supreme Court decisions as of the time of the relevant state court decision establish those principles. Yarborough v. Alvarado, 541 U.S. 652, 660-61 (2004) (“We
look for ‘the governing legal principle or principles set
forth by the Supreme Court at the time the state court
renders its decision.’”); Lockyer v. Andrade, 538 U.S. 63,
71-72 (2003).
AEDPA also significantly restricts the scope of federal habeas review of state court fact findings. Section
2254(d)(2) of Title 28, United States Code, provides federal habeas relief may not be granted on any claim that
was adjudicated on the merits in the state courts unless
the state court’s adjudication of the claim resulted in a decision based on an unreasonable determination of the
facts in light of the evidence presented in the state court
proceeding. Wood v. Allen, 558 U.S. 290, 301(2010) (“[A]
state-court factual determination is not unreasonable
merely because the federal habeas court would have
reached a different conclusion in the first instance.”); Williams v. Taylor, 529 U.S. at 410 (“[A]n unreasonable ap-

41a
plication of federal law is different from an incorrect application of federal law.”). Even if reasonable minds reviewing the record might disagree about the factual finding in question (or the implicit credibility determination
underlying the factual finding), on habeas review, this
does not suffice to supersede the trial court’s factual determination. Wood v. Allen, 558 U.S. at 301; Rice v. Collins, 546 U.S. 333, 341-42 (2006).
In addition, section 2254(e)(1) provides a federal habeas petitioner challenging state court factual findings
must establish by clear and convincing evidence that the
state court’s findings were erroneous. Schriro v. Landrigan, 550 U.S. at 473-74 (“AEDPA also requires federal
habeas courts to presume the correctness of state courts’
factual findings unless applicants rebut this presumption
with ‘clear and convincing evidence.’”); Rice v. Collins, 546
U.S. 333, 338-39 (2006) (“State-court factual findings,
moreover, are presumed correct; the petitioner has the
burden of rebutting the presumption by ‘clear and convincing evidence.’”); Miller-El v. Dretke, 545 U.S. 231, 240
(2005) (“[W]e presume the Texas court’s factual findings
to be sound unless Miller-El rebuts the ‘presumption of
correctness by clear and convincing evidence.’”); 28
U.S.C. § 2254(e)(1). It remains unclear at this juncture
whether section 2254(e)(1) applies in every case presenting a challenge to a state court’s factual findings under
section 2254(d)(2). See Wood v. Allen, 558 U.S. at 300-01
(choosing not to resolve the issue of section 2254(e)(1)’s
possible application to all challenges to a state court’s factual findings); Rice v. Collins, 546 U.S. at 339 (likewise refusing to resolve the Circuit split regarding the application of Section 2254(e)(1)).
The deference to which state-court factual findings are
entitled under AEDPA does not imply an abandonment

42a
or abdication of federal judicial review. See Miller-El v.
Dretke, 545 U.S. at 240 (the standard is “demanding but
not insatiable”); Miller-El v. Cockrell, 537 U.S. 322, 340
(2003) (“Even in the context of federal habeas, deference
does not imply abandonment or abdication of judicial review. Deference does not by definition preclude relief.”).
Finally, in this Circuit, a federal habeas court reviewing a state court’s rejection on the merits of a claim for
relief pursuant to AEDPA must focus exclusively on the
propriety of the ultimate decision reached by the state
court and not evaluate the quality, or lack thereof, of the
state court’s written opinion supporting its decision. See
Evans v. Davis, 875 F.3d 210, 216-17 (5th Cir. 2017) (section 2254(d) directs federal habeas courts to review only a
state court’s ultimate decision and not the written opinion
explaining that decision and requires the federal court to
consider all the arguments and theories that could have
supported the state court’s decision), cert. denied, 139 S.
Ct. 78 (2018); Woodfox v. Cain, 609 F.3d 774, 789 (5th Cir.
2010) (“[W]e review for objective reasonableness the state
court’s ultimate legal decision, not necessarily the state
court’s opinion and legal reasoning for its ultimate decision.”); Maldonado v. Thaler, 625 F.3d 229, 239 (5th Cir.
2010) (federal habeas review of a state court’s adjudication involves review only of a state court’s decision, not the
written opinion explaining the decision), cert. denied, 565
U.S. 829 (2011).
III. CONSTITUTIONALITY OF THE DEATH
PENALTY
In his final claim for federal habeas relief in his
amended petition, Broadnax argues that the death penalty is in all cases an unconstitutional violation of the

43a
Eighth Amendment’s prohibition against cruel and unusual punishments.16 In support of this claim, Broadnax
cites to the Supreme Court’s holdings in three cases appealed directly to that court from the highest appellate
courts of Louisiana, Missouri, and Virginia. See Kennedy
v. Louisiana, 554 U.S. 407, 446-47 (2008) (holding the
Eighth Amendment prohibits imposition of the death penalty for rape of a child where the crime did not result, and
was not intended to result, in the death of the victim);
Roper v. Simmons, 543 U.S. 551, 578 (2005) (holding the
execution of individuals who were under eighteen years of
age at the time of their capital crimes is prohibited by the
Eighth and Fourteenth Amendments); Atkins v. Virginia, 536 U.S. 304, 321 (2002) (holding executions of mentally retarded criminals are cruel and unusual punishments prohibited by the Eighth Amendment). Therein
lies the rub for Broadnax: not any of those cases were federal habeas corpus proceedings subject to the constraints
imposed by AEDPA. As explained above, AEDPA greatly
limits the ability of this Court to grant federal habeas corpus relief when a state court has acted in a manner consistent with clearly established federal law, as set forth in
the precedents of the Supreme Court. The Supreme
ECF no. 48 at 146-51. In his forty-first through fifty-sixth points
of error in his Appellant’s Brief, Broadnax fairly presented the Texas
Court of Criminal Appeals with numerous constitutional arguments
challenging the Texas capital sentencing scheme, including specific
challenges to various aspects of the Texas capital sentencing special
issues, the manner in which burdens of proof are imposed (or not imposed) in those special issues, and (in his forty-first, forty-seventh,
and forty-eighth points of error) the overall constitutionality of imposing the ultimate form of criminal punishment. Broadnax’s Appellant’s Brief at 111-24 [42-7 ECF at 138-51 of 152]. The Texas Court of
Criminal Appeals rejected all of these federal constitutional attacks
upon the Texas capital sentencing scheme on the merits. Broadnax v.
State, 2011 WL 6225399, at *18-*20.
16

44a
Court recently reaffirmed the constitutional vitality of
capital punishment. See Bucklew v. Precythe, 139 S. Ct.
1112, 1122 (2019) (“The Constitution allows capital punishment.”). Because the Supreme Court has never declared the death penalty unconstitutional per se, the rejection on the merits of Broadnax’s Eighth Amendment
challenge to his sentence by the Texas Court of Criminal
Appeals in the course of Broadnax’s direct appeal was
wholly consistent with clearly established federal law and
does not furnish a basis for federal habeas corpus relief.
Likewise, because they were direct appeal cases accepted for certiorari review by the Supreme Court from
state appellate courts, none of the three Supreme Court
opinions relied upon by Broadnax in his federal habeas
corpus petition were limited by the Supreme Court’s
longstanding nonretroactivity doctrine announced in
Teague v. Lane, 489 U.S. 288 (1989), which forecloses
adoption of the new principles of federal constitutional
criminal procedure in federal habeas corpus proceedings.
Under the holding in Teague, federal courts are generally
barred from applying new constitutional rules of criminal
procedure retroactively on collateral review. Caspari v.
Bohlen, 510 U.S. 383, 389-90 (1994). A “new rule” for
Teague purposes is one which was not dictated by precedent existing at the time the defendant's conviction became final. See O'Dell v. Netherland, 521 U.S. 151, 156
(1997) (holding a “new rule” either “breaks new ground,”
“imposes a new obligation on the States or the Federal
Government,” or was not “dictated by precedent existing
at the time the defendant’s conviction became final”). Under this doctrine, unless reasonable jurists hearing the defendant’s claim at the time his conviction became final
would have felt compelled by existing precedent to rule in
his favor, a federal habeas court is barred from doing so
on collateral review. Id.

45a
The holding in Teague is applied in three steps: first,
the court must determine when the petitioner’s conviction
became final; second, the court must survey the legal
landscape as it then existed and determine whether a
state court considering the petitioner’s claim at the time
his conviction became final would have felt compelled by
existing precedent to conclude that the rule he seeks was
required by the Constitution; and third, if the rule advocated by the petitioner is a new rule, the court must determine whether the rule falls within one of the two narrow exceptions to the nonretroactivity principle. Caspari
v. Bohlen, 510 U.S. at 390.
The only two exceptions to the Teague nonretroactivity doctrine are reserved for (1) new rules forbidding
criminal punishment of certain primary conduct and rules
prohibiting a certain category of punishment for a class of
defendants because of their status or offense and (2) “watershed” rules of criminal procedure implicating the fundamental fairness and accuracy of the criminal proceeding, i.e., a small core of rules requiring observance of those
procedures that are implicit in the concept of ordered liberty. O'Dell v. Netherland, 521 U.S. at 157. Broadnax’s
proposed new rule barring the imposition of the death
penalty in all criminal cases satisfies neither of these two
exceptions. A conviction becomes final for Teague purposes when either the United States Supreme Court denies a certiorari petition on the defendant’s direct appeal
or the time period for filing a certiorari petition expires.
Caspari v. Bohlen, 510 U.S. at 390. Broadnax’s conviction
became final for Teague purposes no later than October 1,
2012, i.e., the date the United States Supreme Court denied Broadnax’s petition for writ of certiorari following
the Texas Court of Criminal Appeals’ affirmation of his
conviction and sentence. See Beard v. Banks, 542 U.S. 406,

46a
411-12 (2004) (recognizing a state criminal conviction ordinarily becomes final for Teague purposes when the
availability of direct appeal to the state courts has been
exhausted and the time for filing a petition for writ of certiorari has elapsed or a timely filed petition for certiorari
has been denied); Caspari v. Bohlen, 510 U.S. at 390 (“A
state conviction and sentence become final for purposes of
retroactivity analysis when the availability of direct appeal to the state courts has been exhausted and the time
for filing a petition for a writ of certiorari has elapsed or a
timely filed petition has been finally denied.”)
Teague remains applicable after the passage of
AEDPA. See Horn v. Banks, 536 U.S. 266, 268-72 (2002)
(applying Teague in an AEDPA context); Robertson v.
Cockrell, 325 F.3d 243, 255 (5th Cir. 2003) (recognizing the
continued vitality of the Teague nonretroactivity doctrine
under AEDPA). As of the date Broadnax’s conviction and
sentence became final for Teague purposes no federal
court had ever held a Texas criminal defendant was entitled to have his capital sentence vacated on Eighth
Amendment grounds because the sentence of death is in
all cases “cruel or unusual” under Eighth Amendment
principles. Thus, under Teague, Broadnax’s final claim
does not warrant federal habeas corpus relief under even
a de novo standard of review.
IV. CHALLENGES TO TEXAS CAPITAL
SENTENCING SCHEME & JURY CHARGE
Broadnax challenges four aspects of the Texas capital
sentencing scheme, specifically, (1) the absence of a burden of proof in the mitigation special issue, (2) the presence of allegedly vague terms in both of the two capital
sentencing special issues submitted in his trial, (3) the validity of the Texas twelve/ten rule, and (4) the trial court’s
failure to instruct his capital sentencing jury that it was

47a
required to consider all mitigating evidence individually.17
For the reasons discussed below, all of these arguments
lack arguable merit.18

ECF no. 48 at 133-45. As explained in note 13, Broadnax presented variations on these same complaints in his forty-first through
fifty-sixth points of error in his Appellant’s Brief and the Texas Court
of Criminal Appeals rejected each of these arguments on the merits.
17

Rule 11 of the Federal Rules of Civil Procedure provides in pertinent part that an attorney filing a litigation document (including a
federal habeas corpus petition) certifies that the document (1) is not
being presented for any improper purpose, such as to harass, cause
unnecessary delay, or needlessly increase the cost of litigation and (2)
the claims, defenses, and other legal contentions are warranted by
existing law or by a nonfrivolous argument for extending, modifying,
or reversing existing law or for establishing new law. Snow Ingredients, Inc. v. SnoWizard, Inc., 833 F.3d 512, 528 (5th Cir. 2016). As is
explained at length below, Broadnax’s complaints about the absence
of a burden of proof in the Texas capital sentencing scheme’s mitigation special issue and the constitutionality of the Texas twelve/ten
rule have been consistently rejected by the Fifth Circuit for decades,
followed by consistent denials of certiorari review of those same decisions by the Supreme Court. Despite the long lines of Fifth Circuit
case law rejecting the legal arguments underlying Broadnax’s challenges to the Texas capital sentencing scheme, Broadnax has made
no good faith effort in this cause to distinguish any of the relevant
Fifth Circuit case law rejecting his legal arguments, much less offer
a nonfrivolous justification for extending, modifying, or reversing existing law or for establishing new law. In the context of a federal habeas corpus proceeding, any argument for the establishment of “new
law” must necessarily address the twin concerns of (1) the extremely
narrow standard of review mandated by AEDPA and (2) the nonretroactivity doctrine announced in Teague. It is in this particular regard
that Broadnax’s challenges to the Texas capital sentencing scheme
are deficient under Rule 11. While this Court will not impose sanctions pursuant to Rule 11 in this case, counsel in this cause and all
federal habeas counsel are admonished to avoid asserting claims before this Court which have routinely been rejected by the Fifth Circuit without also furnishing this Court some nonfrivolous legal argument for “for extending, modifying, or reversing existing law or for
18

48a
A. Absence of a Burden of Proof in the Mitigation
Special Issue
Neither the Supreme Court’s opinion in Apprendi nor
any of the Supreme Court’s subsequent opinions construing its holding in Apprendi (including the holdings in
Hurst, Ring, and Alleyne cited by Broadnax), mandate
imposition of a burden of proof on the prosecution with
regard to the Texas capital sentencing scheme’s mitigation special issue. Kansas v. Carr, 136 S. Ct. 633, 642
(2016); Allen v. Stephens, 805 F.3d 617, 626-28 (5th Cir.
2015). In fact, the Supreme Court has expressly recognized the lack of efficacy in selection phase jury instructions addressing mitigating evidence:
[W]e doubt whether it is even possible to apply a
standard of proof to the mitigating-factor determination (the so-called “selection phase” of a capital sentencing proceeding). It is possible to do so for the aggravating-factor determination (the so-called “eligibility phase”), because that is a purely factual determination. The facts justifying death set forth in the Kansas statute either did or did not exist—and one can require the finding that they did exist to be made beyond
a reasonable doubt. Whether mitigation exists, however, is largely a judgment call (or perhaps a value
call); what one juror might consider mitigating another might not. And of course the ultimate question
whether mitigating circumstances outweigh aggravating circumstances is mostly a question of mercy—the
quality of which, as we know, is not strained. It would
mean nothing, we think, to tell the jury that the defendants must deserve mercy beyond a reasonable
establishing new law” which recognizes the reality of the limitations
imposed upon this Court by both AEDPA and Teague.

49a
doubt; or must more-likely-than-not deserve it. It
would be possible, of course, to instruct the jury that
the facts establishing mitigating circumstances need
only be proved by a preponderance, leaving the judgment whether those facts are indeed mitigating, and
whether they outweigh the aggravators, to the jury's
discretion without a standard of proof. If we were to
hold that the Constitution requires the mitigating-factor determination to be divided into its factual component and its judgmental component, and the former to
be accorded a burden-of-proof instruction, we doubt
whether that would produce anything but jury confusion. In the last analysis, jurors will accord mercy if
they deem it appropriate, and withhold mercy if they
do not, which is what our case law is designed to
achieve.
Kansas v. Carr, 136 S. Ct. at 642.
Furthermore, the Fifth Circuit has repeatedly rejected the arguments underlying Broadnax’s call for imposing a burden of proof on the mitigation special issue.
See, e.g., Blue v. Thaler, 665 F.3d 647, 668 (5th Cir. 2011)
(“No Supreme Court or Circuit precedent constitutionally
requires that Texas’ mitigation special issue be assigned
a burden of proof.”); Druery v. Thaler, 647 F.3d 535, 546
(5th Cir. 2011) (“In Avila v. Quarterman, this court rejected a petitioner’s argument ‘that allowing a sentence of
death without a jury finding beyond a reasonable doubt
that there were no mitigating circumstances sufficient to
warrant a sentence of life imprisonment violated his Sixth
and Fourteenth Amendment right to due process and a
fair trial.’ 560 F.3d 299, 315 (5th Cir.2009). Other decisions
have likewise rejected the argument that failure to instruct the jury that the State has the burden of proof be-

50a
yond a reasonable doubt on the mitigation issue is unconstitutional.”); Coleman v. Quarterman, 456 F.3d 537, 542
(5th Cir. 2006) (“‘[N]o Supreme Court or Circuit precedent constitutionally requires that Texas's mitigation special issue be assigned a burden of proof.’” (quoting Rowell
v. Dretke, 398 F.3d 370, 378 (5th Cir. 2005)). Broadnax
makes no good faith effort to distinguish any of the foregoing Supreme Court or Fifth Circuit authorities.
The Texas Court of Criminal Appeals’ rejection on the
merits during Broadnax’s direct appeal of his complaint
about the absence of a burden of proof in the mitigation
special issue was neither contrary to, nor involved an unreasonable application of, clearly established Federal law,
as determined by the Supreme Court of the United
States, nor resulted in a decision that was based on an unreasonable determination of the facts in light of the evidence presented in Broadnax’s trial and direct appeal.
This Court therefore denies relief on this claim.
B. Allegedly Vague Terms in the Texas Capital
Sentencing Special Issues
Likewise, the Fifth Circuit has repeatedly rejected
challenges to the terms in the Texas capital sentencing
special issues identified by Broadnax as allegedly unconstitutionally vague. See, e.g., Sprouse v. Stephens, 748
F.3d 609, 622-23 (5th Cir. 2014) (denying Certificate of
Appealability (“CoA”) on complaints about the lack of definitions of “probability,” “criminal acts of violence,” and
“continuing threat to society” in a Texas capital sentencing jury charge); Paredes v. Quarterman, 574 F.3d 281,
294 (5th Cir. 2009) (holding the terms “probability,”
“criminal acts of violence,” and “continuing threat to society” “have a plain meaning of sufficient content that the
discretion left to the jury is no more than that inherent in
the jury system itself”); Turner v. Quarterman, 481 F.3d

51a
292, 299-300 (5th Cir. 2007) (rejecting claims that the
terms “probability,” “criminal acts of violence,” and “continuing threat to society” were so vague as to preclude a
capital sentencing jury’s consideration of mitigating evidence); Leal v. Dretke, 428 F.3d 543, 552-53 (5th Cir. 2005)
(listing numerous Fifth Circuit opinions rejecting complaints about the failure of Texas courts to define the
terms “probability,” “criminal acts of violence,” and “continuing threat to society”). Thus, all of the key terms in his
punishment phase jury charge about which Broadnax
complains have a common understanding in the sense that
they ultimately mean what the jury says by their final verdict they mean and do not require further definition.
James v. Collins, 987 F.2d 1116, 1120 (5th Cir. 1993); Milton v. Procunier, 744 F.2d 1091, 1096 (5th Cir. 1984).
Broadnax’s constitutional complaints about the trial
court’s failure to define the terms “probability,” “criminal
acts of violence,” and “continuing threat to society” have
repeatedly been rejected by the Fifth Circuit and are frivolous.
The constitutional standard for evaluating the propriety of a capital sentencing jury charge is set forth in
Boyde v. California, 494 U.S. 370, 380 (1990), where the
Supreme Court held the test for determining whether
jury instructions satisfy the Constitution is “whether
there is a reasonable likelihood that the jury has applied
the challenged instruction in a way that prevents the consideration of constitutionally relevant evidence.” Johnson
v. Texas, 509 U.S. 350, 367-368 (1993). Broadnax identifies
no potentially mitigating evidence before the jury at the
punishment phase of his trial which he contends the jury
was unable to properly consider in answering one or more
of the Texas capital sentencing special issues because of
the lack of definitions of the terms “personal moral culpa-

52a
bility,” “moral blameworthiness,” or “mitigating circumstances.” See Beazley v. Johnson, 242 F.3d 248, 259-60
(5th Cir. 2001) (holding the Texas capital sentencing
scheme’s statutory definition of “mitigating evidence” as
that which renders the defendant less morally blameworthy did not preclude consideration of any aspect of the defendant’s character or record or any of the circumstances
of the offense the defendant proffers as a basis for a sentence less than death). Likewise, the Fifth Circuit has repeatedly rejected arguments that the Texas capital sentencing scheme’s definition of “mitigation” is too narrow.
See, e.g., Sprouse v. Stephens, 748 F.3d at 622-23 (denying a CoA on this same issue); Blue v. Thaler, 665 F.3d
647, 665-66 (5th Cir. 2011) (Article 37.071 does not unconstitutionally preclude the jury from considering as a mitigating factor any aspect of a defendant’s character or record and any of the circumstances of the offense the defendant proffers as a basis for a life sentence); Beazley v.
Johnson, 242 F.3d at 260 (“The definition of mitigating evidence does not limit the evidence considered under the
third special issue (whether mitigating circumstances
warrant a life, rather than a death, sentence). ‘[V]irtually
any mitigating evidence is capable of being viewed as having some bearing on the defendant's ‘moral culpability’
apart from its relevance to the particular concerns embodied in the Texas special issues’.”). Broadnax’s complaints
about the lack of definitions of key terms and alleged
vagueness in the Texas capital sentencing special issues
and his punishment phase jury charge are frivolous.
The Texas Court of Criminal Appeals’ rejection on the
merits during Broadnax’s direct appeal of his complaints
about the lack of definitions of key terms in the special
issues in his punishment phase jury charge was neither
contrary to, nor involved an unreasonable application of,

53a
clearly established Federal law, as determined by the Supreme Court of the United States, nor resulted in a decision that was based on an unreasonable determination of
the facts in light of the evidence presented in Broadnax’s
trial and direct appeal. This Court therefore denies relief
on this claim.
C. Challenge to the Texas Twelve/Ten Rule
The Fifth Circuit has also repeatedly rejected the
same arguments underlying Broadnax’s challenge to the
Texas capital sentencing scheme’s requirement of jury
unanimity for a verdict favorable to the prosecution but
only ten votes for a verdict favorable to the defense on the
capital sentencing special issues. See, e.g., Blue v. Thaler,
665 F.3d at 669-70 (rejecting an Eighth Amendment challenge to the Texas twelve/ten rule); Alexander v. Johnson, 211 F.3d 895, 897 (5th Cir. 2000) (specifically rejecting
both Fourteenth and Eighth Amendment challenges to
the Texas twelve/ten rule in the course of affirming this
Court’s rejection of claims virtually identical to those
raised by Broadnax); Miller v. Johnson, 200 F.3d 274,
288-89 (5th Cir. 2000) (holding Mills inapplicable to a
Texas capital sentencing proceeding); Woods v. Johnson,
75 F.3d 1017, 1036 (5th Cir. 1988) (holding the same);
Hughes v. Johnson, 191 F.3d 607, 628-29 (5th Cir. 1999)
(holding both Mills and McKoy inapplicable to the Texas
capital sentencing scheme); Jacobs v. Scott, 31 F.3d 1319,
1328-29 (5th Cir. 1994) (“Under the Texas system, all jurors can take into account any mitigating circumstance.
One juror cannot preclude the entire jury from considering a mitigating circumstance. Thus, Mills is inapplicable.”). Because the Texas capital sentencing scheme is
vastly different from those employed in Maryland and
North Carolina, Broadnax’s reliance on the Supreme

54a
Court’s opinions in McKoy and Mills is misplaced. Alexander v. Johnson, 211 F.3d at 897; Miller v. Johnson, 200
F.3d at 288-89; Woods v. Johnson, 75 F.3d at 1036; Jacobs
v. Scott, 31 F.3d at 1328-29. Broadnax’s challenge to the
Texas twelve/ten rule is frivolous. The Texas Court of
Criminal Appeals’ rejection on the merits during
Broadnax’s direct appeal of his complaints about the
Texas twelve/ten rule was neither contrary to, nor involved an unreasonable application of, clearly established
Federal law, as determined by the Supreme Court of the
United States, nor resulted in a decision that was based
on an unreasonable determination of the facts in light of
the evidence presented in Broadnax’s trial and direct appeal. This Court therefore denies relief on this claim.
D. Individualized Consideration of Mitigating
Evidence
The fundamental problem with Broadnax’s complaint
about the trial court’s failure to instruct the jury at the
punishment phase of trial that jurors were required to
consider mitigating evidence individually is that
Broadnax never requested the state trial court give such
an instruction.19 Moreover, Broadnax does not identify
Broadnax identifies no written request for such an instruction
among the more than twelve thousand pages of state court records.
This Court’s independent review of the record likewise reveals no
such formal written request. This Court’s independent review of the
multiple conferences at trial during which the parties and trial judge
discussed the punishment phase jury instructions likewise reveals no
specific request for such a jury instruction by defense counsel. See 50
S.F. Trial at 309-14 [41-24 ECF at 88-90 of 90]; 52 S.F. Trial at 29295 [40-1 ECF at 82 of 83].
19

During the latter of these punishment phase jury charge conferences, Broadnax’s attorney made vague references to “motions” the
defense had previously filed. The only defense motions addressing the
punishment phase jury charge this Court has been able to locate

55a
any Supreme Court precedent mandating the type of punishment phase jury instruction which he now complains
his state trial court failed to issue sua sponte. Regardless
whether this Court may deem Broadnax’s requested instruction advisable, in the absence of any clearly established Supreme Court precedent mandating the giving of
such an instruction or declaring the absence of such an instruction constitutional error, the Texas Court of Criminal Appeals’ rejection on the merits of this complaint during Broadnax’s direct appeal is not objectionable under
AEDPA’s narrow standard of review. For the same reasons discussed in section IV.C. above, Broadnax’s reliance
upon the Supreme Court’s opinions in Mills and McKoy
is misplaced. Respondent also correctly points out the
“new rule” advocated by Broadnax in this claim is foreclosed by the nonretroactivity doctrine of Teague.
Furthermore, even when viewed under a de novo
standard, this complaint about Broadnax’s punishment
phase jury charge does not warrant federal habeas relief.
As explained above, the Supreme Court has established
the constitutional standard for evaluating the propriety of
a jury instruction at the punishment phase of a capital
murder trial is “whether there is a reasonable likelihood
that the jury has applied the challenged instruction in a
(without the assistance of counsel for either party) in the record appear in Volume 1 of 2 of the Clerk’s Supplemental Record at 281-88 &
295-306 [38-12 ECF at 285-88, 290-92, & 299-310 of 311]. While
Broadnax’s trial counsel did request a number of specific jury instructions be included in the punishment phase jury charge, none of the
instructions requested in these motions asked the state trial court to
instruct the jury to give “individual” consideration to mitigating evidence in the same manner Broadnax now complains the state trial
court failed to instruct the jury. Thus, this aspect of Broadnax’s federal habeas corpus petition complains about a missing punishment
phase jury instruction which Broadnax never requested.

56a
way that prevents the consideration of constitutionally
relevant evidence.” Boyde v. California, 494 U.S. at 380.
The Supreme Court has consistently applied this standard to evaluate challenges to punishment-phase jury instructions. See Weeks v. Angelone, 528 U.S. 225, 226
(2000) (emphasizing the Boyde test requires a showing of
a reasonable likelihood, as opposed to a mere possibility,
the jury construed the jury instructions to preclude its
consideration of relevant mitigating evidence); Jones v.
United States, 527 U.S. 373, 390 & n.9 (1999) (holding the
same); Calderon v. Coleman, 525 U.S. 141, 146 (1998)
(holding the same); Buchanan v. Angelone, 522 U.S. 269,
276 (1998) (holding the same); Johnson v. Texas, 509 U.S.
350, 367 (1993) (holding Boyde requires a showing of a
reasonable likelihood the jury interpreted the jury instructions so as to preclude it from considering relevant
mitigating evidence). This “reasonable likelihood” standard does not require that a capital murder defendant
prove the jury “more likely than not” interpreted the challenged instruction in an impermissible way; however, he
must demonstrate more than “only a possibility” of an impermissible interpretation. Johnson v. Texas, 509 U.S. at
367; Boyde v. California, 494 U.S. at 380.
This Court must analyze the challenged language included in the jury charge within the context of the overall
jury charge. Cupp v. Naughten, 414 U.S. 141, 146-47
(1973). “In evaluating the instructions, we do not engage
in a technical parsing of this language of the instructions,
but instead approach the instructions in the same way
that the jury would—with a ‘commonsense understanding
of the instructions in the light of all that has taken place
at the trial.’” Johnson v. Texas, 509 U.S. at 368; Boyde v.
California, 494 U.S. at 381. Nothing in Broadnax’s punishment-phase jury charge can reasonably be construed
as foreclosing the consideration by the jury of any of the

57a
extensive, potentially mitigating, evidence actually presented during his capital murder trial. Simply put,
Broadnax identifies no potentially mitigating evidence
properly before his jury to which his jury was unable to
adequately give effect because of the lack of a jury instruction mandating the “individualized” consideration he
did not request at trial but now demands.
Finally, improper jury instructions in state criminal
trial do not generally form the basis for federal habeas relief. Estelle v. McGuire, 502 U.S. 62, 71-72 (1991); Galvan
v. Cockrell, 293 F.3d 760, 764-65 (5th Cir. 2002). The fact
that a jury instruction was incorrect under state law is not
a basis for federal habeas relief. Gilmore v. Taylor, 508
U.S. 333, 342 (1993); Estelle v. McGuire, 502 U.S. at 71;
Marshall v. Lonberger, 459 U.S. 422, 438 n.6 (1988). Rather, the question is whether the allegedly ailing instruction by itself so infected the entire trial that the resulting
conviction violates due process. Estelle v. McGuire, 502
U.S. at 72; Henderson v. Kibbe, 431 U.S. 145, 154 (1977);
Cupp v. Naughten, 414 U.S. at 147; Johnson v. Puckett,
176 F.3d 809, 824 (5th Cir. 1999) (“as a federal habeas
court, our question is whether the ailing instruction by itself so infected the entire trial that the resulting conviction violates due process, not merely whether the instruction is undesirable, erroneous, or even universally condemned.”). “An omission, or an incomplete instruction, is
less likely to be prejudicial than a misstatement of law.”
Henderson v. Kibbe, 431 U.S. at 155.
The relevant inquiry is whether the failure to give an
instruction by itself so infected the entire trial that the resulting conviction violates due process. Cupp v. Naughten, 414 U.S. at 147; Galvan v. Cockrell, 293 F.3d at 76465. A federal court may reverse a state court criminal conviction based upon erroneous jury instructions only when

58a
the instructions in question render the entire trial fundamentally unfair. Henderson v. Kibbe, 431 U.S. at 154;
Cupp v. Naughten, 414 U.S. at 147; Mayabb v. Johnson,
168 F.3d 863, 867 (5th Cir. 1999). Moreover, there is a
strong presumption that errors in jury instructions are
subject to harmless error analysis. Galvan v. Cockrell, 293
F.3d at 765 (recognizing under Brecht v. Abrahamson,
507 U.S. 619, 623-24 (1993), the test for harmless error in
federal court is “whether the error had a substantial and
injurious effect or influence in determining the jury’s verdict”). Having independently reviewed the entirety of
Broadnax’s punishment phase jury charge, this Court
concludes after de novo review that any error in the failure of the state trial court to instruct Broadnax’s punishment phase jury to give mitigating evidence “individual”
consideration did not render the punishment phase of
Broadnax’s capital murder trial fundamentally unfair and
did not have a substantial and injurious effect or influence
on the outcome of the jury’s punishment phase verdict as
required by Brecht. Thus, regardless of the standard of
review employed, this complaint about Broadnax’s punishment phase jury charge does not warrant federal habeas relief.
The Texas Court of Criminal Appeals’ rejection on the
merits during Broadnax’s direct appeal of his complaint
about the absence of a punishment phase jury instruction
mandating individualized consideration of mitigating evidence was neither contrary to, nor involved an unreasonable application of, clearly established Federal law, as determined by the Supreme Court of the United States, nor
resulted in a decision that was based on an unreasonable
determination of the facts in light of the evidence presented in Broadnax’s trial and direct appeal. This Court
therefore denies relief on this claim.

59a
V. SELECTIVE PROSECIUTION
Broadnax presents an unexhausted complaint that he
was selectively prosecuted on the basis of race.20 Selective
prosecution claims are disfavored because they (1) call for
the imposition of judicial review upon the usually unfettered discretion exercised by the executive authority responsible for prosecuting criminal offenses and (2) necessarily begin with a presumption of good faith and constitutional compliance by prosecutors. United States v. Armstrong, 517 U.S. 456, 463-64 (2006); Reno v. AmericanArab Anti-Discrim. Comm., 525 U.S. 471, 489 (1999); In
re United States, 397 F.3d 274, 284 (5th Cir. 2005). In the
ordinary case, “so long as the prosecutor has probable
cause to believe that the accused committed an offense defined by statute, the decision whether or not to prosecute,
and what charge to file or bring before a grand jury, generally rests entirely in his discretion.” United States v.
Armstrong, 517 U.S. at 464 (quoting Bordenkircher v.
ECF no. 48 at 127-33. Title 28 U.S.C. § 2254(b)(1) prohibits a federal district court from granting habeas corpus relief based upon an
unexhausted claim (except in circumstances inapplicable to
Broadnax’s selective prosecution claim). Section 2254(b)(2), however,
permits a federal district court to deny relief on the merits notwithstanding a petitioner’s failure to exhaust available state remedies. Because Broadnax chose not to present his selective prosecution claim
to the state courts during either his direct appeal or state habeas corpus proceeding, this Court’s review of that claim is necessarily de
novo. See Porter v. McCollum, 558 U.S. 30, 39 (2009) (holding de novo
review of the allegedly deficient performance of petitioner’s trial
counsel was necessary because the state courts had failed to address
this prong of Strickland analysis); Rompilla v. Beard, 545 U.S. 374,
390 (2005) (holding de novo review of the prejudice prong of Strickland required where the state courts rested their rejection of an ineffective assistance claim on the deficient performance prong and never
addressed the issue of prejudice); Wiggins v. Smith, 539 U.S. 510, 534
(2003) (holding the same).
20

60a
Hayes, 434 U.S. 357, 364 (1978)); In re United States, 397
F.3d at 284.
Nonetheless, a prosecutor’s discretion is subject to
constitutional constraints, including equal protection
principles. United States v. Armstrong, 517 U.S. at 464;
In re United States, 397 F.3d at 284. That is, the decision
to prosecute may not be based on an unjustifiable standard such as race, religion, or other arbitrary classification.
United States v. Armstrong, 517 U.S. at 464. To dispel the
presumption that a prosecutor has not violated equal protection principles, a defendant must present clear evidence showing that the prosecutor’s decisions had both a
discriminatory effect and a discriminatory motive or purpose. United States v. Armstrong, 517 U.S. at 465; In re
United States, 397 F.3d at 284. To establish discriminatory effect in a race case, a defendant must show that similarly situated individuals of a different race were not
prosecuted. United States v. Armstrong, 517 U.S. at 465;
In re United States, 397 F.3d at 284.
Despite the statistical case and new evidence presented by Broadnax in this Court for the very first time,
Broadnax has failed to identify a single individual of another race who was “similarly situated” to him in one critical regard: Broadnax gave multiple interviews following
his arrest in which he not only confessed to his capital offense in graphic and precise detail with a cold and calculating demeanor but also repeatedly denied that he felt
any remorse for his crimes, repeatedly used crude and offensive language when asked what he had to say to the
families of his victims, insisted that he would not serve a
sentence of life without parole, and demanded to receive
the death penalty, even going so far during one interview
as to threaten to kill again if he did not receive a sentence

61a
of death.21 This Court is aware of criminal defendants who
have given media interviews prior to trial in which they
confessed to committing a capital offense.22 But Broadnax
has identified no one else, and this Court is unaware of
any other criminal defendant in the history of Dallas
County criminal prosecutions, who has ever given multiple pretrial interviews denying he felt any remorse for his
victims and their families, demanding to receive the death
penalty, and threatening to kill again unless he received a
death sentence. In every sense of the term, Broadnax put
himself in a class by himself. His cold, antisocial, behavior
on camera makes him sui generis.23 There is no one else

21

See Appendix I.

See, e.g., Gonzales v. Stephens, 2014 WL 496876, at *2 n.6 (W.D.
Tex. Jan. 15, 2014) (recounting the fact the defendant gave a televised
pretrial interview in which he confessed that his victim had begged
for her life just before he shot her, which interview was played for the
jury during the defendant’s subsequent capital murder trial), CoA denied, 606 F. App’x 767 (5th Cir. Apr. 10, 2015).
22

Insofar as Broadnax continues to assert that he was suffering
from a substance-abuse-induced psychosis during his recorded interviews, that assertion is belied by (1) even a cursory review of the actual video recordings of his interviews (i.e., State Exhibit nos. 403-07),
during which Broadnax is clearly alert and oriented, fully responsive
(albeit crudely) to the questions asked, and displays an appropriate
affect throughout the interviews, including at the dramatic moment
one reporter read the arrest warrant affidavit to Broadnax for the
first time and Broadnax became aware that a member of his own family had turned him in and (2) Broadnax’s subsequent telephone calls
from the jail months after his arrest (when Broadnax knew he was
being recorded) during which he crudely denied that he felt any remorse for his crimes, stated that he would refuse to accept a term of
life without parole, and denied that he was intoxicated at the time of
his offense or interviews (State Exhibit nos. 560, 567, 569, & 592 (particularly the conversation beginning at 21:15:01 PM on August 12,
2009, the same date the jury returned its guilty verdict)).
23

62a
of any race “similarly situated” to Broadnax for equal protection purposes. Thus, Broadnax has failed to allege any
facts showing that a criminal defendant of another race
who was genuinely “similarly situated” to Broadnax was
not prosecuted for capital murder or that Dallas County
prosecutors brought a capital murder prosecution against
but did not seek the death sentence for such a nonexistent
offender. For that reason, under a de novo standard of review, Broadnax’s race-based selective prosecution claims
fails.
VI. ADMISSION OF EXPERT TESTIMONY
REGARDING GANG MEMBERSHIP
A. The Complaints
Broadnax argues the state trial court erroneously admitted the testimony of Dallas Police Officer Barrett Nelson regarding the meaning of various symbols contained
on the walls of Broadnax’s cell and throughout the spiral
notebooks found among Broadnax’s belongings in the
trunk of Swan’s stolen vehicle, as well as his expert opinion that Broadnax was either a Gangster Disciple member
or potential member.24 In addition to arguing that the
ECF no. 48 at 114-24. Officer Nelson’s trial testimony is summarized in Appendix II. Broadnax’s accompanying complaint that his
trial counsel failed to cross-examine or rebut Nelson’s testimony regarding Broadnax’s gang membership will be discussed below in connection with Broadnax’s other assertions of ineffective assistance.
Broadnax fairly presented a much more abbreviated version of his
due process claim as his thirty-fifth point of error on direct appeal at
pages 103-04 of his Appellant’s Brief [42-7 ECF at 130-31 of 152]. The
Texas Court of Criminal Appeals held Officer Nelson’s punishment
phase testimony (as to the history and criminal activities of the Gangster Disciples, as well as the meaning of various symbols found among
Broadnax’s writings, and his opinion that Broadnax was a member of
the Gangster Disciples) was both relevant and probative and, therefore, admissible under applicable state evidentiary principles.
24

63a
state trial court erred in admitting Officer Nelson’s testimony, under both state evidentiary rules and federal due
process principles, Broadnax also argues Officer Nelson’s
testimony was false or misleading, the prosecution used
this false or misleading testimony to secure Broadnax’s
capital sentence, and Nelson’s testimony regarding gang
membership violated Broadnax’s First Amendment right
to freedom of association.
B. Due Process Claim
Federal habeas corpus relief will not issue to correct
errors of state constitutional, statutory, or procedural
law, unless a federal issue is also presented. See Estelle v.
McGuire, 502 U.S. 62, 67-68 (1991) (holding complaints regarding the admission of evidence under California law
did not present grounds for federal habeas relief absent a
Broadnax v. State, 2011 WL 6225399, at *14-*16. The Texas Court of
Criminal Appeals also explained the significance of Officer Nelson’s
testimony:
Detective Nelson testified that a great deal of evidence indicated
the appellant was a member of the Gangster Disciples of the Folk
Nation network of gangs: 1) The appellant made statements and
hand signals self-identifying himself as a member. 2) The appellant had several tattoos indicating membership in the gang. 3)
Notebooks found in the appellant’s possession at the time of arrest contained numerous drawings linking the appellant to the
gang. 4) Drawings on the walls of the appellant’s cell linked the
appellant to the gang. Detective Nelson then described the activities and reputation of the gang itself, testifying that the Gangster Disciples were “impressive” in their organization, and explaining “they’re teaching their younger generation how to be a
gang member.” Detective Nelson further testified that the gang
was heavily involved in criminal enterprises in order to fund their
organization; specifically, he testified that they “turned to violence, selling drugs, robberies and murders.”
Id., 2011 WL 6225399, at *15.

64a
showing that admission of the evidence in violated due
process); Lewis v. Jeffers, 497 U.S. 764, 780 (1990) (recognizing that federal habeas relief will not issue for errors
of state law); Pulley v. Harris, 465 U.S. 37, 41 (1984)
(holding a federal court may not issue the writ on the basis
of a perceived error of state law). In the course of reviewing state criminal convictions in federal habeas corpus
proceedings, a federal court does not sit as a super-state
appellate court. Estelle v. McGuire, 502 U.S. at 67-68;
Lewis v. Jeffers, 497 U.S. at 780; Pulley v. Harris, 465
U.S. at 41.
When a federal district court reviews a state prisoner's
habeas petition pursuant to 28 U.S.C. § 2254 it must
decide whether the petitioner is “in custody in violation of the Constitution or laws or treaties of the
United States.” The court does not review a judgment,
but the lawfulness of the petitioner’s custody simpliciter.
Coleman v. Thompson, 501 U.S. 722, 730 (1991).
Insofar as Broadnax argues his state trial court erroneously accepted Nelson as an expert witness and improperly allowed Nelson to express an opinion regarding
Broadnax’s gang membership, Broadnax’s complaints
turn initially on interpretations of state evidentiary rules.
The Texas Court of Criminal Appeals’ conclusion in the
course of Broadnax’s direct appeal that Detective Nelson’s testimony was admissible under applicable state evidentiary rules is binding upon this Court in this federal
habeas corpus proceeding. See Bradshaw v. Richey, 546
U.S. 74, 76 (2005) (“We have repeatedly held that a state
court’s interpretation of state law, including one announced on direct appeal of the challenged conviction,
binds a federal court sitting in habeas corpus.”); Garza v.
Stephens, 738 F.3d 669, 677 (5th Cir. 2013) (holding a

65a
Texas habeas court’s interpretation of evidentiary rules
was binding in a federal habeas case); Paredes v. Quarterman, 574 F.3d 281, 291 (5th Cir. 2009) (a state court’s interpretation of state law binds a federal court sitting in
habeas corpus).
A federal court may grant habeas relief based on an
erroneous state court evidentiary ruling only if the ruling
violates a specific federal constitutional right or is so egregious it renders the petitioner’s trial fundamentally unfair. Payne v. Tennessee, 501 U.S. 808, 825 (1991); Darden
v. Wainwright, 477 U.S. 168, 179-83 (1986); Wood v. Quarterman, 503 F.3d 408, 414 (5th Cir. 2007); Brown v.
Dretke, 419 F.3d 365, 376 (5th Cir. 2005). Thus, the question before this Court is not whether the state trial court
properly applied state evidentiary rules but, rather,
whether Broadnax’s federal constitutional rights were violated by the state trial court’s rulings on evidentiary matters. See Bigby v. Dretke, 402 F.3d 551, 563 (5th Cir. 2005)
(holding federal habeas review of a state court’s evidentiary ruling focuses exclusively on whether the ruling violated the federal Constitution).
Due process is implicated only for rulings “of such
a magnitude” or “so egregious” that they “render the
trial fundamentally unfair.” It offers no authority to
federal habeas courts to review the mine run of evidentiary rulings of state trial courts. Relief will be
warranted only when the challenged evidence “played
a crucial, critical, and highly significant role in the
trial.”
The due process inquiry must consider the significance of the challenged evidence “in the context of the
entire trial.” We have held that the Due Process
Clause does not afford relief where the challenged ev-

66a
idence was not the principal focus at trial and the errors were not “‘so pronounced and persistent that it
permeates the entire atmosphere of the trial.’” This is
a high hurdle, even without AEDPA’s added level of
deference.
Gonzales v. Thaler, 643 F.3d 425, 430-31 (5th Cir. 2011)
(footnotes omitted).
The admission of Detective Nelson’s testimony regarding the symbols employed by the Gangster Disciples
(and found throughout Broadnax’s drawings) did not render the punishment phase of Broadnax’s capital murder
trial fundamentally unfair. Broadnax has identified nothing factually inaccurate about Detective Nelson’s recitation of the history, reputation, or symbols of the Gangster
Disciples as an organization. While Broadnax does take
issue with Detective Nelson’s expert opinion that
Broadnax’s drawings incorporating numerous Gangster
Disciples symbols, use of the phrase “Folk Nation,” references to the leader of the Gangster Disciples, and a hand
gesture Broadnax gave during a televised interview suggest Broadnax is a member of the Gangster Disciples,
even if that opinion was incorrect, it was far from an unreasonable inference based on the evidence then before
the trial court. Moreover, even if Broadnax was not an official, card-carrying, member of the Gangster Disciples,
as Detective Nelson’s testimony and Broadnax’s own correspondence, drawings, and rap lyrics made very clear,
Broadnax was most certainly fascinated with the Gangster Disciples.
Moreover, Broadnax’s sister testified that Broadnax’s
older brother is a member of the Gangster Disciples. During a recorded telephone conversation with his mother’s
boyfriend that was admitted into evidence and played for

67a
the jury (State Exhibit no. 570) Broadnax identified himself as being associated with the Gangster Disciples. The
only direct evidence Broadnax offered at trial disputing
his membership in the Gangster Disciples consisted of his
own sister’s testimony (hardly an unbiased witness) stating that she believed Broadnax was merely a Gangster
Disciple “wannabe” because Broadnax associated with another person (Mario) whom she believed to be a “wannabe” in a rival gang. Under these circumstances, even if
Detective Nelson’s conclusion that Broadnax was a “member” of the Gangster Disciples were proven to have been
incorrect, the admission of Detective Nelson’s testimony
as a whole did not render the punishment phase of
Broadnax’s capital murder trial fundamentally unfair. Officer Nelson’s explanations regarding the association of
various symbols found throughout Broadnax’s notebooks
and on Broadnax’s cell walls (including pitchforks, winged
figures, and six-pointed stars) with the Gangster Disciples
quite possibly prevented the jury from drawing an erroneous (and potentially even more disadvantageous) inference that those symbols were satanic in nature.
The Texas Court of Criminal Appeals’ rejection on the
merits during Broadnax’s direct appeal of Broadnax’s
Due Process complaints about the admission of Nelson’s
trial testimony was neither contrary to, nor involved an
unreasonable application of, clearly established Federal
law, as determined by the Supreme Court of the United
States, nor resulted in a decision that was based on an unreasonable determination of the facts in light of the evidence presented in Broadnax’s trial and direct appeal.
This Court therefore denies relief on this claim.

68a
C. First Amendment Claim
As he argued in his fifth claim for state habeas corpus
relief, Broadnax again argues that the admission of Officer Nelson’s testimony regarding his gang membership
violated Broadnax’s First Amendment rights.25
Broadnax’s First Amendment Claim in his state habeas corpus
application appears at pages 66-67 of that document, a copy of which
appears at 42-1 ECF at 80-81 of 258. As explained in Appendix III,
the expert who furnished an affidavit supporting Broadnax’s state habeas corpus application (in which he opined that Officer Nelson had
erroneously concluded Broadnax was a member of the Gangster Disciples) admitted during the evidentiary hearing held in Broadnax’s
state habeas corpus proceeding that he had not seen any of the evidence relied upon by Officer Nelson in reaching his conclusion, admitted that he knew virtually none of the facts relied upon by Officer
Nelson, admitted he was unaware that Chapter 61 of the Texas Code
of Criminal Procedure (cited in his affidavit) did not govern the admissibility of evidence in Texas courts, and all but recanted substantial portions of the information contained in his affidavit. The state
habeas trial court (1) concluded Chapter 61 of the Texas Code of
Criminal Procedure did not govern the admissibility of evidence in
Texas courts, (2) found Broadnax’s gang expert admitted during his
testimony that (a) the Gangster Disciples were a recognized street
gang in Dallas, (b) he was unaware that Broadnax was not from Dallas
but from Michigan and Georgia, (c) he could not testify to the presence of the Gangster Disciples in either of those two States, (d) he was
unaware that Nelson consulted with gang officers in Chicago in researching Broadnax’s gang affiliation, and (e) he did not know
Broadnax’s older brother was a member of the Gangster Disciples,
(3) found Broadnax’s gang expert’s affidavit was not credible or reliable, (4) found Broadnax had failed to show that “any part of Detective Nelson’s testimony was false or misleading,” (5) found Nelson
was a credible witness, (6) found Nelson’s testimony was true and accurate, and (7) concluded the admission of Nelson’s testimony had not
violated Broadnax’s due process or Eighth Amendment rights. State
Habeas Trial Court’s Findings of Fact and Conclusions of Law, issued
September 17, 2014 (henceforth “State Habeas Trial Court’s Findings & Conclusions”), at 15-22 [42-6 ECF at 53-60 of 163]. The Texas
Court of Criminal Appeals expressly adopted all of the trial court’s
25

69a
Broadnax’s reliance upon the Supreme Court’s opinion in
Dawson v. Delaware, 503 U.S. 159 (1992), in support of his
First Amendment claim is misplaced. As Respondent accurately argues, in Dawson, the Supreme Court held that
evidence showing a criminal defendant was associated
with the Aryan Brotherhood, unaccompanied by evidence
showing the Aryan Brotherhood had committed unlawful
or violent acts or endorsed such acts, was not relevant at
the punishment phase of a capital trial to prove any aggravating circumstance or disprove any mitigating circumstance. Dawson v. Delaware, 503 U.S. at 166-67. The
Supreme Court made clear, however, that the prosecution
can easily cure this constitutional defect by introducing
evidence beyond that of a defendant’s association with a
particular organization, i.e., evidence showing the organization of which the defendant was a member had committed unlawful or violent acts or endorses such acts: “A defendant’s membership in an organization that endorses
the killing of any identifiable group, for example, might be
relevant to a jury’s inquiry into whether the defendant
will be dangerous in the future.” Id. at 166.
Officer Nelson’s punishment phase testimony does not
embody the defect identified in Dawson. Officer Nelson
testified without contradiction that the Gangster Disciples was a longstanding, highly organized, violent, criminal street gang that engaged in drug dealing, robberies,
and murders to raise money for its organization.
Broadnax’s own sister admitted the Gangster Disciples
was a ruthless street gang. The Supreme Court made
clear in Dawson that the Constitution does not erect a per
se barrier to the admission of evidence concerning beliefs
findings and conclusions when it denied Broadnax’s state habeas corpus application. Ex parte Broadnax, WR-81,573-01, 2015 WL 2452758
(Tex. Crim. App. May 20, 2015) [42-8 ECF at 3-4 of 4].

70a
and associations at sentencing. Id. at 161. Under such circumstances, admission of Detective Nelson’s punishment
phase testimony did not violate Broadnax’s First Amendment rights. See Fuller v. Johnson, 114 F.3d 491, 498 (5th
Cir. 1997) (holding evidence showing the defendant was a
member of the Aryan Brotherhood was admissible at the
punishment phase of a capital murder trial to prove future
dangerousness when accompanied by evidence showing
the gang had committed unlawful or violent acts, including homicides, multiple stabbings, drug dealing, and aggravated assaults).
The state habeas court’s rejection on the merits of
Broadnax’s First Amendment claim was neither contrary
to, nor involved an unreasonable application of, clearly established Federal law, as determined by the Supreme
Court of the United States, nor resulted in a decision that
was based on an unreasonable determination of the facts
in light of the evidence presented in Broadnax’s state habeas corpus proceeding. This Court therefore denies this
claim for relief.
D. Giglio/Napue Claim
As he did in his fourth claim in his state habeas corpus
application, Broadnax argues the prosecution improperly
used false and misleading evidence, in the form of Officer
Nelson’s “erroneous” expert opinion that Broadnax was a
member of the Gangster Disciples, to secure a death sentence.26 A state denies a criminal defendant due process

Broadnax’s “false or misleading” evidence argument appears in
his state habeas corpus application at pages 61-65 [42-1 ECF at 65-69
of 258]. As explained in note 25, the state habeas trial court heard
testimony from Broadnax’s gang expert but concluded there was
nothing inaccurate, false, or misleading about Nelson’s trial testimony, and recommended this claim be denied on the merits. This is
26

71a
when it knowingly uses perjured testimony at trial or allows untrue testimony to go uncorrected. Giglio v. United
States, 405 U.S. 150, 153-54 (1972); Napue v. Illinois, 360
U.S. 264, 269-70 (1959). To succeed in showing a due process violation from the use of allegedly perjured testimony, a defendant has the burden of establishing that (1)
the witness in question actually gave false testimony, (2)
the falsity was material in that there was a reasonable
likelihood that it affected the judgment of the jury, and (3)
the prosecution used the testimony in question knowing
that it was false. Giglio v. United States, 405 U.S. at 15354; Canales v. Stephens, 765 F.3d 551, 573 (5th Cir. 2014)
(a conviction obtained through false evidence known to be
such by representatives of the State violates a defendant’s
constitutional rights); Kinsel v. Cain, 647 F.3d 265, 271
(5th Cir. 2011) (“The Supreme Court has held that the
Due Process Clause is violated when the government
knowingly uses perjured testimony to obtain a conviction.”); Reed v. Quarterman, 504 F.3d 465, 473 (5th Cir.
2007).
The state habeas court’s factual finding that Nelson’s
trial testimony was in all respects accurate and credible
(not false or misleading) is a factual determination entitled to deference by this federal habeas court pursuant to
28 U.S.C. § 2254(e)(1). See Schriro v. Landrigan, 550 U.S.
at 473-74 (“AEDPA also requires federal habeas courts to
presume the correctness of state courts’ factual findings
unless applicants rebut this presumption with ‘clear and
convincing evidence.’”); Rice v. Collins, 546 U.S. at 338-39
(“State-court factual findings, moreover, are presumed
correct; the petitioner has the burden of rebutting the
precisely what the Texas Court of Criminal Appeals did when it
adopted the trial court’s findings, conclusions, and recommendation.

72a
presumption by ‘clear and convincing evidence.’”); MillerEl v. Dretke, 545 U.S. at 240 (“[W]e presume the Texas
court’s factual findings to be sound unless Miller-El rebuts the ‘presumption of correctness by clear and convincing evidence.’”). The record before the state habeas court
was bereft of any evidence establishing that Nelson furnished any false or misleading testimony to the jury regarding the nature of the Gangster Disciples, its history,
symbols, or criminal nature. Broadnax presented the
state habeas court with no evidence showing that Nelson’s
inference from Broadnax’s use of a gang hand sign, references to “Folk Nation,” penchant for drawing symbols utilized by the Gangster Disciples, telephonic profession that
he was associated with that organization, and apparent
knowledge of the history and details of the organization of
the Gangster Disciples that Broadnax was either a member or “wannabe” gang member was anything other than
objectively reasonable.
The fact Broadnax’s state habeas counsel found an expert willing to express a divergent opinion about
Broadnax’s gang membership (albeit without apparently
examining the same evidence as Nelson) does not establish that Nelson’s expert opinion was false or misleading.
See Clark v. Johnson, 202 F.3d 760, 766-67 (5th Cir. 2000)
(holding that a disagreement between experts regarding
the conclusions to be drawn from the physical evidence
was insufficient to overcome the presumption of correctness afforded a state habeas court’s factual finding that an
expert trial witness had not testified falsely at trial or otherwise misled the jury). As was true with the forensic
pathologist in Clark, whose expert opinions were fully
supported by the physical evidence in that case, the evidence supporting Nelson’s expert opinion that Broadnax
was a gang member (or at least that Broadnax seemed in
Nelson’s opinion to possess an intimate knowledge of the

73a
Gangster Disciples) was evident from Broadnax’s own
writings and drawings. More importantly, Broadnax presented the state habeas court with no specific factual allegations, much less any evidence, showing the prosecution
knowingly employed false or misleading evidence to secure Broadnax’s death sentence.
Insofar as Broadnax attempts to overcome the state
habeas court’s factual findings through the presentation
of new affidavits and other evidence not presented to the
state habeas court, his efforts are in vain. Because the
state habeas court denied Broadnax’s Giglio/Napue claim
on the merits, this Court is precluded from considering
any new or additional evidence in the course of reviewing
this same claim. See Cullen v. Pinholster, 563 U. S. 170,
181-82 (2011):
We now hold that review under § 2254(d)(1) is limited
to the record that was before the state court that adjudicated the claim on the merits. Section 2254(d)(1)
refers, in the past tense, to a state-court adjudication
that “resulted in” a decision that was contrary to, or
“involved” an unreasonable application of, established
law. This backward-looking language requires an examination of the state-court decision at the time it was
made. It follows that the record under review is limited to the record in existence at that same time i.e.,
the record before the state court.
Thus, this Court may not consider any of the new evidence
Broadnax has attached to his federal habeas corpus petition in resolving Broadnax’s Giglio/Napue claim.27 Because the state habeas court found Officer Nelson’s trial
Insofar as Broadnax argues in conclusory fashion that the Supreme Court’s holdings in Martinez v. Ryan, 556 U.S. 1 (2012), and
Trevino v. Thaler, 569 U.S. 413 (2013), allow him to re-litigate with
27

74a

new evidence his Giglio/Napue claim (premised solely upon a naked
assertion that his state habeas counsel rendered ineffective assistance during his state habeas corpus proceeding), Broadnax misconstrues the holdings in those two Supreme Court opinions. The Supreme Court’s holding in Martinez v. Ryan furnishes a narrow avenue for circumventing a procedural default. It requires a showing that
the performance of a federal habeas petitioner’s state habeas counsel
was so deficient as to preclude state court merits review of a meritorious claim of ineffective assistance by trial counsel, thus permitting
a federal habeas court to undertake a merits review of the otherwise
procedurally defaulted complaint of ineffective assistance by state
trial counsel. See In re Edwards, 865 F.3d 197, 207-08 (5th Cir.), cert.
denied, 137 S. Ct. 909 (2017) (To show cause for procedural default
under Martinez and Trevino, “the petitioner must show (1) that his
claim of ineffective assistance of counsel at trial is ‘substantial’ (i.e.,
‘has some merit’); and (2) that his habeas counsel was ineffective for
failing to present those claims in his first state habeas application.”
(quoting Beatty v. Stephens, 759 F.3d 455, 465-66 (5th Cir. 2014));
Prystash v. Davis, 854 F.3d 830, 836 (5th Cir. 2017), cert. denied, 138
S. Ct. 649 (2018) (holding the Supreme Court’s rulings in Martinez
and Trevino created a narrow exception to the general rules of procedural default that applies only to a claim of ineffective assistance by
state trial counsel).
The Supreme Court has expressly declined to extend the holdings
in Martinez v. Ryan and Trevino v. Thaler beyond the context of procedurally defaulted complaints of ineffective assistance by state trial
counsel. See Davila v. Davis, 137 S. Ct. 2058, 2065-66 (2017) (declining
to extend the holdings in Martinez and Trevino to a complaint of ineffective assistance by state appellate counsel and declaring that doing so would constitute an improper overruling of its prior opinion in
Coleman v. Thompson); Busby v. Davis, 892 F.3d 735, 755-56 (5th Cir.
2018) (citing Davila and declining to extend the holdings in Martinez/Thaler beyond the context of procedurally defaulted claims of
ineffective assistance by state trial counsel). The holdings in Martinez and Trevino do not furnish a vehicle for obtaining de novo federal habeas review of substantive constitutional claims which a federal habeas corpus petitioner litigated unsuccessfully in a state habeas corpus proceeding but now wishes to re-litigate using new evidence and different counsel.

75a
testimony to be factually accurate and not false or misleading, and those factual determinations are fully supported by the evidentiary record before the state habeas
court, the state habeas court’s rejection on the merits of
Broadnax’s Giglio/Napue claim was neither contrary to,
nor involved an unreasonable application of, clearly established Federal law, as determined by the Supreme Court
of the United States, nor resulted in a decision that was
based on an unreasonable determination of the facts in
light of the evidence presented in his state habeas corpus
proceeding. This Court therefore denies this claim for relief.
VII. ADMISSION OF DR. PRICE’S TESTIMONY
REGARDING PSYCHOPATHY
As he argued in his seventh ground for state habeas
corpus relief, Broadnax argues the admission of Dr.
Price’s punishment phase rebuttal testimony regarding
the factors mental health professionals examine to make
a diagnosis of psychopathic personality violated his due
process rights because (1) that testimony was irrelevant
to Broadnax, (2) the checklist from which Dr. Price read
during his testimony is a highly unreliable predictor of future dangerousness, and (3) Broadnax has subsequently
been diagnosed by a different mental health professional
as not possessing a psychopathic personality.28 Initially,
ECF no. 48 at 97-109. Dr. Price’s punishment phase rebuttal testimony is summarized in Appendix II. As explained in Appendix III,
Professor John Edens furnished the state habeas court with an affidavit and testimony challenging the efficacy of Dr. Price’s trial testimony regarding psychopathy. Despite Dr. Edens’ opinions, the state
habeas trial court found Dr. Price’s trial testimony was neither false,
misleading, nor perjured, and concluded the admission of Dr. Price’s
testimony did not render the punishment phase of Broadnax’s capital
murder trial fundamentally unfair. State Habeas Trial Court’s Findings & Conclusions, at 25-30 [42-6 ECF at 63-68 of 163]. The Texas
28

76a
Broadnax’s reliance upon the Supreme Court’s holding in
Daubert v. Merrell Dow Pharm., 509 U.S. 579 (1993), is
unpersuasive. The Fifth Circuit has repeatedly held that
Daubert does not control the admission of expert mental
health testimony regarding future dangerousness offered
at the punishment phase of a capital murder trial. See, e.g.,
Williams v. Stephens, 761 F.3d 561, 571 (5th Cir. 2014)
(“Daubert does not apply to the standards governing the
admissibility of expert evidence at a capital sentencing
hearing”); United States v. Fields, 483 F.3d 313, 341-43
(5th Cir. 2007) (explaining the Supreme Court’s opinion in
Barefoot v. Estelle, 463 U.S. 880 (1983), rejected as “contrary to our cases,” the argument that psychiatric testimony regarding future dangerousness was constitutionally inadmissible at the punishment phase of a capital
murder trial and, therefore, holding Daubert inapplicable
to the admission of such testimony).
Insofar as Broadnax argues that the admission of Dr.
Price’s testimony violated due process principles,
Broadnax’s arguments are likewise unpersuasive. The expert testimony of Dr. Lane (regarding the DSM-IV-TR’s
criteria for a diagnosis of ASPD) and Dr. Price (regarding
the traits of a psychopathic personality) did not render the
punishment phase of Broadnax’s capital murder trial fundamentally unfair. Neither of those two experts linked
ASPD or psychopathy to Broadnax. Despite Broadnax’s
suggestions to the contrary in his federal habeas corpus
petition, Dr. Lane never testified that Broadnax had
ASPD. Instead, Dr. Lane admitted during his cross-examination only that his notes indicated that, at one point
during his treatment of Broadnax he wanted to attempt to
Court of Criminal Appeals adopted those findings and conclusions
when it denied Broadnax’s state habeas corpus application.

77a
rule out ASPD as a possible diagnosis but he was unable
to make any further evaluation of a possible ASPD diagnosis because he lacked accurate information concerning
Broadnax’s behavior prior to age fifteen. Thus, there was
no testimony during Broadnax’s trial from Dr. Lane or
anyone else establishing that Broadnax had ever been diagnosed with ASPD. Likewise, Dr. Price took great pains
to explain during his rebuttal testimony that he had not
interviewed Broadnax and was not testifying that
Broadnax possessed any of the traits of a psychopathic
personality. Dr. Price also admitted on cross-examination
that the term “psychopath” was not a diagnosis appearing
in the DSM-IV-TR.
Furthermore, as explained in Appendix II, Broadnax’s
trial counsel put on one of the most comprehensive and
compelling cases in mitigation this Court has ever seen in
a Texas capital murder trial. But ultimately it was not
enough. The reason Broadnax’s jury answered the two
capital sentencing special issues in a manner favorable to
the prosecution, in all reasonable likelihood, had nothing
to do with the trial testimony of either Dr. Lane, Dr. Price,
or any other mental health professional.
Rather, at the start of its deliberations at the punishment phase of trial, Broadnax’s jury had before it compelling, overwhelming, evidence establishing that (1)
Broadnax had described his capital offense in highly detailed, albeit crude, and graphic terms during his videotaped interviews (thus belying his trial counsels’ arguments that Broadnax was intoxicated, under the influence
of drugs, or otherwise suffering from a mental impairment at the time of his offense), (2) Broadnax felt no remorse for fatally shooting two strangers multiple times at
close range (in his own words, to make sure they were
dead) without warning and then robbing them, (3) in the

78a
months following his arrest, Broadnax had never retracted or withdrawn any of the crude, highly offensive,
hateful statements he had made during his interviews
about the families of his victims but, instead, had continued to make crude, dismissive, comments whenever asked
during telephone conversations about his victims or their
families, (4) the day the jury returned its guilty verdict at
the guilt-innocence phase of trial, Broadnax remained unrepentant and remorseless, telling a female acquaintance
in a series of telephone conversations that stretched late
into the night that he felt certain he would prevail on appeal, and (5) perhaps most tellingly, Broadnax had never
retracted or withdrawn his demand to receive a death sentence or his threat to kill again if the jury failed to impose
a sentence of death.
Given the foregoing evidence, as well as the massive
amount of double-edged punishment phase testimony
from Broadnax’s family and friends establishing that
Broadnax (1) suffered a physically abusive and emotionally abusive childhood, (2) grew up in an environment bereft of stability and positive role models, and (3) was battered by a physically abusive, emotionally and physically
distant, mother and tortured by an emotionally and physically abusive, racist, grandmother, Broadnax’s jury could
easily have concluded that, as the product of such an negative environment (even disregarding Broadnax’s demonstrated willingness to brutally murder individuals he did
not know, his lack of remorse, his demand to be executed,
and his threat to kill again unless he was sentenced to
death), the evidence before it mandated an affirmative answer to the future dangerousness special issue and a negative answer to the mitigation special issue. See Brown v.
Thaler, 684 F.3d 482, 499 (5th Cir. 2012) (explaining that
mitigating evidence is “double-edged” when it might per-

79a
mit an inference that the defendant is not as morally culpable for his behavior but also might suggest that, as the
product of his environment, he is likely to continue to be
dangerous in the future); Ladd v. Cockrell, 311 F.3d 349,
360 (5th Cir. 2002) (“Although the evidence of Ladd’s inadequate supervision as a child might permit an inference
that he is not as morally culpable for his behavior, it also
might suggest Ladd, as a product of his environment, is
likely to continue to be dangerous in the future.”).
This Court alternatively concludes after independent,
de novo review of the entire record from Broadnax’s capital murder trial, including careful scrutiny of Broadnax’s
videotaped interviews and audiotaped telephone calls,
that any error in the admission of Dr. Price’s rebuttal testimony did not exceed that of harmless error under the
standard of Brecht v. Abrahamson.
For the foregoing reasons, the state habeas court’s rejection on the merits of Broadnax’s due process complaints about the admission of Dr. Price’s testimony was
neither contrary to, nor involved an unreasonable application of, clearly established Federal law, as determined by
the Supreme Court of the United States, nor resulted in a
decision that was based on an unreasonable determination
of the facts in light of the evidence presented in
Broadnax’s state habeas corpus proceeding. This Court
therefore denies this claim for relief.
VIII. ADMISSION OF ITEMS DISCOVERED IN
JAIL CELL SEARCH
Broadnax’s Fourth and Fourteenth Amendment federal habeas corpus claims addressing the evidence admitted during his trial showing the contents of his jail cell (including photographs of drawings on his cell walls, titles of

80a
books found inside his cell, and some of his writings collected during the search)29 are foreclosed by the Supreme
Court’s holding in Stone v. Powell, 428 U.S. 465, 489-95
(1976), which provides that complaints about alleged
Fourth Amendment violations (made actionable against
the States through the Fourteenth Amendment) are not
cognizable in federal habeas corpus proceedings if the defendant was afforded a full and fair opportunity to litigate
those claims on direct appeal. See Stone v. Powell, 428
U.S. at 494 (“we conclude that where the State has provided an opportunity for full and fair litigation of a Fourth
Amendment claim, a state prisoner may not be granted
federal habeas corpus relief on the ground that evidence
obtained in an unconstitutional search or seizure was introduced during his trial.”); Bridgers v. Dretke, 431 F.3d
853, 861 (5th Cir. 2005) (holding federal habeas petitioner
who was afforded a full and fair opportunity to litigate his
Fourth Amendment claim in state court was barred from
seeking federal habeas relief by the holding in Stone).
Broadnax was afforded a full and fair opportunity to
fully litigate the validity of the search of his cell during his
state trial court proceeding and had an opportunity to
challenge on direct appeal the state trial court’s ruling admitting the evidence in question. Broadnax took full advantage of his opportunity, raising a complaint about the
validity of the search of his jail cell in a pretrial motion and
then again in his twenty-eighth point of error on direct
appeal.30 The Texas Court of Criminal Appeals rejected

29

ECF no. 48 at 90-97.

30

Brief for Appellant at 92-93 [42-7 ECF at 11841-42].

81a
Broadnax’s illegal search claim on the merits. Broadnax
v. State, AP-76,207, 2011 WL 6225399, at *10.31
Furthermore, having reviewed the entire record from
Broadnax’s capital murder trial, this Court concludes that
any arguable error in the admission of the contents of
Broadnax’s jail cell was harmless under the standard set
forth in Brecht v. Abrahamson. The drawings and writings found inside Broadnax’s jail cell (reflected in State
Exhibit nos. 456-83 & 495-99) which Officer Nelson linked
to the Gangster Disciples were duplicative of the numerous Gangster Disciples symbols, images, and rap lyrics
found in the two spiral notebooks (one red and one black)
found among Broadnax’s personal property in the trunk
of Swan’s vehicle at the time of Broadnax’s arrest that
were introduced into evidence in a pretrial hearing as
State Exhibit nos. 14 and 15 and at trial as State Exhibit
nos. 131-I and 131-J.32 Thus, the photographs of the walls
and contents of Broadnax’s jail cell represented additional
evidence in the prosecution’s compelling mountain of evidence establishing Broadnax’s fascination with the culture and symbols of a violent criminal street gang. Admission of the largely redundant photographs of items in

For the reasons discussed in note 27, Broadnax cannot rely upon
the Supreme Court’s holdings in Martinez v. Ryan and Trevino v.
Thaler to re-litigate substantive constitutional claims in this court
which he fully litigated in the state courts.
31

32
The contents of Broadnax’s red and black notebooks appear
among the state court records in this cause at 40-7 ECF at 62-111 of
111 (State Exhibit no. 14), 40-8 ECF at 1-27 of 95 (State Exhibit no.
15), 40-11 ECF at 62-110 of 120 (State Exhibit no. 131-I), and 40-11
ECF at 111-20 of 120 & 40-12 ECF at 1-26 of 89 (State Exhibit no.
131-J).

82a
Broadnax’s jail cell, even if erroneous, did not have a substantial and injurious effect or influence in determining
the jury’s punishment phase verdict.
IX. DENIAL OF DEFENSE’S CHALLENGES FOR
CAUSE
A. The Proper Scope of the Claim
Broadnax complains that the state trial court erroneously denied the defense’s challenges for cause to more
than a dozen members of the jury venire.33 Respondent
correctly points out, however, that insofar as Broadnax
complains about the state trial court’s failure to grant defense challenges for cause made against venire members
against whom Broadnax later exercised peremptory challenges, Broadnax’s complaints are non sequitur. See Ross
v. Oklahoma, 487 U.S. 81, 88 (1988) (“So long as the jury
that sits is impartial, the fact that the defendant had to
use a peremptory challenge to achieve that result does not
mean the Sixth Amendment was violated.”). If a criminal
defendant exercises a peremptory challenge to exclude an
allegedly biased venire member from service on the jury,
no constitutional violation occurs. See United States v.
Martinez-Salazar, 528 U.S. 304, 307 (2000) (“[I]f the defendant elects to cure such error by exercising a peremptory challenge, and is subsequently convicted by a jury on
which no biased juror sat, he has not been deprived of any
rule-based or constitutional right.”). Thus, this Court’s focus is limited to examining the propriety of the state trial
33
ECF no. 48 at 74-84. Broadnax urged many of these same arguments as his eighth through twenty-fifth points of error on direct appeal. Appellant’s Brief at 43-83 [42-7 ECF at 70-110 of 152]. The
Texas Court of Criminal Appeals rejected Broadnax’s direct appeal
complaints on the merits. Broadnax v. State, AP-76,207, 2011 WL
6225399, at *4-*9.

83a
court’s ruling on Broadnax’s challenge for cause to the
only member of the jury venire Broadnax identifies as biased who ultimately served on Broadnax’s petit jury, i.e.,
qualified juror no. 43, J_ V_ (listed in the original jury venire as potential juror no. 1345).34
B. Defense Voir Dire Examination of Qualified Juror
No. 43 & Outcome on Appeal
The relevant portions of Broadnax’s trial counsel’s
voir dire examination of qualified juror no. 43 are as follows:
Q. Now, here’s where we get into our problems. A juror can go into this and know that by the way he
votes on these issues is going to determine whether
or not a person gets life or death.
A. Right.
Q. Okay. And if we have a juror who tells us, Yes, I
think that both life without parole and death are
both very serious punishments and are satisfactory punishments and I can honestly look at these
issues to let them guide me on how I vote on these
issues to get to the end.
A. Right.

34
Broadnax complained about the state trial court’s failure to grant
his challenge for cause to this particular member of the jury venire in
his twenty-second point of error on direct appeal. Appellant’s Brief at
76-78 [42-7 ECF at 103-05 of 152]. The juror questionnaire answers
given by qualified juror number 43, J_ V_ (venire member number
1345) appear at 61-3 ECF at 235-53 of 349. The voir dire examination
of this same juror appears at 35 S.F. Trial at 5-82 [41-9 ECF at 5-25
of 57]. This Court will identify individual jurors and jury venire members by their initials and juror numbers only.

84a
Q. Okay. That’s one thing. But, [name omitted], and
this is where I’m concerned because what you’ve
told us here in your questionnaire quite plainly is
that you have a bias against life without parole, is
that right?
A. I don’t know if I have a bias against it. I don’t know
if it is not more cruel than the death penalty.
Q. Well, let me go through some of your answers that
you gave us in your questionnaire. Here on Page 2
you tell us the best argument for the death penalty
is, Willful taking of another person’s life should be
the forfeiture of the assailant’s life—should result
in the forfeiture of the assailant’s life.
A. Okay.
Q. Is that what you thought?
A. Yes.
Q. And I assume, obviously, that you told us the truth
when you made the answers to your questionnaire.
A. Yes.
Q. And that is how you felt. When we go over here to
Page 4 we ask you, For what crimes do you think
the death penalty should be available in Texas and
you said, first-degree murder or murder in the
commission of a felony.
A. Okay.
Q. If we go over to Page 5 we ask you, Do you think
spending a lifetime in prison is equivalent to the
death penalty? And you said, No. We asked you,
Which of the following accurately states your general belief regarding a sentence of life without the

85a
possibility of parole? And you told us you were
strongly opposed to that.
A. Right.
Q. And in explaining your response you said, I believe
that lifetime incarceration is both a financial burden on society and morally the criminal deprived
another person of their life and should not be allowed to suffer for years in a cell.
A. Right.
Q. And then we ask you, For what purpose, if any, do
you believe life without the possibility serves? And
your answer was nothing. And then the next one,
What purposes, if any, do you believe the death
penalty serves? And you said, It ends the actions
someone may repeat if unused.
If the death penalty is not used, they may repeat
their willful taking of another person’s life, is that
what you meant there?
A. Yes, sir.
Q. Okay. So tell me where I’m wrong.
A. Okay. I will.
Q. Basically, it seems to me like you told us that you’d
consider if you got the ability to answer these questions in such a way that a person gets death or life
without parole, you would favor giving them death
because it would be a financial burden on the taxpayers to keep them alive for life, it is morally
wrong to give them life—and you’re afraid they
may repeat their actions if you don’t give them
death.
A. Okay.

86a
Q. Is that fair?
A. Yes. I guess.
Q. See, that’s where I’m having a problem.
A. Okay.
Q. I’m not mad at you. Believe me.
A. I know.
Q. We’re just trying to pick twelve people who can be
fair to both sides.
A. I completely understand.
Q. Please understand, I’m not mad at you or criticizing you for having your opinions.
A. Right.
Q. Ain’t nobody going to try to change your opinions,
but this is a process where we try to pick people
who can be fair to both sides.
A. Okay, sure.
Q. And if we have a juror—a potential juror that tells
us, I’m against life without parole and particularly
for a person that I have found has willfully caused
the death of another person and has done that during the course of committing a robbery and if that’s
what you’re telling me, fine, we’ll go on to the next
juror.
[Prosecutorial Objection Overruled—Colloquy Omitted]
Q. Tell me where you stand.
A. Well, honestly, yes, there are kind of my opinions.
It’s, like, I don’t think the death penalty should be
used for just anything less than murder and things

87a
like that that are going on. I guess the statement—
I think lifetime incarceration is a horrid thing.
That’s, like, who would want to be locked up for absolutely the rest of their life and never get out? But
I do think that I would judge this case honestly and
fairly. I mean, there are my opinions, but it doesn’t
mean that I couldn’t make the judgment. I didn’t
know about these special issues and how the situation worked. I mean, I think I can take the evidence
and honestly judge it.
Q. Do you think you could vote in such a way that the
defendant would get life without parole even if you
personally dislike a person getting life without parole?
A. Yes. It is the law and I want to follow the same
rules.35
***
Q. Okay. Now, some people tell us, [name omitted],
well, wait a minute, if the State has proven to me
already beyond a reasonable doubt and they’ve
proven to all of the other jurors beyond a reasonable doubt that the person on trial is the type of person who would harm [sic] themselves with a loaded
gun, go out and willingly do a robbery and during
the course of doing that robbery form—be able to
have the ability to form the intention of causing the
victim’s death and doing whatever it took to accomplish that death, okay?
A. Okay.

35
Voir Dire Examination of Qualified Juror No. 43, J_ V_, 35 S.F.
Trial at 67-72 [41-9 ECF at 20-22 of 57].

88a
Q. Then that is the type of person who, to me, is always going to be the type of person that’s going to
be likely to commit criminal acts of violence in the
future. How do you feel about that?
A. That’s a tough one.
Q. In other words, I’m saying to some jurors—and jurors have told us this, you know, if you show me
that he is the type of person that would do a capital
murder, that is the type of person that I believe is
likely to commit criminal acts of violence in the future, even if you put him in the penitentiary.
[Prosecutorial Objection Overruled—Colloquy Omitted]
A. So basically you’re asking me, do I think that if
they can commit the crime once that’s a guarantee
they would do it again?
Q. (By. Mr. Lollar) Not guaranteed. That’s not what
the question asks. Is there a probability?
A. A probability that they would do it again and if I
think that’s a true statement?
Q. Yes.
A. Yes.
Q. So if I’m understanding you, if the State proves the
case beyond a reasonable doubt, you’re going to
answer Special issue No. 1 “yes” because you think
that’s the type of person who probably would commit criminal acts of violence?
A. It would be a consideration. I thought she had to
bring on more evidence—
Q. She doesn’t have to bring on more—

89a
MS. HANDLEY: I’d like the juror to finish his response, Your Honor.
THE COURT: Sustained.
A. I thought in the punishment phase she had to present more evidence of the perpetrator, whatever
you call it. The defendant, I’m sorry, the defendant’s personality and everything else and had another background that may or may not indicate
that the—
Q. Well, the fact of the matter is, the State is not required to put on a bit more evidence in the punishment phase.
A. Okay.
Q. They don’t have to do anything. They can rely upon
the facts of the case that have been shown in the
first part of the trial.
[Prosecutorial Objection Overruled—Colloquy Omitted]
Q. (By Mr. Lollar) Where were we? I was explaining
that the State is not required to put on more evidence in the second part of the trial.
A. Okay.
Q. They can stand up and rest and just rely upon the
evidence in the first part of the trial. They can if
they want to, but they’re not required to.
THE COURT: They still have to prove the answer to
that is “yes” beyond a reasonable doubt. And do you
understand this?
[Qualified Juror no. 43]: Yes.

90a
Q. (By. Mr. Lollar) Let me skip over Special Issue No.
2 there for a minute, that’s pretty self-explanatory,
and go on to Special Issue No. 3.
Now Special Issue No. 3 allows a jury who has basically assessed a death penalty to back off of that
and change that to a life sentence.
A. Yes.
Q. Do you understand that?
A. Right.
Q. Let me tell you where a jury would be at the time
they get to Special issue No. 3. Number one, that
jury will have necessarily found that the person on
trial is an intentional murderer who committed the
act of intentional murder during the course of a
robbery and they will have concluded, beyond a
reasonable doubt, that the State has successfully
proven to them not only that, but also that the person would be likely to commit criminal acts of violence in the future against other inmates and
guards and wardens and teachers and priests and
whatever [sic] else might be at the penitentiary
and they have persuaded the jury of that beyond a
reasonable doubt, okay?
So here you are as a juror who at that point, now,
is convinced beyond a reasonable doubt that the
defendant is an intentional murderer, a robber who
is likely to commit criminal acts of violence to the
people around him at the penitentiary.
A. Okay.
Q. So then you get Special Issue No. 3 and it allows a
jury to back off of that death sentence and change
that to life. Frankly, people have told us that, Well,

91a
wait a minute, if you’ve already convinced me that
he’s an intentional murderer, a robber and he’s
likely to commit criminal acts of violence around
the people—on the people around him down at the
penitentiary, then there ain’t going to be nothing.
There is no mitigating circumstance that can be
shown to me that’s going to make me want to back
off a death sentence at that point and change that
to a life sentence. Because if I do that, I’m basically
allowing future violence to be played out on the
people in the penitentiary by the defendant and
that ain’t never going to happen with me.
A. Okay.
Q. How do you feel about that?
A. Well, you know, I’m kind of like in this place. It is,
like, everything is black and white, yes or no.
You’re saying that I’ve made all of these decisions,
so that’s going to be my decision and that during
the course of the trial I may not hear or understand
something that may bring other issues that are
mitigating factors that I might consider changing
my mind under Special issue No. 3. I can’t predict
it, but I’m not saying that I’m so hard that this is
my answer and this is always going to be my answer and this is never going to change and nothing
else can ever affect me.
Q. Okay. As you sit here today, can you think of some
things that you might consider to be a sufficient
mitigating circumstance to change a death sentence to a life sentence or an intentional murder
that you believe (Inaudible)?
[Prosecutorial Objection Overruled—Colloquy Omitted]

92a
THE COURT: Let me say this: You don’t have to say
anything, but if something comes to your mind, you
might tell Mr. Lollar that. You’re not required to say
here what you would consider a sufficient mitigating
circumstance, but if you’re thinking of some things
you’d like to think about, you can say that.
A. I can’t think of anything off the top of my head.36
Immediately after this latter series of exchanges, the
defense challenged this member of the jury venire because: “He told us if he finds the defendant guilty of capital murder he’s going to answer Special Issue No. 1, ‘yes’
and can’t think of anything that is going to mitigate
against the death penalty in answer to Special issue No. 3.
We feel the juror is not qualified.”37 The trial court immediately denied the challenge for cause.
Broadnax complained on direct appeal that the venire
member’s voir dire answers revealed (1) he was unable to
identify exactly what particular mitigating evidence he
would need to hear to answer the mitigation special issue
in a manner favorable to defense and (2) he would “automatically” answer the future dangerousness special issue
affirmatively based upon a finding the defendant was
guilty of a capital offense.38 The Texas Court of Criminal
Appeals concluded the entire record from this venire
member’s voir dire examination revealed him to be a vacillating juror on the subject of whether he would automatically answer the future dangerousness special issue affirmatively or could, instead, render his verdict based on
36
Voir Dire Examination of Qualified Juror No. 43, J_ V_, 35 S.F.
Trial at 74-80 [41-9 ECF at 23-24 of 57].
37

35 S.F. Trial at 80-81 [41-9 ECF at 9435-36].

38

Appellant’s Brief at 77 [42-7 ECF at 11826].

93a
the evidence and deferred to the trial court’s conclusion
the venire member was qualified to serve. Broadnax v.
State, AP-76,207, 2011 WL 6225399, at *8. The state appellate court also concluded there was no requirement
that venire members be able to think of sufficiently mitigating circumstances on their own or that they find any
particular
circumstances
sufficiently
mitigating.
Broadnax v. State, AP-76,207, 2011 WL 6225399, at *5.
C. Clearly Established Federal Law
In Adams v. Texas, 448 U.S. 38 (1980), the Supreme
Court emphasized the limitations its previous holding in
Witherspoon v. Illinois, 391 U.S. 510 (1968), imposed on
the ability of the State to exclude members of a jury venire from service on a capital sentencing jury:
a juror may not be challenged for cause based on his
views about capital punishment unless those views
would prevent or substantially impair the performance of his duties as a juror in accordance with his
instructions and his oath. The State may insist, however, that jurors will consider and decide the facts impartially and conscientiously apply the law as charged
by the court.
Adams v. Texas, 448 U.S. at 45. The Supreme Court emphasized in Adams that the State could, consistent with
Witherspoon, exclude prospective jurors whose views on
capital punishment are such as to make them unable to
follow the law or obey their oaths; but excluding jurors on
broader grounds based on their opinions concerning the
death penalty is impermissible. Id. at 44-48.
In Wainwright v. Witt, 469 U.S. 412 (1985), the Supreme Court further clarified its holdings in Witherspoon
and Adams, holding the proper inquiry when faced with a
venire member who expresses personal, conscientious, or

94a
religious views on capital punishment is “whether the juror’s views would prevent or substantially impair the performance of his duties as a juror in accordance with his
instructions and his oath.” Wainwright v. Witt, 469 U.S.
at 424. The Supreme Court also emphasized that considerable deference is to be given the trial court's first-hand
evaluation of the potential juror’s demeanor and that no
particular magical incantation or word choice need necessarily be followed in interrogating the potential juror in
this regard. Id. at 430-35.
More recently, the Supreme Court has identified the
following “principles of relevance” from its WitherspoonWitt line of opinions:
First, a criminal defendant has the right to an impartial jury drawn from a venire that has not been tilted
in favor of capital punishment by selective prosecutorial challenges for cause. Second, the State has a
strong interest in having jurors who are able to apply
capital punishment within the framework state law
prescribes. Third, to balance these interests, a juror
who is substantially impaired in his or her ability to
impose the death penalty under the state-law framework can be excused for cause; but if the juror is not
substantially impaired, removal for cause is impermissible. Fourth, in determining whether the removal of
a potential juror would vindicate the State’s interest
without violating the defendant’s right, the trial court
makes a judgment based in part on the demeanor of
the juror, a judgment owed deference by reviewing
courts.
Uttecht v. Brown, 551 U.S. 1, 9 (2007) (citations omitted).
In Uttecht, the Supreme Court admonished reviewing
courts to defer to the trial court’s resolution of questions
of bias arising from a potential juror’s conflicting voir dire

95a
answers because the trial court had the opportunity to observe the demeanor of the potential juror. Id. at 20
(“where, as here there is a lengthy questioning of a prospective juror and the trial court has supervised a diligent
and thoughtful voir dire, the trial court has broad discretion.”). “Courts reviewing claims of Witherspoon-Witt error, however, especially federal courts considering habeas
petitions, owe deference to the trial court, which is in a
superior position to determine the demeanor and qualifications of a potential juror.” Id. at 22. Moreover, judicial
determinations of whether a potential juror possesses disqualifying bias is a question of fact to which a federal habeas court is required to give deference. Skilling v.
United States, 561 U.S. 358, 396 (2010); Wainwright v.
Witt, 469 U.S. at 423-24; Patton v. Yount, 467 U.S. 1025,
1036-38 (1984).
D. Synthesis
The Eighth Amendment requires that the jury be able
to consider and give effect to a capital defendant’s mitigating evidence. Tennard v. Dretke, 542 U.S. 274, 285
(2004); Boyde v. California, 404 U.S. at 377-78. The law is
clear, however, that a defendant in a capital case is not
entitled to challenge prospective jurors for cause simply
because they might view the evidence the defendant offers in mitigation as aggravating, rather than mitigating,
in nature. See Johnson v. Texas, 509 U.S. 350, 368 (1993)
(“the fact that a juror might view the evidence of youth as
aggravating, as opposed to mitigating, does not mean that
the rule in Lockett is violated.”); Dorsey v. Quarterman,
494 F.3d 527, 533 (5th Cir. 2007) (holding the fact several
members of the jury venire did not consider the defendant’s youth to be a mitigating factor did not furnish a basis
for a challenge for cause); Soria v. Johnson, 207 F.3d 232,
244 (5th Cir. 2000) (holding defendant was not entitled to

96a
challenge venire members for cause because they viewed
as a double-edged sword evidence (of youth) the defendant might proffer in mitigation).
In his federal habeas corpus petition, Broadnax complains for the very first time that this venire member gave
answers on his juror questionnaire refusing to accept as
“mitigating” potential evidence of voluntary intoxication
at the time of the capital offense and evidence regarding
the defendant’s genetic and psychosocial background. As
explained in Section VII, evidence Broadnax came from
an unstable, disadvantaged family background and suffered severe abuse as a child is inherently double-edged
in nature. The fact that qualified juror no. 43 gave an answer on page 8 of his questionnaire suggesting that he did
not view “genetics, circumstances of birth, upbringing and
environment” as relevant in “determining the proper punishment of someone convicted of a crime” “except in cases
of actual organic brain disfunction [sic]”39 did not render
him subject to a proper challenge for cause. Dorsey v.
Quarterman, 494 F.3d at 533; Soria v. Johnson, 207 F.3d
at 244. The same is true for Broadnax’s complaint that this
juror answered “no” on page 6 of his juror questionnaire
to “The law in Texas provides that evidence of intoxication
may be considered in mitigation of punishment. Do you
agree with this law?” This juror not only answered “no”
but wrote as follows: “Most actions made under intoxication are just suppressed aspects of the personality, hence
could have been committed anyway.”40 The fact this juror
did not appear to view evidence of voluntary intoxication
at the time of a criminal offense as “mitigating” in nature
did not render him subject to a challenge for cause.
39

61-3 ECF at 243 of 349.

40

61-3 ECF at 241 of 349.

97a
Dorsey, 494 F.3d at 533; Soria v. Johnson, 207 F.3d at 244;
see also Boyle v. Johnson, 93 F.3d 180, 187-88 (5th Cir.
1996) (recognizing evidence of a defendant’s drug and alcohol abuse has a double-edged quality). The failure of
this venire member to adopt a “mitigating” view of proposed evidence of voluntary intoxication at the time of a
criminal offense and his apparently dim view of the mitigating value of other, equally double-edged, background
evidence did not render him subject to a proper challenge
for cause. Thus, Broadnax’s unexhausted complaints of
disqualifying bias arising from the venire member’s questionnaire answers regarding voluntary intoxication, genetics, and the circumstances of the defendant’s birth, upbringing, and environment do not furnish a basis for federal habeas corpus relief.
Viewed objectively, the venire member’s voir dire examination makes clear that his questionnaire answers,
given prior to his receiving any instructions regarding the
Texas capital sentencing Special Issues, should not be
construed as reflecting an unwillingness on his part to
consider all the evidence before the jury or to follow the
law. On the contrary, this Court concludes the venire
member’s voir dire examination reveals an individual who
was anything but substantially impaired in his or her ability to impose the death penalty under the state-law framework. The venire member gave no indication whatsoever
during his voir dire examination that he was unable to put
aside any personal views he might possess and decide
Broadnax’s case, including giving answers to the Texas
capital sentencing Special Issues, based solely upon the
law and the evidence presented at trial. This Court finds
no evidentiary basis in the record for a rational belief this
venire member was constitutionally unqualified to serve
on Broadnax’s capital jury under the Supreme Court’s
Witherspoon-Uttecht line of opinions.

98a
Furthermore, the state trial judge who overruled
Broadnax’s challenge for cause to this venire member had
the opportunity to view the venire member’s demeanor
first hand. Broadnax has failed to present this Court with
any clear and convincing evidence showing the state trial
court’s factual determination the venire member was unbiased was erroneous. Under such circumstances, this
Court is required to defer to the state trial court’s factual
determination, including its implicit credibility findings.
Skilling v. United States, 561 U.S. at 396; Wainwright v.
Witt, 469 U.S. at 423-24; Patton v. Yount, 467 U.S. at 103638. “The factual question whether the juror is biased and
whether his answers can be believed are questions for the
trial court.” Dorsey v. Quarterman, 494 F.3d at 55 (citing
Wainwright v. Witt, 469 U.S. at 423-24).
Having reviewed the entirety of the venire member’s
juror questionnaire answers and voir dire examination,
this Court concludes the Texas Court of Criminal Appeals’ rejection on the merits of Broadnax’s twenty-second point of error on direct appeal was neither contrary
to, nor involved an unreasonable application of, clearly established Federal law, as determined by the Supreme
Court of the United States, nor resulted in a decision that
was based on an unreasonable determination of the facts
in light of the evidence presented in his trial and direct
appeal. This Court therefore denies this claim for relief.
X. ADMISSION OF MEDIA INTERVIEWS—FIFTH
& SIXTH AMENDMENT CLAIMS
As he did both on direct appeal and in his state habeas
corpus application, Broadnax argues the trial court’s admission of his videotaped interviews by multiple television

99a
reporters violated his Fifth and Sixth Amendment
rights.41
ECF no. 48 at 17-33 & 36-45. The parties spend considerable energy and effort arguing whether either or both of Broadnax’s claims
are procedurally defaulted. It is unnecessary for this Court to resolve
that issue because, as explained below, all of Broadnax’s complaints
about the admission of his videotaped interviews lack arguable merit.
The Supreme Court has made clear that federal habeas courts may
deny writs of habeas corpus by engaging in de novo review when it is
unclear whether AEDPA deference applies because a federal habeas
petitioner will not be entitled to a writ of habeas corpus if his claim is
rejected on de novo review. Berghuis v. Thompkins, 560 U.S. 370, 390
(2010). The Supreme Court has declined to address an issue of procedural default and chosen, instead, to resolve a claim on the merits,
holding that an application for habeas corpus may be denied on the
merits notwithstanding a petitioner’s failure to exhaust in state court.
See Bell v. Cone, 543 U. S. 447, 451 n.3 (2005) (citing section
2254(b)(2)). “An application for a writ of habeas corpus may be denied
on the merits, notwithstanding the failure of the applicant to exhaust
the remedies available in the courts of the State.” Rhines v. Weber,
544 U. S. 269, 277 (2005) (quoting 28 U.S.C. § 2254(b)(2)). Writing for
four Justices of the United States Supreme Court, Justice Alito explained the rationale underlying a federal habeas court’s decision to
eschew analysis of a factually and legally convoluted procedural default question in favor of simply addressing the lack of merit in a particular claim as follows:
41

In the absence of any legal obligation to consider a preliminary
nonmerits issue, a court may choose in some circumstances to bypass the preliminary issue and rest its decision on the merits. See,
e.g., 28 U.S.C. § 2254(b)(2) (federal habeas court may reject claim
on merits without reaching question of exhaustion). Among other
things, the court may believe that the merits question is easier,
and the court may think that the parties and the public are more
likely to be satisfied that justice has been done if the decision is
based on the merits instead of what may be viewed as a legal technicality.
Smith v. Texas, 550 U. S. 297, 324 (2007) (Justice Alito, with Chief
Justice Roberts and Justices Scalia and Thomas, dissenting). A Supreme Court majority employed this very approach in Lambrix v.

100a
A. State Court Disposition
1. Trial Court Ruling on Motion to Suppress & Jury
Verdict
Broadnax filed a pretrial motion arguing his statements to the media made following his arrest should be
suppressed because (1) their admission violated the Fifth
Amendment principles announced in Miranda v. Arizona, 384 U.S. 436 (1966), because he did not receive
warnings before each interview as mandated by that decision, (2) his statements during the interviews were involuntary, i.e., they were the products of inducements and
coercion by the Dallas County Sheriff’s Department, and
(3) his statements were taken in violation of Broadnax’s
Sixth Amendment right to counsel.42 On July 27 and August 4, 2009, the trial court held an evidentiary hearing on
Broadnax’s motion to suppress.
More specifically, on July 27, 2009, the trial court
heard testimony from the Dallas County Sheriff’s Department’s media relations official who testified (1) she is the
contact person when the media wishes to interview a jail
inmate, (2) she received numerous requests to interview
Broadnax, (3) she never encouraged or asked any member
of the media to interview Broadnax, (3) she identified a
Singletary, 520 U. S. 518, 520 (1997), where the Supreme Court held
“[w]e do not mean to suggest that the procedural-bar issue must be
resolved first; only that it ordinarily should be. Judicial economy
might counsel giving the Teague question priority, for example, if it
were easily resolvable against the habeas petitioner, whereas the procedural-bar issue involved complicated issues of state law.”
42
Broadnax’s Motion to Suppress, Clerk’s Record, Supplemental
Volume 1 of 2, at 200-03 [38-12 ECF at 205-07 of 311]. Broadnax’s
pretrial motion to suppress clearly embodied both Fifth and Sixth
Amendment claims.

101a
series of documents recording the media interview requests for Broadnax and Cummings, all of which were
signed June 20, a day before Broadnax arrived at the Dallas County Jail, (4) she arranged for interviews of
Broadnax and Cummings on June 23, (5) she received a
request on June 24 from Broadnax’s attorney Brad Lollar
and thereafter declined all media requests to interview
Broadnax, (6) prior to June 24, she had received no request from any attorney to not allow media interviews of
Broadnax, (7) after a jail inmate signs a consent form
agreeing to an interview, she routinely contacts the media
who requested the interview and make arrangements to
facilitate the interview, (8) Broadnax consented in writing
to interviews by four television stations and possibly one
member of the print media, (9) she had to arrange for
staggered interviews because Broadnax and Cummings
gave their respective interviews simultaneously in different locations within the jail, (10) she stayed near the location of the Broadnax’s interviews while another official
handled Cummings’ interviews, (11) while she allowed
each television reporter a thirty-minute time slot with
Broadnax, most of the interviews concluded after about
fifteen minutes, (12) she has never taken part in a police
interrogation, (13) Broadnax was fairly cooperative during his interviews although he did appear aloof at points,
(14) nothing about Broadnax’s interviews appeared to be
involuntary, (15) no money was offered to induce his interviews, (16) it was clear to her that Broadnax wanted to
talk to the media, (17) nothing that took place after the
interviews suggested to her they had been involuntary,
(18) she was unaware at the time of Broadnax’s interviews
that he had been placed in closed behavioral observation,
referred for a psychiatric evaluation, or that he had been
examined by jail medical staff for complaints of auditory

102a
hallucinations, (19) she had never seen Broadnax’s medical records until the day of the suppression hearing, (20)
she was unaware Broadnax had requested appointment of
counsel or filed an affidavit of indigence shortly after he
arrived at the jail in Dallas, and (21) nothing in Broadnax’s
medical records indicated he had any psychological problems. Testimony of Kimberly Leach, 41 S.F. Trial at 7-63
[41-15 ECF at 6-19 of 45].43
Also on July 27, the state trial court heard testimony
from the Dallas County Jail detention officer who escorted Broadnax to his June 23 interviews, who testified
(1) Broadnax’s demeanor during his transport was “okay”
and she had no reason to second guess removing him from
his cell to take him to his interviews, (2) she escorted
Broadnax by herself without assistance and had no fear
for her own safety, (3) Broadnax did not appear to be psychotic, was not talking to himself or drooling, (4)
Broadnax did not refuse to go to his visits, (5) she asked
Broadnax before each of his interviews if he was okay doing them and he said he was, and (6) Broadnax was placed
on suicide watch starting at two PM on June 23, after he
gave his interviews. Testimony of Christie Hicklen, 41
S.F. Trial at 65-79 [41-15 ECF at 20-23 of 45].
Finally, on July 27, the state trial court also heard testimony from a defense expert—a former law enforcement
officer with a doctorate in education who testified (1) he
had worked with the Texas Engineering Extension Service to help standardize field sobriety tests, (2) he teaches
43
Please note that pages 52-55 of Ms. Leach’s testimony during the
pretrial hearing are missing from both the hard copy and electronic
copies of Volume 41 of the S.F. Trial filed by Respondent. However,
a complete version of Volume 41 appears on the CD-ROM submitted
by Respondent labeled “Volumes 1-54 & Supp. Volumes” included
among the state court record.

103a
at the undergraduate and graduate levels in drug recognition, (3) he had reviewed Broadnax’s medical records
and videotaped interviews, (3) based upon Broadnax’s appearance and combative behavior, he believed Broadnax
was under the influence of “wet” at the time of his interviews, (4) he found support for his conclusion in (a)
Broadnax’s medical records, which indicate a diagnosis of
polysubstance abuse induced psychosis, (b) Broadnax’s elevated temperature, pulse, and blood pressure upon admission to the Dallas County Jail, (c) Broadnax’s complaints of hallucinations on the morning of June 23, and
(d) the fact Broadnax was subsequently treated with antipsychotic medications, (5) he was not a medical doctor and
is not qualified to give a medical opinion, (6) he was unaware Broadnax had been arrested on June 19 and not
brought to the Dallas County Jail until June 21, (7) in his
opinion, after two days of not smoking pot, Broadnax’s
body would still be metabolizing the drug but it would not
be psychoactive, (8) PCP is a powerful drug that can be
both a depressant and a stimulant, (9) he cannot say with
a hundred percent certainty that Broadnax was under the
influence at the time of his interviews, (10) his opinion was
based in part on Broadnax’s statement that he saw colors
or flashes of light at the time of his offenses, which was
consistent with drug abuse, (11) he had never interviewed
Broadnax, and (12) he had witnessed people on PCP during his years as a police officer but had not been involved
in any scientific studies of the effects of PCP abuse. Testimony of Dr. Lance Pratt, 41 S.F. Trial at 91-106 [41-15
ECF at 26-30 of 45].
On August 4, 2009, the state trial court heard testimony from the four television reporters who interviewed

104a
Broadnax on June 23, 2008.44 More specifically (1) a journalist from KDFW, Fox 4, testified that (a) his station
filed a request to interview Broadnax, (b) he had no contact with law enforcement before his interview with
Broadnax, (c) the only person from law enforcement with
whom he spoke was Kim Leach, (d) he had no conversations with Ms. Leach regarding Broadnax’s invoking his
Miranda rights, (e) he was informed Broadnax had
signed a written consent to be interviewed, (f) he made no
promises or threats to induce Broadnax’s interview and
was aware of no such threats or inducements, (g) he and
his cameraman did nothing to overcome Broadnax’s free
will, (h) he saw no one at the jail or with the Sheriff’s Department do anything to get Broadnax to talk with him, (i)
Ms. Leach took them upstairs when they arrived at the
jail, and (j) Broadnax received no Miranda warnings or
warnings about the consequences of talking with the media in his presence (Testimony of Shawn Rabb, 43 S.F.
Trial at 4-34 [41-17 ECF at 6-36 of 134]); (2) a journalist
from WFAA channel 8 testified that (a) she had never
worked in law enforcement, (b) the unedited original video
of her interview with Broadnax had been recorded over
since June 23, 2008 but the edited version was accurate,
(c) she had no contact with law enforcement before interviewing Broadnax, (d) she did speak with Kim Leach prior
to interviewing Broadnax to set up the interview, (e) she
did nothing to overcome Broadnax’s free will, (f) she offered Broadnax nothing and made no threats to induce his
interview, (g) no one threatened or bribed Broadnax to induce his interview, (h) Broadnax wanted to talk with her,
(i) her assignment editors arranged Broadnax’s interview,
44
Please note that, for unknown reasons, wherever the word “is”
should appear throughout the transcription of the hearing held August 4, 2009, the word that appears in the transcript is “earns.”

105a
(j) Broadnax’s appearance during the interview was
scruffy and his demeanor was somewhat cavalier and callous, i.e., he denied feeling any remorse and didn’t seem
to care what he had done to his victims, and (k) when she
asked him whether he really meant it when he said he was
ready to receive a lethal injection, Broadnax held up his
arms and said “pick an arm.” (Testimony of Rebecca
Lopez, 43 S.F. Trial at 36-60 [41-17 ECF at 38-62 of 134]);
(3) the first journalist to interview Broadnax on June 23
testified that (a) he was assigned that duty by his assignment editor, (b) no one did anything to overcome
Broadnax’s free will, (c) he did not ask Broadnax if he had
a lawyer because he is a reporter, not a police officer, (d)
he was unaware whether Broadnax had been Mirandized
prior to the interview, (e) he interviewed Cummings before he interviewed Broadnax, and (f) initially, Broadnax
was calm and cordial but later made statements that were
against his own interest (Testimony of Steven Antonio
Pickett, 42 S.F. Trial at 62-79, 81 [41-17 ECF at 64-81, 83
of 134]); and (4) the last television journalist who interviewed Broadnax testified (a) she had never worked for
law enforcement, (b) the video-recording of her interview
she gave to the prosecution was accurate, (c) prior to interviewing Broadnax, she had no discussion with anyone
in law enforcement regarding her interview with
Broadnax, (d) she was not involved in any communication
in which law enforcement encouraged her to interview
Broadnax, (e) her assignments editor put in the request to
interview Broadnax, (f) no offers or threats were made to
induce Broadnax’s interview, and (g) nothing was done to
overcome Broadnax’s free will, (h) Broadnax was not Mirandized in her presence (Testimony of Ellen Goldberg,
43 S.F. Trial at 82-99 [41-17 ECF at 83-101 of 134]).
At the conclusion of that hearing, the state trial court
denied Broadnax’s motion to suppress, concluding (1)

106a
there was no evidence in the record whatsoever showing
any of the reporters who interviewed Broadnax had acted
as agents of the State (expressly stating it was not even a
close question) and (2) Broadnax’s interviews by the television reporters did not constitute custodial interrogations for purposes of the Fifth and Sixth Amendments. 43
S.F. Trial at 112-13 [41-17 ECF at 114-15 of 134].
During the guilt-innocence phase of trial, three of the
television reporters who interviewed Broadnax reiterated
their testimony at the pretrial hearing on Broadnax’s motion to suppress, i.e., they testified (1) they were not in any
way associated with law enforcement, (2) they were not
acting at the direction or behest of law enforcement when
they interviewed Broadnax, and (3) their interviews of
Broadnax had been arranged by their superiors at their
stations.45 They also testified, without contradiction, that
none of them witnessed anything during their time with
Broadnax suggesting his cooperation with them during
their interviews was in any way involuntary.46 As part of
the defense’s evidence at the guilt-innocence phase of
trial, Broadnax presented testimony showing (1) he was
examined the same morning he gave his interviews by
Dallas County Jail medical staff who diagnosed him as
45

See Appendix I.

46
Testimony of Steven Antonio Pickett, 45 S.F. Trial at 123-30 [4119 ECF at 41-42 of 84] (emphasizing that nothing before, during, or
after the interview suggested Broadnax’s participation had been involuntary and that he saw no signs Broadnax was intoxicated, unresponsive, unintelligent, or irrational throughout the interview); Testimony of Ellen Goldberg, 45 S.F. Trial at 275-76 [41-19 ECF at 79 of
84] (no threats or offers were made to induce Broadnax’s interview
with her); and Testimony of Shawn Rabb, 46 S.F. Trial at 234, 249 [4120 ECF at 101, 105 of 107] (emphasizing Broadnax rationally answered all of his questions and he saw nothing indicating Broadnax
was intoxicated).

107a
suffering from a psychosis possibly related to substance
abuse and (2) after his interviews he was placed on suicide
watch.47
The state trial court instructed the jury at the guiltinnocence phase of Broadnax’s trial that it could not consider the evidence of Broadnax’s interviews to the reporters who testified at trial if the jury (1) had a reasonable
doubt as to whether a reporter was acting as an agent of
law enforcement and failed to give Broadnax his constitutionally mandated warnings or (2) concluded Broadnax
was so impaired as to be unable to freely and voluntarily
More specifically, a Dallas County Jail psychiatrist who (1) observed Broadnax was alert and oriented, guarded, disrespectful, angry, goal-directed, displayed normal psychomotor skills, and displayed congruent thought processes, (2) concluded Broadnax’s complaints of auditory hallucinations indicated paranoid delusions, (3) diagnosed Broadnax with polysubstance dependence and bronchial
asthma, (4) assessed Broadnax as functioning at the seventieth percentile, (5) concluded Broadnax was not responding to internal stimuli, and (6) concluded there was nothing indicating Broadnax needed
immediate help or prescription medications. Testimony of Dr. Haideh
Mirmesdagh, 47 S.F. Trial at 69-117 [41-21 ECF at 26-38 of 60]. For
a more thorough summary of Dr. Mirmesdagh’s trial testimony, see
Appendix I, which also includes summaries of the trial testimony of
defense witnesses (1) Jason Varghese, a licensed psychological assessor who, like Dr. Mirmesdagh, saw Broadnax on the morning of June
23, 2008 prior to Broadnax’s interviews by television and print reporters, and (2) Kimberly Leach, the Dallas County Sheriff’s Department’s public relations officer who arranged, and handled the logistics for, the Broadnax’s interviews. In rebuttal, the prosecution presented deposition testimony from the jail employee who accompanied
Broadnax to his interviews and who testified (1) she was not concerned for her safety as she escorted Broadnax to his interviews, (2)
she asked Broadnax before each interview if he wanted to do it and
he said he did, and (3) she saw no indication Broadnax was behaving
in a psychotic manner. Testimony of Christie Hicklen, 47 S.F. Trial at
158-73 [41-21 ECF at 48-52 of 60]. For a more detailed summary of
Officer Hicklen’s trial testimony, see Appendix I.
47

108a
give his statements to the reporter.48 At the punishment
phase of trial, Broadnax presented additional expert testimony suggesting Broadnax was suffering from the effects of PCP abuse at the time he gave his interviews.49

Broadnax’s guilt-innocence phase jury charge included the following instructions:
48

You are instructed that under our law a confession of a defendant made while the defendant was in jail or other place of
confinement or in the custody of an officer shall be admissible in
evidence if it appears that the same was freely and voluntarily
made, without compulsion or persuasion. However, before a
statement made orally to law enforcement or persons acting as
agents of law enforcement may be considered voluntary, it must
be shown beyond a reasonable doubt that, prior to making such
statement, the accused was warned by the person to whom the
statement was made, or by a magistrate, that: 1) he has the right
to remain silent and not make any statement, 2) that anything
said by the defendant will be used against him at trial or in court,
3) that he has the right to terminate the questioning at any time
during the interview or questioning, and 4) that he is entitled to
the services of an attorney, his own, or, if he is unable to employ
one, a court-appointed attorney, to advise him prior to and during
any questioning or interrogation.
So, if you find from the evidence, or if you have a reasonable
doubt thereof, that at the time the defendant gave any statement
on June 23, 2008, to a reporter, Steve Pickett, Ellen Goldberg, or
Shaun Rabb, the reporter was acting as an agent of law enforcement and failed to give the defendant the above warning, you
shall disregard any such statement and not consider such statement for any purpose nor any evidence obtained as a result
thereof.
Moreover, if you find from the evidence, or you have a reasonable doubt thereof, that at the time of the defendant’s statement to the reporters on June 23, 2008, the defendant was under
the influence of PCP, marijuana, formaldehyde, or any combination thereof to such an extent as to be reduced to a condition of
mental impairment such as to render his statement not wholly

109a
2. Direct Appeal
As his twenty-seventh point of error on direct appeal,
Broadnax argued the trial court erred in admitting his televised interviews because (1) there was no evidence
Broadnax had given valid consent to waive his constitutional rights (presumably a reference to his Fifth Amendment rights) and (2) the Sixth Amendment renders inadmissible statements deliberately elicited without an express waiver of the right to counsel.50 The Texas Court of
Criminal Appeals denied the claim on the merits, pointing
out Broadnax had failed to identify any evidence in the
record showing any of the television reporters who interviewed Broadnax were agents of the State, i.e., there was
no evidence of an agreement between the reporters and
law enforcement personnel at the time of Broadnax’s interviews. Broadnax v. State, AP-76,207, 2011 WL
6225399, at *10.
3. State Habeas Corpus Proceeding
Broadnax re-urged his Fifth and Sixth Amendment
challenges to the admission of his highly incriminating

voluntary, then such statement would not be freely and voluntarily made, and in such case you will wholly disregard the statement
referred to and not consider it for any purpose nor any evidence
obtained as a result of such statement.
You are instructed that you may only consider evidence of
voluntary intoxication or testimony of witnesses Jason Varghese
or Dr. Haideh Mirmesdagh to the extent it relates to the voluntariness of the defendant’s statements to the various television
reporters that previously testified in this case.
Clerk’s Record, Volume 3 of 3, at 626-27 [38-8 ECF at 1256-57].
49

See Appendix II.

50

Appellant’s Brief at 86-92 [42-7 ECF at 113-19 of 152].

110a
and aggravating television interviews in his first and second grounds for state habeas relief.51 The state habeas
trial court concluded the claims were procedurally barred
from re-litigation in state habeas because they had already been rejected on the merits on direct appeal but
nonetheless went on to hold, alternatively, that the claims
lacked merit because (1) the reporters who interviewed
Broadnax were not acting as agents of the State, (2) the
media interviews, therefore, did not constitute a “critical
stage” of the criminal proceeding against Broadnax
(which it defined as “a proceeding between an individual
and an agent of the State”), (3) the media interviews did
not involve any State action, (4) Broadnax failed to establish by a preponderance of the evidence that his consent
to the media interviews was unknowing and involuntary,
and (5) while counsel can advise a client not to speak with
the media, the ultimate decision belongs to the client.52
The Texas Court of Criminal Appeals adopted those findings and conclusions when it denied Broadnax’s state habeas corpus application.
C. Synthesis
1. Fifth Amendment Claims
Given the evidence presented at the hearing on
Broadnax’s motion to suppress his media interview, the
state trial court’s factual finding that the reporters were
not agents of the State is unassailable. Broadnax has presented this Court with no clear and convincing evidence
establishing the contrary. A criminal defendant’s post-arrest statements to a private individual who is not acting as
State Habeas Corpus Application at 5-53 [42-1 ECF at 19-57 of
258].
51

52
State Habeas Court’s Findings & Conclusions at 3-15 [42-6 ECF
at 11600-12].

111a
an agent of the State are not rendered inadmissible
simply because the individual in question failed to
properly give the defendant Miranda warnings. See Powell v. Quarterman, 536 F.3d 325, 343-44 (5th Cir. 2008)
(holding criminal defendant’s Fifth Amendment rights
were not violated where emergency room physician who
treated defendant following arrest testified regarding
statements the defendant made to him when police
brought the defendant in for treatment). Reporter Pickett
said it best when he replied to a question during the pretrial hearing on Broadnax’s motion to suppress about his
failure to give Broadnax Miranda warnings by pointing
out the obvious—he was a reporter, not a police officer.
Testimony of Steven Antonio Pickett, 43 S.F. Trial at 71
[41-17 ECF at 73 of 134]. Broadnax’s Fifth Amendment
claim lacks arguable merit.
Broadnax’s complaint that his consent to give interviews (and confess) to the television reporters was involuntary is also without arguable merit. Due process precludes admission of a confession where a defendant’s will
is overborne by the circumstances of the interrogation.
Schneckloth v. Bustamante, 412 U.S. 218, 226 (1973). Custodial police interrogation entails inherently compelling
pressures and coercive aspects. J.D.B. v. North Carolina,
564 U.S. 261, 268-70 (2011); Dickerson v. United States,
530 U.S. 428, 435 (2000) (“police interrogation, by its very
nature, isolates and pressures the individual”); Miranda
v. Arizona, 384 U.S. at 439 (holding the coercion inherent
in custodial interrogation blurs the line between voluntary
and involuntary statements and heightens the risk that an
individual will not be accorded his privilege against selfincrimination). Absent coercive police conduct causally related to a defendant’s confession, however, there is no basis for concluding that any state actor has deprived a criminal defendant of due process of law. Colorado v. Connelly,

112a
479 U.S. 157, 164 (1986). A defendant’s mental condition,
by itself and apart from its relation to official coercion,
does not dispose of the inquiry into constitutional voluntariness. Id. There is simply no evidence in the record establishing that any state agent applied any coercive device, tactic, or maneuver to compel Broadnax to consent
against his will to be interviewed by any of the reporters
on June 23, 2008.
Broadnax’s persistent protests throughout his state
trial, appellate, and habeas corpus proceedings that he
was suffering from a psychosis so severe he was unable to
give a voluntary confession to his television interviewers
is belied by even a cursory review of the videotapes of
those very interviews (i.e., State Exhibit nos. 403-07). If a
picture is worth a thousand words, Broadnax’s videotaped
interviews were worth multiple sets of encyclopedia in
terms of permitting his jury to intelligently evaluate
Broadnax’s culpability and lack of remorse for his crimes.
In his interviews, Broadnax gave multiple, detailed, almost clinical accounts of how he approached two people he
had never met before, engaged them in casual conversation, asked for a cigarette, and, when one of the men
reached to get one, Broadnax withdraw his handgun and,
without first making a demand for money or car keys, shot
the first victim in the chest. Broadnax then described, albeit at times in crude terms, how his first victim responded to the first shot and how his second victim reacted physically when Broadnax shot him the first time.
Broadnax casually explained how he proceeded to shoot
both victims again in the head to make sure they were
dead. Broadnax also described how, after they robbed
both victims, he casually wiped the blood off his gun as
Cummings drove them away from the crime scene in

113a
Swan’s vehicle.53 There is no evidence in the record establishing that any of the reporters who interviewed
Broadnax on June 23, 2008 were acting as agents of the
State, much less that they or anyone else applied coercive
methods to induce Broadnax’s interviews on that date.
Moreover, the jury’s guilty verdict necessarily rejected, beyond a reasonable doubt, Broadnax’s contention
that he was so impaired as to be unable to give a free and
voluntary statement to the reporters. Broadnax’s own expert witness, Dr. Lane, testified that a person suffering
from a “psychosis” suffers from an inability to integrate
information and use it properly. Testimony of Dr. Frank
Lane, 50 S.F. Trial at 90 [41-24 ECF at 34 of 90]. This
Court’s review of Broadnax’s videotaped statements to
the three reporters amply demonstrates, beyond any
room for debate by jurists of reason, that on the morning
of June 23, 2008, Broadnax was fully capable of integrating the information he was given by Pickett and the other
Furthermore, Broadnax’s visible demeanor through his interviews by Pickett, Goldberg, and Rabb likewise belies any suggestion
that Broadnax was experiencing a psychotic episode, much less unable to fully comprehend what was going on in the interview room on
the morning of June 23. Broadnax was clearly alert and responsive to
the reporters’ questions, and clearly understood the ramifications of
the words read to him by Pickett from the arrest warrant affidavit,
which indicated that a member of Broadnax’s own family had turned
Broadnax and Cummings into authorities, and clearly understood
that his protests of innocence during the first portion of his interview
with Pickett held no credibility. Broadnax did not persist in protesting his innocence after he heard Pickett read the words of Broadnax’s
arrest warrant and clearly understood, in a dramatic heartbeat, that
a member of his own family had turned against him and furnished
police with highly incriminating evidence. In fact, from that point forward in his interviews, Broadnax’s words and demeanor demonstrate
that he fully understood his situation, i.e., that he would likely face a
capital sentencing proceeding at some point in his future.
53

114a
reporters and responding to same, albeit at times crudely,
in a perfectly rational and logical manner. Broadnax’s
alertness and quick change in demeanor when confronted
with evidence of his guilt during his interview by Pickett,
in particular, demonstrate the factual inaccuracy of
Broadnax’s “psychosis” and impairment contentions.
That Broadnax displayed no remorse for his criminal actions during his videotaped interviews does not, standing
alone, reveal that he was so impaired as to be unable to
give a voluntary statement. Even months after his arrest,
in his telephone conversations with family and friends,
Broadnax continued to display absolutely no remorse for
his offenses and no empathy for his victims or their families.
2. Sixth Amendment Claims
For similar reasons, Broadnax’s Sixth Amendment
claims also lack arguable merit. In view of the state trial
court’s and state appellate court’s factual finding that the
reporters who interviewed Broadnax were not acting as
agents of the State, Broadnax’s reliance on the Supreme
Court’s holding in Massiah v. United States, 377 U.S. 201
(1964), is misplaced. Massiah stands for the rule that,
when the Sixth Amendment’s right to counsel has attached, a government agent may not seek information
from a criminal defendant outside the presence of the defendant’s counsel. See Thompson v. Davis, 916 F.3d 444,
454 (5th Cir. 2019) (“To bring a Massiah claim, the claimant must establish that his Sixth Amendment right to
counsel had attached when a government agent sought information from the defendant without his counsel’s presence, and deliberately elicited incriminating statements
from the defendants.” (emphasis added)); United States
v. Bates, 850 F.3d 807, 810 (5th Cir. 2017) (holding that a
defendant asserting a Massiah claim must establish, in

115a
part, that an individual seeking incriminating statements
from the defendant was a government agent acting without the defendant’s counsel being present).
In this Circuit, the test for determining if an informant
was a government agent has two prongs: whether the informant (1) was promised, reasonably led to believe, or actually received a benefit in exchange for soliciting information from the defendant and (2) acted pursuant to instructions from the state or otherwise submitted to the
State’s control. United States v. Bates, 850 F.3d at 810;
Creel v. Johnson, 162 F.3d 385, 393 (5th Cir. 1998).
Broadnax has identified no evidence in the record from
trial or his direct appeal satisfying either of these two requirements. This Court’s independent review of the entirety of Broadnax’s pretrial and trial record likewise discloses no such evidence. The same is true for the evidentiary record from Broadnax’s state habeas corpus proceeding.
The fact that the reporters who interviewed Broadnax
had to follow procedures established by the Dallas County
Sheriff’s Department to request and obtain their interviews with Broadnax does not establish that they “submitted to the State’s control” in connection with those interviews or that they “received a benefit” in exchange for soliciting information from Broadnax, as those terms have
been utilized in the context of Massiah jurisprudence. To
hold otherwise would transform every media interview
conducted with an individual under custodial detention
into a custodial interrogation by a de facto state agent.
This Court is precluded from adopting such a new rule in
the context of this federal habeas corpus proceeding by
the principle announced in Teague. Broadnax’s complaint
that he was not appointed counsel immediately upon his
making of a request for appointment of counsel and filing

116a
an affidavit of indigence likewise does not furnish a basis
for federal habeas corpus relief.54
Broadnax also argues in his first amended federal habeas corpus
petition that the Texas Fair Defense Act is unconstitutional under the
Supreme Court’s holding in Rothgery v. Gillespie Cnty., Tex., 554
U.S. 191 (2008). ECF no. 48, at 45-49. Rothgery was arrested as a
felon in possession of a firearm based upon false information that he
had previously been convicted of a felony. He was taken promptly before a magistrate for an article 15.17 hearing. The magistrate described the facts supporting the arrest, informed Rothgery of the
charge against him, determined there was probable cause for the arrest, and set bail at $5.000. Rothgery was released after posting a
surety bond, which required him to make personal appearance in any
subsequent proceedings relative to the charge against him. Rothgery
had no money for an attorney and made several requests, both oral
and written, for appointed counsel, which went unheeded. Approximately six months later, Rothgery was indicted by a grand jury for
unlawful possession of a firearm by a felon, rearrested the next day,
and held by virtue of an order which increased his bond to $15,000.
He remained in jail for three weeks, until he was finally assigned an
attorney who promptly obtained a bail reduction (to gain Rothergy’s
release from custody) and assembled the paperwork confirming that
Rothgery had never been convicted of a felony. When Rothgery’s
counsel relayed the information to the prosecution, the district attorney’s motion to dismiss was granted. Rothgery subsequently brought
an action under 42 U.S.C. § 1983, seeking monetary damages and
claiming that if the County had provided an attorney within a reasonable time after Rothgery’s article 15.17 hearing, he would not have
been rearrested or held in jail for three weeks months later. Rothgery
attacked as unconstitutional the County’s unwritten policy of denying
appointed counsel to indigent defendants out on bond prior to entry
of an information or return of an indictment. The Supreme Court reversed the lower court decisions in favor of the County, holding Rothgery’s Sixth Amendment right to counsel attached at the time of his
Article 15.17 hearing and the County was obligated to furnish Rothgery with appointed counsel within a reasonable time once a request
for assistance was made. Rothgery, 554 U.S. at 198-205. The Supreme
Court expressly rejected the County’s proffered justification for its
policy, i.e., that the absence of a prosecutor at the Article 15.17 hearing somehow meant that formal criminal proceedings had not been
54

117a

commenced against Rothgery. Id. at 205-13. The Supreme Court emphasized the narrow nature of its holding: “a criminal defendant’s initial appearance before a judicial officer, where he learns the charge
against him and his liberty is subject to restriction, marks the start of
adversary judicial proceedings that trigger attachment of the Sixth
Amendment right to counsel.” Id. at 213. Neither the language nor
the facts in Rothgery supports the principle that a criminal defendant
has a constitutional right to the appointment of legal counsel contemporaneously with his assertion of indigence and request for legal assistance.
None of the opinions upon which the Supreme Court relied in Rothgery declared that a criminal defendant is entitled to the appointment
of counsel contemporaneously with the filing of a request for appointment of counsel. On the contrary, the Supreme Court’s opinion in
Rothgery focused on the instant at which the right to counsel attached, not the moment at which an attorney was required to be physically present with the defendant. Id. at 198: “The issue is whether
Texas’s article 15.17 hearing marks that point, with the consequent
state obligation to appoint counsel within a reasonable time once a
request for assistance is made.” (emphasis added). Nothing in Rothgery suggests that a Texas county is constitutionally obligated to furnish appointed counsel to an indigent defendant within a shorter time
period (about two working days) after the defendant is arraigned (in
this case in the early morning hours of a Saturday) than was true in
Broadnax’s case. Likewise, none of the opinions addressing Sixth
Amendment issues upon which the Supreme Court relied in Rothgery
compel the new constitutional rule urged by Broadnax, i.e., that an
indigent criminal defendant is entitled to the instantaneous appointment of counsel upon the filing of a request for legal assistance and
indigence. Furthermore, none of those earlier Supreme Court opinions addressed the situation in this case, i.e., Broadnax’s incriminating interviews were obtained by independent members of the media.
For example, in Brewer v. Williams, 430 U.S. 387 (1977), a criminal
defendant turned himself into authorities after conferring with an attorney. Williams was arrested on a charge of abduction, booked into
jail, and given Miranda warnings. Police officers agreed with Williams’s attorney to transport Williams and not to question Williams
during a lengthy car drive. Williams was then arraigned on an outstanding arrest warrant. During the subsequent car drive, however,
one of the law enforcement officers escorting him asked Williams a

118a
3. Conclusions
The Texas Court of Criminal Appeals’ rejection on direct appeal of the merits of Broadnax’s Fifth and Sixth
Amendment claims was neither contrary to, nor involved
an unreasonable application of, clearly established Federal law, as determined by the Supreme Court of the
United States, nor resulted in a decision that was based
on an unreasonable determination of the facts in light of
number of questions about where the victim’s body might be located
and informed Williams that if the victim’s body could be located it
would be possible to give her a Christian burial. Williams then led the
detectives escorting him to a gas station where he had left the victim’s
shoes, then to a rest area where he had left a blanket. Searches of
both locations proved fruitless. Williams then directed the detectives
to the location where the body was located. He was subsequently indicted and convicted of murder. The Supreme Court overturned the
conviction in a federal habeas corpus proceeding, holding the detective’s questions to Williams during their car ride violated the rule in
Massiah. Brewer v. Williams, 430 U.S. at 400-01. Likewise, the Supreme Court’s holding in Michigan v. Jackson, 475 U.S. 625 (1986), is
also distinguishable from Broadnax’s case. In that case, the Supreme
Court reaffirmed the rule that government efforts to elicit information from an accused following arraignment in the absence of the
accused’s attorney violated the Sixth Amendment. See Michigan v.
Jackson, 475 U.S. at 636 (“[I]f police initiate interrogation after a defendant’s assertion, at an arraignment or similar proceeding, of his
right to counsel, any waiver of the defendant’s right to counsel for
that police-initiated interrogation is invalid.”). These and the other
Sixth Amendment cases relied upon by the Supreme Court in Rothgery dealt with police interrogations of criminal defendants following
arrest and arraignment or its equivalent. None of those opinions recognized an unqualified constitutional right to the instantaneous appointment of counsel for an indigent criminal defendant upon the filing of an affidavit of indigence and request for legal assistance.
Teague prevents this Court from recognizing such a new rule in the
context of this federal habeas corpus proceeding. Thus, after de novo
review, Broadnax’s arguments that the Texas Fair Defense Act is unconstitutional do not furnish a basis for federal habeas corpus relief.

119a
the evidence presented in his trial and direct appeal. Likewise, given its unassailable factual finding that the reporters were not acting as state agents when they interviewed
Broadnax, the Texas Court of Criminal Appeals’ alternative rejections on the merits of Broadnax’s Fifth and Sixth
Amendment claims in the course of his state habeas corpus proceeding were neither contrary to, nor involved an
unreasonable application of, clearly established Federal
law, as determined by the Supreme Court of the United
States, nor resulted in a decision that was based on an unreasonable determination of the facts in light of the evidence presented in his state habeas corpus proceeding.
Finally, even under de novo review, Broadnax’s Fifth and
Sixth Amendment claims, including his claims that his
statements to the reporters were involuntary and that the
Texas Fair Defense Act is unconstitutional, do not warrant federal habeas corpus relief.
XI. BATSON CLAIMS
Broadnax argues his constitutional equal protection
rights were violated when the state trial court overruled
his Batson challenges to the prosecution’s use of peremptory strikes against minority members of the jury venire
and when the trial court sua sponte reinstated a single
black venire member on the jury panel instead of striking
the entire jury and beginning jury selection from scratch
with an entirely new venire.55
A. State Court Disposition of Batson Challenges at
Trial
The parties conducted general and individual voir dire
examination of the jury venire over several weeks under
the supervision of several different judges. On July 20,
55

ECF no. 48 at 50-74.

120a
2009, the parties exercised their peremptory strikes.56
Broadnax’s trial counsel made a number of Batson objections to the prosecution’s exercise of its peremptory
strikes.57 A judge other than the one who presided at trial
heard Broadnax’s trial counsel’s Batson challenges, listened to the prosecution’s explanations for its use of peremptory challenges against the venire members in question, and denied each of Broadnax’s Batson challenges.
Broadnax’s trial counsel raised a Batson objection to
the prosecution’s striking of qualified juror no. 6, S_ M_
(original juror no. 165), a black female. 38 S.F. Trial at 9
[41-12 ECF at 9 of 86]. The prosecution announced it had
elected to eliminate from the panel both (1) any members
of the jury venire who either had stated on the first page
of their juror questionnaire that they did not believe in the
death penalty (i.e., that they choose options three, four, or
five from a series of options that included (1) “I believe
that the death penalty is appropriate in all murder cases”;
(2) “I believe that the death penalty is appropriate in some
murder cases, and I could return a verdict in a proper case
which assessed the death penalty”; (3) Although I do not
believe that the death penalty ever ought to be invoked,
The verbatim transcription of the hearing held July 20, 2009 appears in 38 S.F. Trial at 6-85 [41-12 ECF at 6-85 of 86].
56

57
More specifically, Broadnax’s trial counsel objected on equal protection grounds to the prosecution’s exercise of peremptory strikes
against eight members of the jury venire: qualified juror no. 6, S_ M_
(originally juror no. 165)—a black female; qualified juror no. 9, M_ V_
(original juror no. 131)—a black female; qualified juror no. 11, A_ R_
(original juror no. 208)—an hispanic female; qualified juror no. 12, C_
R_ (original juror no. 222)—a black male; qualified juror no. 36, A_
L_ (original juror no. 868)—a black female; qualified juror no. 37, R_
P_ (original juror no. 930)—a black male; qualified juror no. 40, B_ J_
(original juror no. 139)—a black female; and qualified juror no. 41, D_
M_ (original juror no. 1062)—a black male.

121a
as long as the law provides for it, I could assess it under
the proper set of circumstances”; (4) I believe that the
death penalty is appropriate in some murder cases, but I
could never return a verdict which assessed the death
penalty”; and (5) “I could never, under any circumstances,
return a verdict which assessed the death penalty”) and
(2) any members of the jury venire who indicated during
their individual voir dire examination that they were not
in favor of the death penalty (“we have elected to strike all
jurors who are listed as a 3 or who have stated that they
are not in favor of the death penalty”). 38 S.F. Trial at 10
[41-12 ECF at 10 of 86]. The prosecution then explained
that it exercised a peremptory challenge against qualified
juror 6, S_ M_ because (1) she chose option three above
on the first page of her juror questionnaire, (2) she also
stated on the first page of her juror questionnaire that,
while she had checked “yes” in response to a question asking whether she was in favor of the death penalty, she was
“really unsure,” (3) she is a single woman with no children
who mentors young adult men without a father figure—a
situation similar to Broadnax’s background, (4) she appeared nervous and was unwilling to make eye contact
with Broadnax during her voir dire examination, and (5)
she testified during her voir dire examination that she believed she would have difficulty voting to impose the death
penalty without the assistance and support of other jurors. 38 S.F. Trial at 9-12 [41-12 ECF at 9-12 of 86].
Broadnax’s trial counsel argued these were “subjective
explanations and a pretext for racial discrimination but
the presiding judge denied the challenge. 38 S.F. Trial at
12-13 [41-12 ECF at 9598-99].
Broadnax’s trial counsel raised a Batson objection to
the prosecution’s striking of qualified juror no. 9, M_
V_(original juror no. 131), a black female. 38 S.F. Trial at
14 [41-12 ECF at 14 of 86]. The prosecution explained this

122a
venire member (1) answered on the first page of her juror
questionnaire that she was not in favor of the death penalty, (2) indicated she had been influenced by innocent
people sentenced to death, (3) had a daughter with a drug
addiction, (4) indicated on page six of her juror questionnaire that a person’s use of drugs or alcohol at the time of
an offense would automatically prevent her from assessing the death penalty if she found him guilty of capital
murder, (5) testified during her voir dire examination that
she had previously served on a jury that acquitted a DWI
defendant because he was old and needed his license, and
(6) had multiple relatives who have served time in the penitentiary. 38 S.F. Trial at 14-18 [41-12 ECF at 14-18 of 86].
Broadnax’s trial counsel once again argued these reasons
were merely pretext and suggested that many of the
members of the qualified jury venire possessed characteristics of compassion or had relatives in the penitentiary as
did this potential juror. 38 S.F. Trial at 18-19 [41-12 ECF
at 18-19 of 86]. The presiding judge denied the Batson
challenge. 38 S.F. Trial at 19 [41-12 ECF at 19 of 86].
Broadnax’s trial counsel raised a Batson challenge
when the prosecution used a peremptory strike against
qualified juror no. 11, A_ R_(original juror no. 208), an
Hispanic female. 38 S.F. Trial at 21 [41-12 ECF at 21 of
86]. The prosecution responded by explaining that this venire member (1) on page one of her juror questionnaire,
stated she was not in favor of the death penalty, (2) on
page two of her questionnaire, stated she had moral, religious, or personal beliefs that would prevent her from returning a verdict that would result in the execution of another human being, (3) on page two of her questionnaire
wrote that the best argument for the death penalty was
“in a case where you have a psycho killer” it was a solution, (4) was involved in the ministry, (5) testified during

123a
voir dire that she did not know if she could punish someone if they had not been in trouble before and wanted to
see proof of increasingly violent crimes, and (6) had a relative who was murdered by another relative. 38 S.F. Trial
at 21-24 [41-12 ECF at 21-24 of 86]. Broadnax’s trial counsel argued the foregoing reasons were pretext and did not
support a finding that this juror would necessarily be favorable to the defense but the presiding judge denied the
challenge. 38 S.F. Trial at 24-26 [41-12 ECF at 24-26 of
86].
Broadnax’s trial counsel raised a Batson challenge to
the prosecution’s peremptory strike of qualified juror no.
12, C_ R_(original juror no. 222), a black male. 38 S.F.
Trial at 26 [41-12 ECF at 26 of 86]. The prosecution then
explained that (1) this juror indicated on page one of his
juror questionnaire that he is not in favor of the death
penalty and chose option three from the list described
above, (2) on page four of his questionnaire listed himself
as a “1” on a scale of one to ten asking how strongly he
believed in the death penalty (with “1” being the lowest
score), (3) on page six of his questionnaire and during his
voir dire examination, this juror indicated that he believed
drugs and alcohol alter the mind (which the prosecution
expected to be a major defense contention at trial), (4) has
a cousin in prison for murder, (5) emphasized that he has
two good parents, and (6) has a son about the same age as
the defendant and said during voir dire that he saw his son
in this room.” 38 S.F. Trial at 26-29 [41-12 ECF at 26-29
of 86]. Broadnax’s trial counsel argued it was illogical for
the prosecution to strike a potential juror because he had
two good parents and relatives in prison but the presiding
judge denied the challenge. 38 S.F. Trial at 29-30 [41-12
ECF at 29-30 of 86].

124a
Broadnax’s trial counsel raised a Batson challenge to
the prosecution’s peremptory strike of qualified juror no.
36, A_ L_(original juror no. 868), a black female. 38 S.F.
Trial at 44 [41-12 ECF at 44 of 86]. The prosecution then
explained that this juror (1) stated on page one of her
questionnaire that she had mixed feelings about the death
penalty, (2) seemed in her questionnaire answers to want
to limit the scope of the death penalty to cases of torture
or death of a child or the elderly, (3) indicated in her questionnaire answers she was strongly in favor of life without
parole, (4) indicated on page six of her questionnaire that
she believed drugs alter a person’s ways of thinking and
acting, (5) indicated she did not believe a non-shooter
should get the same punishment as a shooter, (6) had been
placed on probation for theft by check, and (7) appeared
to have displayed a different, more receptive demeanor
during voir dire examination by Broadnax’s trial counsel.
38 S.F. Trial at 44-49 [41-12 ECF at 9630-35]. Broadnax’s
counsel argued the court should disregard the prosecution’s observations about the juror’s allegedly shifting demeanor during voir dire (in part because the voir dire examinations had not been videotaped) and suggested the
prosecution’s arguments were pretext but the presiding
judge denied the challenge. 38 S.F. Trial at 50-51 [41-12
ECF at 50-51 of 86].
Broadnax’s trial counsel raised a Batson challenge to
the prosecution’s peremptory challenge to qualified juror
no. 37, R_ P_(original juror no. 930), a black male. 38 S.F.
Trial at 51 [41-12 ECF at 51 of 86]. The prosecution explained that this potential juror (1) gave voir dire answers
to the defense’s questions indicating he does not believe
in the death penalty and placed it in the same category as
abortion, (2) had served as the foreperson of a jury that
acquitted a defendant in a murder trial, (3) had a very nar-

125a
row view of a crime of violence, believing a physical assault was not a crime of violence—seemed to insist that
the use of a weapon was required for it to be a “crime of
violence,” (4) on his own raised the issue of jury nullification during his voir dire examination in the context of a
discussion of the mitigation special issue, and (5) suggested during his voir dire examination that if a person’s
background included growing up in a crime-infested
neighborhood, with no parental supervision, and had been
involved with a gang, but had no history of criminal activity, that might furnish a basis for an affirmative answer to
the mitigation special issue. 38 S.F. Trial at 53-66 [41-12
ECF at 53-66 of 86]. Broadnax’s trial counsel argued this
juror was eminently qualified and was the best member of
the jury venire but the presiding judge denied the challenge. 39 S.F. Trial at 51-53, 66-68 [41-12 ECF at 51-53,
66-68 of 86].
Broadnax’s trial counsel raised a Batson challenge to
the prosecution’s peremptory challenge to qualified juror
no. 40, B_ J_(original juror no. 1391), a black female. 38
S.F. Trial at 69 [41-12 ECF at 69 of 86]. The prosecution
explained that this potential juror (1) stated on page one
of her juror questionnaire that she was not in favor of the
death penalty and chose option three from among the options described above, (2) on page four of her questionnaire listed herself as a “2” on a scale of one to ten in terms
of her support for the use of the death penalty, (3) indicated that she could only give the death penalty in cases
of sexual assault or rape/murder of a child, and (4) only
changed her position on that when questioned by the
court. 38 S.F. Trial at 70 [41-12 ECF at 70 of 86].
Broadnax’s trial counsel argued the prosecution’s reasons
were pretext but the presiding judge denied the challenge. 38 S.F. Trial at 70-71 [41-12 ECF at 70-71 of 86].

126a
Broadnax’s trial counsel raised a Batson challenge to
the prosecution’s peremptory challenge to qualified juror
no. 41, D_ M_(original juror no. 1062), a black male. 38
S.F. Trial at 71 [41-12 ECF at 71 of 86]. The prosecution
explained that this juror (1) indicated on page one of his
juror questionnaire that he was not in favor of the death
penalty, (2) stated during his voir dire testimony his belief
that people in prison can change, (3) on page two of his
questionnaire stated that he believed that use of drugs
was an argument against the death penalty, (4) on pages
four and six of his questionnaire gave answers that suggested he believed intoxication was clearly a mitigating
factor to a criminal offense, (5) during his voir dire examination indicated that he has a strong interest in helping
kids, (6) had a cousin who was killed as a teenager by a
police officer, and (7) believed that people change after
age eighteen. 38 S.F. Trial at 72-77 [41-12 ECF at 965863]. Broadnax’s trial counsel argued the prosecution’s
peremptory strikes reflected a continued policy of striking all black members of the jury venire from capital murder trials but the presiding judge denied the challenge. 38
S.F. Trial at 77-79 [41-12 ECF at 9663-65].
On July 27, 2009, Broadnax filed a motion asking the
trial court to either restore qualified juror no. 37, R_ P_
(original juror no. 930), to the jury or, in the alternative,
strike the entire panel and begin jury selection anew.58
The prosecution filed a brief in response.59 On July 30,
2009, the judge who presided at trial heard oral argument
on the motion and received documentary evidence.
Defendant’s Brief in Support of Batson Motion, Clerk’s Record,
Volume 3 of 3, at 542-49 [38-8 ECF at 5-12 of 256].
58

59
State’s Response to Batson Challenge, Clerk’s Record, Volume 3
of 3, at 550-58 [38-8 ECF at 13-21 of 256].

127a
At the start of that hearing, the trial judge noted that
while he recognized the juror whom Broadnax had asked
to be reinstated had served as the foreperson of a jury
that had acquitted a murder defendant and the same venire member had raised the issue of jury nullification sua
sponte but the judge nonetheless expressed concern that
the prosecution had peremptorily struck every black
member of the jury venire and invited the prosecution to
address the comparative juror analysis contained in
Broadnax’s motion. 42 S.F. Trial at 5-7 [41-16 ECF at 6 of
24].
The prosecution then argued that (1) the venire member in question had given the prosecution no concerns in
his questionnaire answers or during the prosecution’s voir
dire questioning but, during voir dire examination by the
defense, this venire member had interrupted defense
counsel to explain that he was not in favor of the death
penalty and wished to rectify any misimpression in that
regard which his questionnaire answers might have created, (2) no one else on the jury had given such an answer
during their voir dire examination, (3) this venire member
also responded to an open-ended question from defense
counsel regarding mitigating evidence sufficient to justify
a life sentence by reciting a laundry list of factors which
appeared to dovetail with the defense’s trial strategy for
Broadnax’s trial, (4) this venire member raised the issue
of jury nullification on his own during questioning from
defense counsel, and (5) this venire member had served as
the foreperson of a jury that acquitted a murder defendant. 42 S.F. Trial at 7-16 [41-16 ECF at 6-8 of 24].
Broadnax’s trial counsel then argued (1) because voir
dire examination had not been videotaped, the prosecution could not rely on the demeanor of venire members to
justify a peremptory strike, (2) another member of the

128a
jury whom the prosecution did not strike [qualified juror
no. 10, A_ F_ (original juror no. 227)] had served on a jury
that acquitted a criminal defendant, (3) the venire member in question raised the issue of jury nullification when
questioned about special issue no. 3, which defense counsel had explained was added to the Texas capital sentencing scheme in response to Supreme Court’s rulings, (4) on
page one of his juror questionnaire, the venire member in
question clearly answered that he was in favor of the
death penalty and could follow the law, (5) another member of the jury whom the prosecution did not strike [qualified juror no. 15, K_ M_ (original juror no. 272)] had given
answers similar to the venire member in question indicating personal reservations about the death penalty but a
willingness to follow the law, (6) six other members of the
jury venire who expressed reservations about the death
penalty were not stricken by the prosecution, and (7)
based on a comparative analysis, the defense believed the
prosecution’s striking of the venire member in question
was racially motivated. 42 S.F. Trial at 19-28 [41-16 ECF
at 9-11 of 24].
The prosecution responded with arguments that (1)
the venire member in question had been the foreperson of
a jury that acquitted a murder defendant not merely a
member of a jury that acquitted in a DWI case, (2) contrary to his questionnaire answers, the venire member in
question volunteered during voir dire examination that
was not in favor of the death penalty and did so in unmistakable terms, (3) the female venire member identified by
the defense as having vacillated in terms of her feelings
about the death penalty had given a very pro-prosecution
response to a question about mitigating evidence. 42 S.F.
Trial at 28-32 [41-16 ECF at 11-12 of 24].

129a
The trial judge then declared that he could not conclude the prosecution had subjectively presented pretextual reasons for striking the venire member in question but explained he was going to restore the venire
member to the jury nonetheless. 42 S.F. Trial at 33-35 [4116 ECF at 13 of 24]. The ensuing problem of excess jurors
became moot several days later when another member of
the jury was excused for medical reasons. 45 S.F. Trial at
19-22 [41-19 ECF at 15 of 84].
Without making any specific factual findings regarding the prosecution’s intent to discriminate on the basis of
race, the trial judge concluded that restoring the venire
member in question to the jury was the proper course.60
More specifically, the trial judge declared as follows:
The problem in this case is, again, as I have said,
one could conclude if I grant a Batson challenge that
Mr. Alex’s reasons for challenge were contextual [sic],
that being false. That’s—If I was [sic] a subjective
finder of the intent of Mr. Alex of his team, I would not
conclude that. But I’m not in the business of ming [sic]
subjective decisions, so I have to look at the criteria
that’s set out in the Miller-El case and the logic contained in Greer. It states the factors that are to be applied, it doesn’t state which one weighs more than the
other or anything of that sort.
I’m going to grant the Batson challenge and I’m
going to do so because of the fact that there are no African-Americans jurors on this jury and there was a
60
The transcription from the July 30 hearing on Broadnax’s Batson
motion appears at 42 S.F. Trial at 5-36 [41-16 ECF at 6-13 of 24]. For
unknown reasons, throughout this part of the trial transcript, the
word “making” appears as “ming,” the word “taken” appears as “ten,”
and the word “take” appears as “te.”

130a
disproportionate number of African-Americans who
were struck. This is not to be considered in any way as
some sort of negative context on any lawyers in this
case. It’s because I simply have to look at the factors
that are contained in the Miller-El and I made my decision based on that.61
B. State Court Disposition on Direct Appeal
In his first seven points of error on direct appeal,
Broadnax argued the trial court erred in denying his Batson challenges to the six other black venire members and
one hispanic venire member peremptorily struck by the
prosecution.62 The Texas Court of Criminal Appeals overruled all seven points of error on the merits. Broadnax v.
State, AP-76,207, 2011 WL 6225399, at *2-*4.
C. Clearly Established Federal Law
In Batson v. Kentucky, 476 U.S. 79 (1986), the United
States Supreme Court extended the equal protection
principle barring the purposeful exclusion of Blacks from
criminal jury service to the prosecution’s use of peremptory challenges during petit jury selection. See Batson v.
Kentucky, 476 U.S. at 89 (“the Equal Protection Clause
forbids the prosecutor to challenge potential jurors solely
on account of their race or on the assumption that black
jurors as a group will be unable impartially to consider the
State's case against a black defendant.”). Batson provides
a three-step process for a trial court to use in adjudicating
a claim that a peremptory challenge was based on race:
first, the defendant must make out a prima facie case of
discriminatory jury selection by the totality of the relevant facts concerning a prosecutor’s conduct during the
61

42 S.F. Trial at 34-35 [41-16 ECF at 13 of 24].

62

Appellant’s Brief at 24-42 [42-7 ECF at 51-69 of 152].

131a
defendant’s own trial; second, once the defendant makes
the prima facie showing, the burden shifts to the State to
come forward with a race-neutral explanation for challenging jurors within the arguably targeted class; finally,
the trial court must determine if the defendant established purposeful discrimination by the prosecution. Foster v. Chatman, 136 S. Ct. 1737, 1747 (2016); Snyder v.
Louisiana, 552 U. S. 472, 476-77 (2008); Miller-El v.
Dretke, 545 U. S. 231, 239 (2005); Batson v. Kentucky, 476
U. S. at 94-98.63

Broadnax has recently filed a pleading calling this Court’s attention to the Supreme Court’s opinion in Flowers v. Mississippi, 139 S.
Ct. 2228 (2019). ECF no. 72. Broadnax argues in that pleading that
the Supreme Court’s decision in Flowers controls the disposition of
his own Batson claims. For several reasons, this is not the case. First,
Flowers was an appeal from the Supreme Court of Mississippi and
not a federal habeas corpus proceeding governed by AEDPA principles. Thus, Flowers does not represent “clearly established” federal
law for purposes of this Court’s AEDPA review of the Texas Court of
Criminal Appeals’ 2011 opinion on direct appeal rejecting Broadnax’s
Batson claims. Second, many of the factual arguments contained in
Broadnax’s latest pleading are inaccurate. Specifically, the reasons
stated on the record during Broadnax’s jury selection by the prosecution for its peremptory strikes are set forth in detail in this opinion—along with record citations. Broadnax’s counsels’ efforts in his
latest pleading to misrepresent the reasons stated by the prosecution
for its strikes of particular members of the jury venire come perilously close to a violation of Rule 11 and will not be countenanced in
the future. This Court’s AEDPA review of Broadnax’s Batson claims
must necessarily focus on the actual reasons the prosecution gave on
the record for its use of peremptory challenges, not the reasons asserted by his federal habeas counsel which find no support in the record. Third, Flowers is not the landmark shift in Supreme Court jurisprudence suggested by Broadnax. It is, instead, a straight-forward
application of the same principles that have guided the Supreme
Court’s Batson jurisprudence for several decades. Finally, unlike the
situation in Flowers, Broadnax does not identify a series of prior trials
in which Dallas County prosecutors were found by state appellate
63

132a
D. Synthesis
A trial judge’s findings in connection with a Batson
challenge turn primarily upon an evaluation of the prosecutor’s credibility and are entitled to deference. Davis v.
Ayala, 135 S. Ct. 2187, 2199 (2015) (“The opponent of the
strike bears the burden of persuasion regarding racial
motivation and a trial court finding regarding the credibility of an attorney’s explanation of the ground for a peremptory challenge is entitled to ‘great deference.’”);
Felker v. Jackson, 562 U.S. 594, 598 (2011) (holding the
same); Batson v. Kentucky, 476 U.S. at 98 n.21 (holding
the same). Under the AEDPA, even more deference must
be shown. Davis v. Ayala, 135 S. Ct. at 2199-2200.64
courts to have violated the principles of Batson in order to secure
Broadnax’s conviction on the same charge for which he was convicted
in 2009.
Broadnax also argues the trial court improperly relied upon the
prosecution’s references to the demeanor of venire members during
voir dire examination in rejecting Broadnax’s Batson challenges.
Broadnax argues that the trial judges who ultimately ruled on his
Batson challenges on July 20 and July 30, 2009 did not personally supervise the entirety of the voir dire examination and, therefore, could
not make credibility determinations regarding the accuracy of the
prosecution’s descriptions of the venire members’ demeanor. There
is no clearly established federal law requiring that a judge have personally observed a venire member’s demeanor during voir dire in order to make credibility findings on that subject. See Thaler v. Haynes,
559 U.S. 43, 48 (2010) (“[W]here the explanation for a peremptory
challenge is based on a prospective juror’s demeanor, the judge
should take into account, among other things, any observations of the
juror that the judge was able to make during voir dire. But Batson
plainly did not go further and hold that a demeanor-based explanation
must be rejected if the judge did not observe or cannot recall the juror’s demeanor.”). Out of an abundance of caution, however, this
Court has undertaken to review the efficacy of the prosecution’s proffered rationale for each of its peremptory strikes in question by focusing on only the reasons given that can be objectively verified
64

133a
Having independently examined the voir dire testimony and juror questionnaire answers given by each of
these venire members, this Court finds the questionnaire
answers and voir dire testimony given by these seven venire members fully supported the race-neutral reasons
given by the prosecution for peremptorily striking each of
them. The prosecution stated on the record at both of the
Batson hearings held in Broadnax’s case that it had determined to peremptorily strike any venire member who indicated in their juror questionnaire answers or their voir
dire testimony that they were not in favor of the death
penalty.
There were two questions on the first page of the juror
questionnaire relevant to this issue. The first asked
simply “Are you in favor of the death penalty?” Five of the
venire members whom the prosecution peremptorily
struck and for whom Broadnax’s trial counsel made Batson challenges checked “No” in response to that question:

through review of the relevant juror questionnaires and voir dire examination. Thus, Broadnax’s complaint that the state trial court did
not make any express credibility findings based upon the demeanor
of a particular venire member is moot.

134a
qualified juror no. 9, M_ V_ (original juror no. 131)65; qualified juror no. 11, A_ R_ (original juror no. 208)66; qualified

Qualified juror no. 9, M_ V_ (original juror no. 131) stated on page
one of her juror questionnaire that she was not in favor of the death
penalty. [61-1 ECF at 159 of 291]. She also hand-wrote “I believe in
2nd chances. Too many has [sic] died innocent I believe I have to think
of my love [sic] ones.” Id. In explaining the reasons for the prosecution’s use of a peremptory strike against this venire member, the
prosecutor not only pointed out the venire member’s questionnaire
answer but also accurately pointed out that, during her voir dire examination, this same venire member testified that she had previously
served on a jury that acquitted a DWI defendant because he was old
and she believed he needed his license and she believed she had
played a pivotal role in convincing her fellow jurors to acquit. Voir
Dire Examination of M_ V_, 11 S.F. Trial at 144 [39-10 ECF at 145 of
185].
65

Qualified juror no. 11, A_ R_ (original juror no. 208) stated on
page one of her juror questionnaire that she was not in favor of the
death penalty and on page two stated that she had “moral, religious
or personal beliefs that would prevent her from returning a verdict
which would result in the execution of another human being.” [61-1
ECF at 197-98 of 291]. She also handwrote on page two “taking a life
for a life is not what I believe is the solution to the problem. Life sentence maybe.” [61-1 ECF at 198 of 291] The prosecution called those
answers to the trial court’s attention, as well as pointed out this venire
member was studying for the ministry and expressed strong personal
views which could interfere with her ability to render a pro-prosecution verdict at the punishment phase of a capital murder trial, both
points amply demonstrated in her voir dire examination. Voir Dire
examination of A_ R_, 13 S.F. Trial at 176-89 [39-11 ECF at 176-89 of
310].
66

135a
juror no. 12, C_ R_ (original juror no. 222)67; qualified juror no. 40, B_ J_ (original juror no. 1391)68; and qualified
juror no. 41, D_ M_ (original juror no. 1062).69
Qualified juror no. 12, C_ R_ (original juror no. 222) stated on
page one of his juror questionnaire that he was not in favor of the
death penalty, hand wrote “There have been too many people convicted of a crime, that we later, found were innocent,” and chose option three in response to a question asking him about his feelings on
the death penalty: “Although I do not believe that the death penalty
ever ought to be invoked, as long as the law provides for it, I could
assess it under the proper set of circumstances.” [61-1 ECF at 216 of
291]. On page four of his questionnaire, the same venire member
listed himself as a “1”—the lowest point—on a scale asking for his
belief in the death penalty. [61-1 ECF at 219 of 291]. The prosecution
pointed out these answers, as well as accurately pointed out the fact
this same venire member had stated during voir dire examination
that he had a son about the same age as the defendant and that he felt
his son was in the courtroom. Voir Dire Examination of C_ R_, 13 S.F.
Trial at 249 [39-11 ECF at 249 of 310] (“You know, my son is a black
boy, and I see him in this room.”).
67

Qualified juror no. 40, B_ J_ (original juror no. 1391) stated on
page one of her juror questionnaire that she was not in favor of the
death penalty, hand wrote “I believe in life in prison without any
chance of parole,” and also chose option three in response to the next
question on the same page. [61-3 ECF at 179 of 349]. On page four of
her questionnaire she rated herself a “2” on the one-to-ten scale of
belief in the death penalty, the next-to-lowest point on the scale. [613 ECF at 182 of 349]. The prosecution accurately pointed out the foregoing answers as well as pointing out that, during her voir dire examination, this venire member not only reaffirmed her personal belief in
the efficacy of life without parole as a more severe sentence than a
sentence of death but also indicated she could not impose the death
penalty except in the case of a sexual assault and murder of a child
and seemed to change her mind on those subjects only when questioned by the trial court directly. Voir Dire Examination of B_ J_, 34
S.F. Trial at 23-26, 47-50, 73-75 [41-8 ECF at 23-26, 47-50, 73-75 of
259].
68

Qualified juror no. 41, D_ M_ (original juror no. 1062) stated on
page one of his questionnaire that he was not in favor of the death
69

136a
A second question on page one of the juror questionnaire asked the venire members to self-identify from a list
of five pre-printed options their views of the death penalty. Option three stated “Although I do not believe that
the death penalty ever ought to be invoked, as long as the
law provides for it, I could assess it under the proper set
of circumstances.” Two of the relevant venire members
chose this option: Qualified juror no. 12, C_ R_ (original
juror no. 222)70 and qualified juror no. 6, S_ M_ (original
juror no. 165).71 Finally, qualified juror no. 36, A_ L_ (original juror no. 868) gave a number of questionnaire answers the prosecution identified as both problematic and
penalty and stated on pages two, four, and six that he believed intoxication at the time of a criminal offense was mitigating in nature. [613 ECF at 198-99, 201, 203 of 349]. The prosecution pointed out those
answers, as well as accurately reminded the judge that this venire
member had testified he had a cousin about Broadnax’s age who was
recently killed by a police officer and repeatedly stated during his voir
dire examination that he believed people in prison could change. Voir
Dire Examination of D_ M_, 34 S.F. Trial at 93-104, 118-20, 154-55
[41-8 ECF at 93-104, 118-20, 154-55 of 259].
70

61-1 ECF at 216 of 291.

Qualified juror no. 6, S_ M_ (original juror no. 165) chose option
three in response to the second question asking about her feelings on
the death penalty, thus indicating that she was not in favor of the
death penalty. [61-1 ECF at 102 of 291]. While this venire member
had checked “Yes” in answer to the previous question asking whether
she was in favor of the death penalty, she hand wrote “I check yes,
but really I’m unsure. It depends on situation I guess.” Id. During her
voir dire examination, this venire member (1) admitted she was nervous and was uncomfortable being in the same room as someone she
was being asked to judge (Voir Dire Examination of S_ M_, 10 S.F.
Trial at 18-20 [39-9 ECF at 9 of 66]) and (2) admitted she would have
difficulty voting in favor of the death penalty without the support of
other jurors (Id., 10 S.F. Trial at 23-25 [39-9 ECF at 10-11 of 66]). The
prosecution pointed out the foregoing answers as justifications for its
use of a peremptory strike against this venire member.
71

137a
justifying its race-neutral peremptory strike against
her.72
While none of the respective venire members’ questionnaire answers or voir dire testimony in question may
have risen to the level of a basis for a challenge for cause,
they all constituted racially neutral, objectively verifiable,
record-based, reasons for a prosecutorial peremptory
strike. The state trial court’s rejections of Broadnax’s
On page one of her juror questionnaire this venire member
checked “Yes” in response to the first question asking whether she
was in favor of the death penalty but then hand wrote “I have mixed
feelings about the death penalty, but I lean more toward yes. I feel
that their [sic] are certain crimes that are so cold hearted could be a
situation where the death penalty is a [sic] accurate punishment.” [613 ECF at 103 of 349]. On page 2 of her questionnaire, she wrote in
response to a question asking for the “best argument for the death
penalty” as follows: “When you brutally kill, and torture someone and
have no regard for human life.” [61-3 ECF at 104 of 349]. On page 4
of her questionnaire in response to a question asking for what crimes
she thought the death penalty should be available, she wrote: “When
you murder and [sic] helpless child or elderly person some on [sic]
that cannot defend themselves.” [61-3 ECF at 106 of 349]. On page 5
of her questionnaire, she circled the option indicating she was
“strongly in favor” of life without parole and, when asked to explain
her answer, hand wrote as follows: “I believe you have to [sic] time to
think about what you did and deal with it, and the death penalty is a
quick fix. I think it is a greater punishment in life w/ parole.” [61-3
ECF at 107 of 349]. When asked on the same page what purposes she
believed life without parole serves, she wrote by hand: “Make you suffer and deal with the crime.” Id. On page six of her questionnaire she
checked a box indicating a person’s use or drugs or alcohol at the time
of the offense would automatically prevent her from assessing the
death penalty and hand-wrote “I believe drugs alter a person [sic]
way of thinking and acting.” [61-3 ECF at 108 of 349]. The prosecution
called these answers to the trial judge’s attention as justifications for
its peremptory strike, as well as accurately pointed out this venire
member had self-reported that she received deferred adjudication in
1999 in a bad check case. [61-3 ECF at 110 of 349].
72

138a
Batson challenges to the prosecution’s peremptory
strikes of these seven venire members were fully supported by the evidence before that court. Broadnax has
failed to present this Court with clear and convincing evidence showing the state trial court’s implicit credibility
findings (regarding the prosecution’s race-neutral reasons for its peremptory strikes against these venire members) were erroneous.73 The Texas Court of Criminal Appeals’ subsequent rejection on the merits of Broadnax’s
For the first time, Broadnax has presented this Court with a document allegedly prepared by the Dallas County District Attorney’s
Office in advance of the exercise of peremptory challenges showing
the race and gender of all members of the qualified jury venire and
highlighting the remaining black members of the jury venire.
Broadnax argues this document constitutes evidence of racial animus
on the part of the prosecution. There are multiple problems with
Broadnax’s argument. First, as correctly pointed out by Respondent,
the Supreme Court’s clear holding in Cullen v. Pinholster, 563 U.S.
170, 185 (2011) (“If a claim has been adjudicated on the merits by a
state court, a federal habeas petitioner must overcome the limitation
of § 2254(d)(1) on the record that was before that state court.”) bars
this Court from considering new evidence that was not properly before the Texas Court of Criminal Appeals when it rejected Broadnax’s
Batson claims on direct appeal. “Similarly, § 2254(d)(2) expressly limits review to the state court record.” Halprin v. Davis, 911 F.3d 247,
255 (5th Cir. 2018). Under AEDPA, Broadnax’s new documents are
not properly before this Court in this habeas corpus proceeding.
73

Second, and in this case even more significantly, the documentation
now presented by Broadnax does nothing more than indicate that the
Dallas County District Attorney’s Office made a point of memorializing the ethnicity and gender of the remaining members of the jury
venire prior to the exercise of its peremptory challenges. Having
twice been criticized by the United States Supreme Court for its exercise of racially discriminatory peremptory strikes in Miller-El v.
Dretke, 545 U.S. 231 (2005), and Miller-El v. Cockrell, 537 U.S. 322
(2003), it would have been professionally irresponsible for the Dallas
County District Attorney’s Office (in 2009) to have failed to identify
the members of the remaining jury venire who were members of a
protected class and against whom it might have been preparing to

139a

exercise a peremptory challenge. Such an endeavor would necessarily
have first required the prosecution to identify all remaining members
of the jury venire who were members of a protected class. No sinister
motive can be inferred rationally simply because the prosecution
noted the race and gender of every remaining member of the jury
venire or highlighted those for whom that office would need to be prepared to offer sound, race-neutral, reasons in the event the prosecution chose to exercise a peremptory strike against such an individual
and the defense raised a Batson objection.
Finally, Broadnax also argues the prosecution failed to exercise
peremptory strikes against several white venire members who gave
at least some answers on their juror questionnaires that were similar
to the questionnaire answers given by minority venire members
against whom the prosecution did exercise peremptory strikes. Given
the extensive length and detail in the juror questionnaires, any similarity between some answers given by venire members against whom
the prosecution exercised peremptory strikes and the answers of venire members against whom the prosecution did not exercise peremptory strikes is hardly surprising—or conclusive of anything. More
specifically, at various points in his amended petition, Broadnax identifies (1) qualified juror no. 1, J_ W_ (original juror no. 6), whose juror
questionnaire appears at 61-1 ECF at 7-24 of 291 and whose voir dire
examination appears at 7 S.F. Trial at 9-92 [39-6 ECF at 10-92 of 215];
(2) qualified juror no. 7, E_ C_ (original juror no. 134), whose juror
questionnaire appears at 61-1 ECF at 121-38 of 291 and whose voir
dire examination appears at 10 S.F. Trial at 84-161 [39-9 ECF at 2545 of 66]; (3) qualified juror no. 10, A_ F_ (original juror no. 227),
whose juror questionnaire appears at 61-1 ECF at 178-95 of 291 and
whose voir dire examination appears at 13 S.F. Trial at 66-150 [39-11
ECF at 66-150 of 310]; (4) qualified juror no. 15, K_ M_ (original juror
no. 272), whose juror questionnaire appears at 61-1 ECF at 273-90 of
291 and whose voir dire examination appears as 14 S.F. Trial at 195280 [39-13 ECF at 195-280 of 300]; (5) qualified juror no. 25, K_ M_
(original juror no. 626), whose juror questionnaire appears at 61-2
ECF at 178-95 of 293 and whose voir dire examination appears at 22
S.F. Trial at 147-235 [39-21 ECF at 40-60 of 61]; (6) qualified juror no.
33, W_ S_ (original juror no. 684), whose juror questionnaire appears
at 61-3 ECF at 46-63 of 349 and whose voir dire examination appears
at 27 S.F. Trial at 96-175 [41-1 ECF at 96-175 of 176]; (7) qualified
juror no. 38, W_ K_ (original juror no. 874), whose juror questionnaire

140a
Batson claims on direct appeal was neither contrary to,
nor involved an unreasonable application of, clearly established Federal law, as determined by the Supreme Court
of the United States, nor resulted in a decision that was
based on an unreasonable determination of the facts in
light of the evidence presented in his trial and direct appeal. Broadnax’s Batson claims do not warrant federal habeas corpus relief.
E. Failure to Strike the Entire Jury Venire After
Granting One Batson Challenge
Broadnax also argues the state trial court should have
dismissed the entire jury panel after granting Broadnax’s
motion to reinstate qualified juror no. 37, R_ P_ (original
juror no. 930) and begun jury selection anew.74 The Texas
Court of Criminal Appeals rejected this argument on direct appeal, concluding the state trial court erroneously
granted the Batson challenge involving this venire member, finding the trial court’s stated justification for reinstating this juror did not amount to a finding of racial animus in connection with the peremptory striking of this
potential juror. Broadnax v. State, AP-76,207, 2011 WL
appears at 61-3 ECF at 141-58 of 349 and whose voir dire examination
appears at 32 S.F. Trial at 5-81 [41-6 ECF at 5-81 of 96]; (8) qualified
juror no. 44, E_ B_ (original juror no. 1313), whose juror questionnaire appears at 61-3 ECF at 255-72 of 349 and whose voir dire examination appears at 35 S.F. Trial at 120-91 [41-9 ECF at 34-52 of 57].
Unlike the venire members against whom the prosecution exercised
peremptory strikes, however, none of these venire members gave any
questionnaire or voir dire answers indicating they were opposed to
the death penalty or that they believed a term of life imprisonment
without the possibility of parole was a significantly more harsh sentence than a sentence of death. For equal protection purposes, none
of these venire members were similarly situated with the venire members against whom the prosecution exercised challenged strikes.
74

48 ECF at 70-74.

141a
6225399, at *4 (holding that even if there was a valid finding of a racially-motivated strike against this potential juror, that finding would not automatically establish all
other peremptory strikes were racially motivated).
While Broadnax cites to authorities from other state
jurisdictions holding that reinstatement of an improperly
stricken venire member is not an adequate remedy for a
Batson violation, he cites no clearly established Supreme
Court legal authority holding that dismissal of an entire
jury panel is required whenever a trial court determines
there has been a single Batson violation. This Court’s independent research has likewise revealed no such clearly
established Supreme Court authority. The Texas Court of
Criminal Appeals’ rejection on the merits of this additional Batson claim on direct appeal was neither contrary
to, nor involved an unreasonable application of, clearly established Federal law, as determined by the Supreme
Court of the United States, nor resulted in a decision that
was based on an unreasonable determination of the facts
in light of the evidence presented in Broadnax’s trial and
direct appeal. Furthermore, Respondent correctly argues
that the new rule advocated by Broadnax in this federal
habeas corpus proceeding is foreclosed by the nonretroactivity doctrine of Teague.
XII. INEFFECTIVE ASSISTANCE BY TRIAL
COUNSEL
A. Overview of the Complaints
Scattered throughout his first amended federal habeas corpus petition, Broadnax raises a host of conclusory
complaints about the performance of his state trial counsel. More specifically, he complains that his trial counsel
(1) failed to call Dr. Roache to testify at the guilt-innocence phase of Broadnax’s trial regarding Broadnax’s lack

142a
of capacity to consent to his media interviews,75 (2) failed
to properly object to the prosecution’s use of peremptory
strikes against minority members of the jury venire,76 (3)
failed to rebut the trial testimony of Dr. Price regarding
the traits of a psychopathic personality,77 and (4) failed to
cross-examine Officer Nelson regarding evidence of
Broadnax’s gang membership and the characteristics of
the Gangster Disciples.78
B. State Court Disposition
In his state habeas corpus application, Broadnax presented complaints that his trial counsel rendered ineffective assistance by (1) failing to investigate and present the
facts surrounding the appointment of Broadnax’s lead
trial counsel and Broadnax’s media interviews, (2) failing
to (a) object to testimony by, and cross-examine, the prosecution’s gang expert (Officer Nelson) and (b) call a rebuttal expert, (3) opening the door to the admission of testimony regarding Antisocial Personality Disorder
(“ASPD”) by calling Dr. Lane to testify, and (4) failing to
cross-examine Dr. Price.79 The state habeas trial court
made extensive findings of fact and conclusions of law and
recommended the Texas Court of Criminal Appeals reject
all of Broadnax’s ineffective assistance claims.80 The
75

48 ECF at 33-55.

76

48 ECF at 84-90.

77

48 ECF at 109-12.

78

48 ECF at 124-27.

79
Broadnax’s State Habeas Corpus Application, at 54-60, 68-75, 8690 [42-1 ECF at 58-64, 82-88, 100-04 of 258].

The state habeas trial court (1) found Broadnax’s trial counsel
made a sound and reasonable strategic decision regarding which legal
arguments to raise and pursue in challenging the admissibility of the
media interviews, State Habeas Court’s Findings & Conclusions at 12
80

143a

[42-6 ECF at 50 of 163], (2) found Broadnax’s trial counsel did object
to the admission of the media interviews on Fifth and Sixth Amendment grounds but did not challenge the constitutionality of the Texas
Fair Defense Act because their position was that the Sheriff’s Department was active in facilitating the interviews, Id., at 13 [42-6 ECF at
51 of 163], (3) found Broadnax had failed to rebut the presumption
that his trial counsels’ decisions regarding the challenges to raise
against the admission of the media interviews constituted reasonable
trial strategy, Id. at 14 [42-6 ECF at 52 of 163], (4) concluded the efforts of Broadnax’s trial counsel to exclude the media interviews did
not fall below an objective standard of reasonableness, Id., (5) concluded there was no reasonable probability that, had his trial counsel
raised additional constitutional challenges to the media interviews,
the result of Broadnax’s trial would have been different, Id. at 15 [426 ECF at 53 of 163], (6) found Officer Nelson’s testimony was true
and accurate, not false or misleading, Id. at 22 [42-6 ECF at 60 of 163],
(7) found Broadnax’s trial counsel made a strategic decision not to call
its own gang expert because (a) there was no evidence Broadnax’s
gang membership was related to the murder, (b) Broadnax had selfadmitted to gang membership, and (c) it would be difficult to present
a credible case that Broadnax’s use of gang symbols was meaningless,
Id. at 24 [42-6 ECF at 62 of 163], (8) found it would have been futile
to object to Officer Nelson’s testimony under Chapter 61 of the Texas
Code of Criminal Procedure, Id. at 25 [42-6 ECF at 63 of 163], (9)
concluded Broadnax’s complaints about Officer Nelson’s testimony
(a) failed overcome the presumption that counsels’ actions constituted
reasonable trial strategy and (b) failed to show Broadnax was prejudiced by any alleged deficiency in his trial counsel’s conduct vis-a-vis
Officer Nelson’s testimony, Id., (10) found Broadnax failed to establish that Dr. Price’s trial testimony was false, misleading, or perjured,
Id. at 30 [42-6 ECF at 68 of 163], (11) found Broadnax’s trial counsel
effectively cross-examined Dr. Price, eliciting testimony that (a) psychopathy is not listed in the DSM-IV, (b) the closest thing to psychopathy in the DSM-IV is a personality disorder, (c) people who have the
traits of psychopathy may not be a psychopath, and (d) some of the
traits of a psychopath are consistent with those of an immature person, Id. at 31 [42-6 ECF at 69 of 163], (12) found Broadnax’s trial counsel did object to the admission of Dr. Price’s testimony, Id., (13) found
Broadnax’s trial counsel argued it was not possible for the jury to determine if Broadnax were a psychopath because it lacked relevant
historical information, Id., (14) found Broadnax’s defense team chose

144a
Texas Court of Criminal Appeals adopted the foregoing
findings and conclusions when it denied Broadnax’s state
habeas corpus application on the merits.
C. Clearly Established Federal Law
The constitutional standard for determining whether
a criminal defendant has been denied the effective assistance of trial counsel, as guaranteed by the Sixth Amendment, was announced by the Supreme Court in Strickland
v. Washington, 466 U.S. 668, 687 (1984):
A convicted defendant’s claim that counsel’s assistance was so defective as to require reversal of a conviction or death sentence has two components. First,
the defendant must show that counsel’s performance
was deficient. This requires showing that counsel
made errors so serious that counsel was not functioning as the “counsel” guaranteed the defendant by the
Sixth Amendment. Second, the defendant must show
that the deficient performance prejudiced the defense.
This requires showing that counsel’s errors were so
serious as to deprive the defendant of a fair trial, a trial
whose result is reliable.

not to call its own mental health experts to rebut Dr. Price because
(a) calling another expert might have opened the door to cross-examination which suggested Broadnax was a psychopath and (b) neither
Dr. Price nor any other person who testified at trial stated that
Broadnax definitely was a psychopath, Id. at 32 [42-6 ECF at 70 of
163], and (15) concluded (a) Broadnax’s complaints about his trial
counsel’s failure to call another mental health expert failed to overcome the presumption that his trial counsel exercised reasonable trial
strategy and (b) there was no reasonable probability that, but for the
alleged deficiency in his trial counsel’s conduct vis-a-vis the testimony
of Dr. Lane and Dr. Price the result of Broadnax’s trial would have
been different, Id.

145a
To satisfy the first prong of Strickland, i.e., establish
that his counsel’s performance was constitutionally deficient, a convicted defendant must show that counsel’s representation “fell below an objective standard of reasonableness.” Wiggins v. Smith, 539 U.S. 510, 521 (2003); Williams v. Taylor, 529 U.S. 362, 390-91 (2000). In so doing,
a convicted defendant must carry the burden of proof and
overcome a strong presumption that the conduct of his
trial counsel falls within a wide range of reasonable professional assistance. Strickland v. Washington, 466 U.S.
at 687-91. Courts are extremely deferential in scrutinizing
the performance of counsel and make every effort to eliminate the distorting effects of hindsight. See Wiggins v.
Smith, 539 U.S. at 523 (holding the proper analysis under
the first prong of Strickland is an objective review of the
reasonableness of counsel’s performance under prevailing
professional norms, which includes a context-dependent
consideration of the challenged conduct as seen from the
perspective of said counsel at the time). “No particular set
of detailed rules for counsel’s conduct can satisfactorily
take account of the variety of circumstances faced by defense counsel or the range of legitimate decisions regarding how best to represent a criminal defendant.” Bobby v.
Van Hook, 558 U.S. 4, 7 (2009); Strickland v. Washington,
466 U.S. at 688-89. Under the well-settled Strickland
standard, the Supreme Court recognizes a strong presumption that counsel rendered adequate assistance and
made all significant decisions in the exercise of reasonable
professional judgment. Bell v. Cone, 535 U.S. 685, 698
(2002); Strickland v. Washington, 466 U.S. at 690.
To satisfy the “prejudice” prong, a convicted defendant must establish a reasonable probability that, but for
the objectively unreasonable misconduct of his counsel,
the result of the proceeding would have been different.

146a
Wiggins v. Smith, 539 U.S. at 534; Strickland v. Washington, 466 U.S. at 694. A reasonable probability is a probability sufficient to undermine confidence in the outcome of
the proceeding. Strickland v. Washington, 466 U.S. at
694.
In those instances in which the state courts failed to
adjudicate either prong of the Strickland test (such as
those complaints the state courts summarily dismissed
under the Texas writ-abuse statute or which the petitioner failed to fairly present to the state courts), this
Court’s review of the un-adjudicated prong is de novo. See
Porter v. McCollum, 558 U.S. 30, 39 (2009) (holding de
novo review of the allegedly deficient performance of petitioner’s trial counsel was necessary because the state
courts had failed to address this prong of Strickland analysis); Rompilla v. Beard, 545 U. S. 374, 390 (2005) (holding
de novo review of the prejudice prong of Strickland required where the state courts rested their rejection of an
ineffective assistance claim on the deficient performance
prong and never addressed the issue of prejudice); Wiggins v. Smith, 539 U.S. at 534 (holding the same).
Under AEDPA’s deferential standard of review,
claims of ineffective assistance adjudicated on the merits
by a state court are entitled to a doubly deferential form
of federal habeas review. AEDPA, by setting forth necessary predicates before state-court judgments may be set
aside, “erects a formidable barrier to federal habeas relief
for prisoners whose claims have been adjudicated in state
court.” Burt v. Titlow, 571 U.S. 12, 19 (2013). Under section 2254(d)(1), “‘a state prisoner must show that the state
court's ruling on the claim being presented in federal
court was so lacking in justification that there was an error well understood and comprehended in existing law beyond any possibility for fairminded disagreement.’” White

147a
v. Wheeler, 136 S. Ct. 456, 460 (2015) (quoting White v.
Woodall, 572 U.S. 415, 419-20 (2014)); Harrington v.
Richter, 562 U. S. 86, 103 (2011).
The pivotal question is whether the state court’s
application of the Strickland standard was unreasonable. This is different from asking whetherdefense
counsel’s performance fell below Strickland’s standard. Were that the inquiry, the analysis would be no
different than if, for example, this Court were adjudicating a Strickland claim on direct review of a criminal
conviction in a United States district court. Under
AEDPA, though, it is a necessary premise that the two
questions are different. For purposes of § 2254(d)(1),
“an unreasonable application of federal law is different from an incorrect application of federal law.” A
state court must be granted a deference and latitude
that are not in operation when the case involves review
under the Strickland standard itself.
A state court’s determination that a claim lacks
merit precludes federal habeas relief so long as “fairminded jurists could disagree” on the correctness of
the state court’s decision. And as this Court has explained, “[E]valuating whether a rule application was
unreasonable requires considering the rule’s specificity. The more general the rule, the more leeway courts
have in reaching outcomes in case-by-case determinations. “[I]t is not an unreasonable application of clearly
established Federal law for a state court to decline to
apply a specific legal rule that has not been squarely
established by this Court.”
Harrington v. Richter, 562 U. S. at 101 (citations omitted).

148a
D. Failure to Call Dr. Roache to Testify Re
Broadnax’s Consent to be Interviewed
Respondent correctly notes that while Broadnax presented a multi-faceted challenge during his state habeas
corpus proceeding to his trial counsels’ handling of the admissibility of Broadnax’s media interviews, Broadnax has
never fairly presented any state court with his new complaint that his trial counsel should have called Dr. Roache
to testify that Broadnax was not competent to consent to
his media interviews. This Court will, therefore, undertake de novo review.
As explained in detail in Section X above, however, because the state trial court and state appellate courts found
the television reporters who interviewed Broadnax were
not acting as state agents, there was no constitutional impediment to the admission of Broadnax’s interviews. As
explained in subsection X.C.1. above, Broadnax’s contention that his consent to be interviewed was involuntary is
also without arguable merit. Even if Dr. Roache (who is a
pharmacologist, not a psychologist or psychiatrist) had
testified at the pretrial hearing on the admissibility of
Broadnax’s media interviews (or at the guilt-innocence
phase of trial) that he believed Broadnax was suffering
from the debilitating effects of a PCP-induced psychosis
at the time Broadnax gave his media interviews, Dr.
Roache gave no testimony suggesting there had been any
coercive police action to induce Broadnax’s media interviews.81 Thus, under applicable clearly established federal
law, Dr. Roache’s punishment-phase trial testimony
would not have served as a legal barrier to the admission
of Broadnax’s media interviews. At best, Dr. Roache’s

81

See Appendix I.

149a
punishment phase testimony would have added to the testimony of Dr. Mirmesdagh and Mr. Varghese that
Broadnax voiced a variety of complaints, including entirely subjective complaints of hallucinations and anxiety,
on the morning of his interviews. Significantly, Dr.
Mirmesdagh (who is a psychiatrist) concluded Broadnax
was alert and oriented and did not prescribe any medication for Broadnax that morning after examining him.82
Moreover, as explained in subsection X.C.1., the opinions
of Broadnax’s mental health experts regarding
Broadnax’s alleged psychosis at the time he gave his interviews must be evaluated in the context of the videotapes of those interviews, during which Broadnax displayed full alertness and responsiveness to questions, a
range of emotions, and the ability to repeatedly furnish a
vividly detailed account of his execution of two strangers
on the night in question, when he and his cousin had gone
out to “hit a lick.” The jury had the opportunity to see for
itself that Broadnax was plainly alert, responsive, coherent, and logical (albeit crude and remorseless most of the
time) throughout his interviews.
Having independently reviewed the entire record
from Broadnax’s trial, direct appeal, and state habeas corpus proceeding, this Court concludes after de novo review
that (1) the failure of Broadnax’s trial counsel to call Dr.
Roache to testify at the pretrial hearing on the admissibility of Broadnax’s media interviews or at the guilt-innocence phase of trial did not cause the performance of his
trial counsel to fall below an objective level of reasonableness and (2) there is no reasonable probability that, but
for the failure of Broadnax’s trial counsel to call Dr.

82

See Appendix I.

150a
Roache to testify at either the pretrial suppression hearing or the guilt-innocence phase of Broadnax’s trial, the
outcome of either phase of Broadnax’s capital murder
trial would have been any different. This complaint fails
to satisfy either prong of the Strickland standard and does
not warrant federal habeas relief.
E. Failure to Properly Object to Batson Violations
and Move for a New Jury Venire
As was true of Broadnax’s first complaint of ineffective
assistance, Broadnax’s complaints that that his trial counsel failed to (a) properly raise and preserve his Batson
challenges and (b) object to the trial court’s failure to
strike the entire jury panel after granting one of
Broadnax’s Batson challenges were not fairly presented
to the state courts during Broadnax’s state habeas corpus
proceeding. This Court will undertake de novo review.
As explained in detail in Section XI above, Broadnax’s
trial counsel raised timely Batson challenges to the prosecution’s use of eight peremptory strikes against various
venire members. The Texas Court of Criminal Appeals
addressed all of those challenges on direct appeal, found
the state trial court had correctly rejected seven of the
Broadnax’s Batson challenges, and held the state trial
court erroneously ruled in Broadnax’s favor on the eighth
such challenge. Likewise, as discussed in Section XI,
Broadnax’s complaints about the denial of his Batson
challenges and the trial court’s failure to strike the entire
jury panel after it granted one of Broadnax’s Batson challenges and reinstated one of the stricken jurors are refuted by the record and without arguable legal merit.
Broadnax failed to identify any white jurors against whom
the prosecution failed to exercise a peremptory strike who
were genuinely similarly situated in terms of their questionnaire answers and voir dire testimony to those whom

151a
the prosecution struck peremptorily.83 The prosecution
peremptorily struck seven venire members who indicated
in their questionnaire answers or their voir dire testimony
that they did not favor the death penalty and one venire
member who indicated she strongly believed that a term
of life imprisonment without the possibility of parole was
a harsher sentence than the death penalty. The state appellate court held on direct appeal that the trial court had
not erred in failing to dismiss the entire jury panel and
begin jury selection anew after granting a single Batson
challenge. No clearly established Texas or federal law requires such an outcome.
Under such circumstances, this Court concludes after
de novo review that (1) the conduct of Broadnax’s trial
counsel in connection with both Broadnax’s Batson challenges (including the state trial court’s granting of one
such challenge) did not cause the performance of
Broadnax’s trial counsel to fall below an objective level of
reasonableness and (2) there is no reasonable probability
that, had Broadnax’s trial counsel objected more strenuously or persistently to the trial court’s failure to begin
the entire jury selection process anew after granting a
single Batson challenge, the outcome of either phase of
Broadnax’s capital murder trial (or Broadnax’s direct appeal) would have been any different. The state appellate
court addressed and rejected on the merits Broadnax’s
complaint that the trial court failed to begin jury selection
anew after granting a single Batson challenge. Thus, the
conduct of Broadnax’s trial counsel did not prevent
Broadnax from obtaining a ruling on the merits of this
complaint from the state appellate court. This Court independently concludes there is no reasonable likelihood that
83

See note 70.

152a
different or more emphatic objections by Broadnax’s trial
counsel with regard to Broadnax’s Batson challenges
would have resulted in a different result at trial or on direct appeal. This unexhausted ineffective assistance claim
fails to satisfy either prong of the Strickland standard and
does not warrant federal habeas relief.84
F. Failure to Rebut Dr. Price’s Testimony
As explained in Section VII above, the scope of Dr.
Price’s rebuttal testimony was narrow (he testified to the
characteristics of a psychopathic personality without ever
stating that Broadnax actually possessed any of those
traits). As explained in Appendix III below, Broadnax’s
lead and second chair trial counsel testified at length at
the evidentiary hearing in Broadnax’s state habeas corpus
proceeding that they made a deliberate decision not to call
a mental health expert to rebut Dr. Price’s trial testimony
because (1) they believed it might open the door to harmful hypothetical testimony on cross-examination by the
Insofar as Broadnax argues that he is entitled to federal habeas
corpus relief based upon his state habeas counsel’s alleged failure to
adequately litigate a claim during the course of Broadnax’s state habeas corpus proceeding, Broadnax misconstrues the holdings in the
Supreme Court’s opinions in Martinez v. Ryan and Trevino v. Thaler.
See note 27 (explaining that those two opinions authorize relief from
a finding of procedural default for an omitted claim of ineffective assistance by state trial counsel but do not furnish a basis for a freestanding claim of federal habeas relief and do not authorize a federal
habeas court to entertain de novo review of a claim that was fully litigated in the state court but with a new set of evidence). Insofar as
Broadnax seeks to present new evidence supporting this ineffective
assistance claim which he failed to present during his state habeas
corpus proceeding, his efforts are precluded by the Supreme Court’s
holding in Cullen v. Pinsholster. See also 28 U.S.C. § 2254(i) (“The
ineffectiveness or incompetence of counsel during Federal or State
collateral post-conviction proceedings shall not be a ground for relief
in a proceeding arising under section 2254.”).
84

153a
prosecution, (2) none of the prosecution’s mental health
experts had testified Broadnax either was a psychopath
or had ASPD, and (3) they felt they had obtained favorable admissions from Dr. Price on cross-examination. The
state habeas trial court reasonably found this testimony
credible.85 The state habeas court also reasonably concluded this complaint failed to satisfy either prong of the
Strickland test. Broadnax has presented this Court with
no clear and convincing evidence showing the state habeas
court’s findings or conclusions on this claim were objectively unreasonable. This Court’s independent review of
the record compels a finding that the strategic decisionmaking of Broadnax’s trial counsel on this point was objectively reasonable. Furthermore, given the narrow focus of Dr. Price’s rebuttal testimony, this Court independently concludes there is no reasonable probability
that, but for the failure of Broadnax’s trial counsel to rebut Dr. Price’s testimony, the outcome of the punishment
phase of Broadnax’s capital murder trial would have been
any different.
Under the doubly deferential standard of review applicable under Harrington v. Richter, the Texas Court of
Criminal Appeals’ rejection on the merits of this ineffective assistance claim during the course of Broadnax’s
state habeas corpus proceeding was neither contrary to,
nor involved an unreasonable application of, clearly established Federal law, as determined by the Supreme Court
of the United States, nor resulted in a decision that was
based on an unreasonable determination of the facts in
light of the evidence presented in his state habeas corpus
proceeding. The Court therefore denies this claim for relief.
85

See note 80.

154a
G. Failure to Cross-Examine/Rebut Expert Gang
Testimony
As explained at length in Appendix III, Broadnax’s
trial counsel explained during their testimony in
Broadnax’s state habeas corpus proceeding that they decided not to challenge Officer Nelson’s testimony regarding Broadnax’s gang membership because (1) there was
no evidence Broadnax’s gang membership was related to
the murder, (2) Broadnax had self-admitted to gang membership, and (3) it would be difficult to present a credible
case that Broadnax’s use of gang symbols was meaningless. The state habeas trial court reasonably found this
testimony credible.86 This Court independently concludes
Broadnax’s trial counsels’ decision-making on this point
was objectively reasonable. The state habeas court also
reasonably found there was nothing false or misleading
about Officer Nelson’s testimony, a conclusion which this
Court shares after review of the entirety of the trial record. Broadnax’s trial counsel did introduce testimony
from Broadnax’s sister that she believed Broadnax was
only a gang “wannabe,” as opposed to a full-fledged gang
member like their older brother. Broadnax’s red and
black spiral notebooks contained numerous drawings and
rap lyrics which reflected Broadnax’s fascination with
gang culture in general and the Gangster Disciples in particular. This Court concludes that, under such circumstances, the state habeas court reasonably concluded
Broadnax’s complaints about his trial counsels’ failure to
cross-examine or rebut Officer Nelson‘s expert testimony
failed to satisfy either prong of the Strickland test.

86
State Habeas Court’s Findings & Conclusions at 24 [42-6 ECF at
62 of 163].

155a
Under the doubly deferential standard of review applicable under the Supreme Court’s holding in Harrington v. Richter, the Texas Court of Criminal Appeals’ rejection on the merits of this ineffective assistance claim
was neither contrary to, nor involved an unreasonable application of, clearly established Federal law, as determined by the Supreme Court of the United States, nor resulted in a decision that was based on an unreasonable determination of the facts in light of the evidence presented
in Broadnax’s state habeas corpus proceeding. The Court
therefore denies this claim for relief.
XIII. INEFFECTIVE ASSISTANCE BY STATE
APPELLATE COUNSEL
A. The Claim
Broadnax also argues that his state appellate counsel
rendered ineffective assistance by failing to challenge the
admission of Dr. Price’s testimony on direct appeal.87
B. Clearly Established Federal Law
The same two-pronged standard for evaluating ineffective assistance claims against trial counsel announced
in Strickland applies to complaints about the performance
of counsel on appeal. See Smith v. Robbins, 528 U. S. 259,
285 (2000) (holding a petitioner arguing ineffective assistance by his appellate counsel must establish both his appellate counsel’s performance was objectively unreasonable and there is a reasonable probability that, but for appellate counsel’s objectively unreasonable conduct, the
petitioner would have prevailed on appeal). Thus, the
standard for evaluating the performance of counsel on appeal requires inquiry into whether appellate counsel’s

87

48 ECF at 108-12.

156a
performance was deficient, i.e., whether appellate counsel’s conduct was objectively unreasonable under thencurrent legal standards, and whether appellate counsel’s
allegedly deficient performance “prejudiced” the petitioner, i.e., whether there is a reasonable probability that,
but for appellate counsel’s deficient performance, the outcome of the petitioner’s appeal would have been different.
Smith v. Robbins, 528 U. S. at 285. Appellate counsel who
files a merits brief need not and should not raise every
nonfrivolous claim but, rather, may select from among
them in order to maximize the likelihood of success on appeal. Smith v. Robbins, 528 U. S. at 288; Jones v. Barnes,
463 U. S. 745, 751 (1983). The process of winnowing out
weaker arguments on appeal and focusing on those more
likely to prevail is the hallmark of effective appellate advocacy. Smith v. Murray, 477 U. S. 527, 536 (1986); Jones
v. Barnes, 463 U. S. at 751-52.
Where, as in Broadnax’s case, appellate counsel presented, briefed, and argued, albeit unsuccessfully, one or
more nonfrivolous grounds for relief on appeal and did not
seek to withdraw from representation without filing an
adequate Anders brief, the defendant must satisfy both
prongs of the Strickland test in connection with his claims
of ineffective assistance by his appellate counsel. See Roe
v. Flores-Ortega, 528 U. S. 470, 477, 482 (2000) (holding
the dual prongs of Strickland apply to complaints of ineffective appellate counsel and recognizing, in cases involving “attorney error,” the defendant must show prejudice);
Smith v. Robbins, 528 U.S. at 287-89 (holding petitioner
who argued his appellate counsel rendered ineffective assistance by failing to file a merits brief must satisfy both
prongs of Strickland).

157a
C. Synthesis
Broadnax failed to present fairly his complaint of ineffective assistance by his state appellate counsel to the
state courts. The Court will review it de novo.
For the reasons discussed in Section VII above,
Broadnax’s constitutional complaints about the admission
of Dr. Price’s testimony lack arguable merit. See Johnson
v. Cockrell, 306 F.3d 249, 255 (5th Cir. 2002) (rejecting the
argument underlying Broadnax’s complaint about Dr.
Price’s testimony that Daubert altered the rule in Barefoot authorizing mental health expert opinion testimony
regarding future dangerousness). Broadnax’s state appellate counsel did not render ineffective assistance by failing to assert a meritless constitutional challenge to the admission of Dr. Price’s testimony. See Davila v. Davis, 137
S. Ct. at 2067 (declining to raise a claim on appeal is not
deficient performance unless that claim was plainly
stronger than those actually presented to the appellate
court); Smith v. Robbins, 528 U.S. at 288 (to prove ineffective assistance on appeal for failure to raise a claim in
a merits brief, a petitioner must show that a particular
omitted nonfrivolous issue was clearly stronger than issues that appellate counsel did present); Medellin v.
Dretke, 371 F.43d 270, 279 (5th Cir. 2004) (failure of appellate counsel to raise a meritless Batson claim on direct
appeal was not ineffective assistance). For the same reasons identified in Section VII, Broadnax’s constitutional
complaint about the admission of Dr. Price’s rebuttal punishment phase testimony was not a plainly stronger argument than the claims Broadnax’s state appellate counsel
actually raised on direct appeal. Broadnax’s points of error on direct appeal complaining of alleged Batson violations, while ultimately without merit, were clearly

158a
stronger than his newly proffered complaint about the admission of Dr. Price’s rebuttal testimony.
Dr. Price emphasized on direct examination that he
was not making a mental health evaluation of Broadnax
and admitted on cross-examination that (1) psychopathy
is not listed in the DSM-IV, (2) the closest thing to psychopathy in the DSM-IV is a personality disorder, (3) people who have the traits of psychopathy may not be a psychopath, and (4) some of the traits of a psychopath are
consistent with those of an immature person. Broadnax’s
state appellate counsel could reasonably have believed
that a complaint on direct appeal about the admission of
Dr. Price’s rebuttal testimony would not withstand applicable state harmless error analysis. See Taylor v. State,
268 S.W.3d 571, 592 (Tex. Crim. App. 2008) (explaining
that, under Texas law, errors not of a constitutional dimension that do not affect the substantial rights of the defendant must be disregarded); Neal v. State, 256 S.W.3d
264, 284 (Tex. Crim. App. 2008) (“The error was not harmless if there is a reasonable likelihood that it materially
affected the jury’s deliberations.”).
By the time of the punishment phase of Broadnax’s
capital murder trial, the jury had already found Broadnax
guilty beyond a reasonable doubt of Swan’s brutal murder
in the course of a robbery. Broadnax’s videotaped confessions to multiple television reporters and his audiotaped
telephone conversations had been admitted into evidence
and established beyond any doubt his lack of sincere contrition and genuine remorse for his crimes. Under such
circumstances, even if erroneous under state law, the admission of Dr. Price’s rebuttal testimony at the punishment phase of trial did not, in all reasonable likelihood,
constitute reversible error under state law or rise above
the level of harmless error under the Brecht standard.

159a
Therefore, this Court concludes there is no reasonable
probability that, but for the failure of Broadnax’s state appellate counsel to challenge the admission of Dr. Price’s
punishment phase rebuttal trial testimony on direct appeal, the outcome of Broadnax’s direct appeal would have
been any different. This claim satisfies neither prong of
the Strickland standard. The Court therefore denies this
claim for relief.
XIV. FREE-STANDING ACTUAL INNOCENCE
CLAIM
Broadnax argues he has now presented new evidence
showing that he is not a psychopath and, therefore, he is
entitled to federal habeas corpus relief because he is “actually innocent” of the death penalty.88 The Fifth Circuit
does not, however, recognize federal habeas claims based
on freestanding assertions of actual innocence. Floyd v.
Vannoy, 894 F.3d 143, 155 (5th Cir. 2018), cert. denied,
139 S. Ct. 573 (2018); Coleman v. Thaler, 716 F.3d 895, 908
(5th Cir. 2013) (“Claims of actual innocence based on
newly discovered evidence have never been held to state
a ground for federal habeas relief absent an independent
constitutional violation occurring in the underlying state
criminal proceeding.” (quoting Dowthitt v. Johnson, 230
F.3d 733, 741 (5th Cir. 2000)); Reed v. Stephens, 739 F.3d
753, 766 (5th Cir. 2014) (“actual innocence is not an independently cognizable federal habeas claim” (quoting Foster v. Quarterman, 466 F.3d 359, 367 (5th Cir. 2006)). As
88
ECF no. 48 at 112-14. Broadnax’s “new evidence” consists of the
opinions of a new mental health expert that Broadnax does not satisfy
the vast majority of the criteria for psychopathy, as listed by Dr. Price
during his rebuttal testimony at the punishment phase of trial. This
purported “new evidence” is indistinguishable from the affidavit and
testimony which Dr. Edens gave during Broadnax’s state habeas corpus proceeding summarized in Appendix III.

160a
explained above, Broadnax has failed to establish that a
constitutional violation took place during his capital murder trial. Therefore, his assertion that he has new evidence showing that he is not a psychopath does not furnish an independent basis for federal habeas corpus relief.
Analysis of the lone Supreme Court opinion cited by
Broadnax in support of his actual innocence claim further
supports this conclusion. In Sawyer v. Whitley, 505 U.S.
333 (1992), the Supreme Court addressed the issue of “the
standard for determining whether a petitioner bringing a
successive, abusive, or defaulted federal habeas claim has
shown he is ‘actually innocent’ of the death penalty to
which he has been sentenced so that the court may reach
the merits of the claim.” Sawyer, 505 U.S. at 335. The Supreme Court held “to show ‘actual innocence’ one must
show by clear and convincing evidence that, but for a constitutional error, no reasonable juror would have found
the petitioner eligible for the death penalty under applicable state law.’” Id., 505 U.S. at 226. The Supreme Court
emphasized that a mere showing of the existence of additional or new mitigating evidence did not, per se, satisfy
the foregoing standard: “the ‘actual innocence’ requirement must focus on those elements that render a defendant eligible for the death penalty, and not on additional
mitigating evidence that was prevented from being introduced as a result of a claimed constitutional error.” Id.,
505 U.S. at 347. At no point in Sawyer did the Supreme
Court suggest that satisfying the standard set forth in
that decision would entitle a federal habeas corpus petitioner to relief from a sentence of death.
Furthermore, Broadnax’s proffered “new evidence”
that he is not a psychopath does not even begin to approach the “actual innocence” test set forth in Sawyer.

161a
Broadnax’s jury did not answer the Texas capital sentencing special issue addressing future dangerousness affirmatively or the mitigation special issue negatively because
of any of the mental health testimony offered during
Broadnax’s trial. Dr. Price’s punishment phase testimony
listing the factors mental health professionals consider
before diagnosing an individual as a psychopathic personality was not tied to Broadnax. On the contrary, Dr. Price
took great pains during his testimony to make clear he
was not suggesting Broadnax possessed any of the traits
of a psychopathic personality. Thus, despite Broadnax’s
assertions in his federal habeas petition to the contrary,
no one offered any testimony at Broadnax’s trial establishing that Broadnax is a psychopathic personality.
Likewise, despite Broadnax’s complaints in his federal
habeas corpus petition, Dr. Lane never testified that
Broadnax displays ASPD. Dr. Lane admitted during his
cross-examination only that his notes indicated that, at
one point during his treatment of Broadnax he wanted to
attempt to rule out ASPD as a possible diagnosis but he
was unable to make any further evaluation of a possible
ASPD diagnosis because he lacked accurate information
concerning Broadnax’s behavior prior to age fifteen.
Thus, there was no testimony during Broadnax’s trial
from Dr. Lane or anyone else establishing that Broadnax
had ever been diagnosed with ASPD. The Court therefore, denies this claim for relief.
XV. REQUEST FOR AN EVIDENTIARY HEARING
Broadnax requests an evidentiary hearing.89 Insofar
as Broadnax’s claims in this federal habeas corpus proceeding were disposed of on the merits during the course
89

48 ECF at 152.

162a
of Broadnax’s direct appeal or state habeas corpus proceeding, Broadnax is not entitled to a federal evidentiary
hearing to develop new evidence attacking the state appellate or state habeas court’s resolution of Broadnax’s
claims. Under AEDPA, the proper place for development
of the facts supporting a federal habeas claim is the state
court. See Harrington v. Richter, 562 U. S. at 103 (“Section 2254(d) thus complements the exhaustion requirement and the doctrine of procedural bar to ensure that
state proceedings are the central process, not just a preliminary step for a later federal habeas proceeding.”);
Hernandez v. Johnson, 108 F.3d 554, 558 n.4 (5th Cir.
1997) (holding AEDPA clearly places the burden on a federal habeas petitioner to raise and litigate as fully as possible his federal claims in state court). Where a petitioner’s claims have been rejected on the merits, further
factual development in federal court is effectively precluded by virtue of the Supreme Court’s holding in Cullen
v. Pinholster, 563 U. S. at 181-82:
We now hold that review under § 2254(d)(1) is limited
to the record that was before the state court that adjudicated the claim on the merits. Section 2254(d)(1)
refers, in the past tense, to a state-court adjudication
that “resulted in” a decision that was contrary to, or
“involved” an unreasonable application of, established
law. This backward-looking language requires an examination of the state-court decision at the time it was
made. It follows that the record under review is limited to the record in existence at that same time i.e.,
the record before the state court.
Thus, Broadnax is not entitled to a federal evidentiary
hearing on any of his claims which were rejected on the

163a
merits by the state courts, either on direct appeal or during his state habeas corpus proceeding.90
With regard to the new factual allegations and new legal arguments Broadnax failed to fairly present to the
For the reasons explained in note 27, Broadnax is not entitled to
an evidentiary hearing in this Court for the purposes of developing
and presenting new facts or new evidence supporting claims which he
fully litigated on direct appeal or in his state habeas corpus proceeding. The Supreme Court’s opinions in Martinez v. Ryan and Trevino
v. Thaler dealt with situations in which a state habeas counsel utterly
failed to assert a claim of ineffective assistance by trial counsel during
the course of a state habeas corpus proceeding, thus resulting in a
procedural default on that omitted claim. Neither of those cases dealt
with a situation in which an ineffective assistance claim (or any other
complaint) was fully litigated in a state post-conviction proceeding
and the federal habeas petitioner sought to re-litigate the claim with
new or additional evidence in federal court. Thus, Broadnax’s new
complaints in this Court that his state habeas counsel should have
presented new or additional evidence during his state habeas corpus
proceeding (or done a better job arguing Broadnax’s state habeas
claims) do not fall within the narrow scope of the holdings in Martinez/Trevino.
90

There is no clearly established federal law holding that a federal
habeas corpus petitioner is entitled to an evidentiary hearing based
on an assertion that his state habeas counsel could have done a better
job litigating a particular claim that was resolved on the merits in a
state post-conviction proceeding. On the contrary, the Supreme
Court’s holding in Cullen v. Pinholster implicitly rejects such a rule.
Such a rule would also contravene the Congressional intent underlying AEDPA, which was, in part, to promote the principle of federalism. See Gonzalez v. Thaler, 565 U.S. 134, 144 (2012) (recognizing
Congress’ intent in adopting AEDPA was to eliminate delays in the
federal habeas review process); Williams v. Taylor, 529 U.S. 420, 436
(2000) (recognizing Congress intended AEDPA to further the principles of comity, finality, and federalism); Caldwell v. Dretke, 429 F.3d
521, 528 (5th Cir. 2005) (recognizing Congress’s stated intent in
adopting AEDPA was to “curb the abuse of the statutory writ of habeas corpus” and “address problems of unnecessary delay.”).

164a
state courts, and for which this Court has undertaken de
novo review, Broadnax is likewise not entitled to an evidentiary hearing. In the course of conducting de novo review, this Court has assumed the factual accuracy of all
the specific facts alleged by Broadnax in support of his unexhausted claims for relief. Even when the truth of all of
Broadnax’s new factual allegations supporting his unexhausted claims is assumed, his unexhausted claims do not
warrant federal habeas relief. See Schriro v. Landrigan,
550 U. S. 465, 474 (2007) (“In deciding whether to grant
an evidentiary hearing, a federal court must consider
whether such a hearing could enable an applicant to prove
the petition’s factual allegations, which, if true, would entitle the applicant to federal habeas relief.”). Thus,
Broadnax is not entitled to an evidentiary hearing with regard to any of his unexhausted claims.
XVI. CERTIFICATE OF APPEALABILITY
Under AEDPA, before a petitioner may appeal the denial of a habeas corpus petition filed under section 2254,
the petitioner must obtain a Certificate of Appealability
(“CoA”). Miller-El v. Johnson, 537 U.S. 322, 335-36
(2003); 28 U.S.C. § 2253(c) (2). Likewise, under AEDPA,
appellate review of a habeas petition is limited to the issues on which a CoA is granted. See Crutcher v. Cockrell,
301 F.3d 656, 658 n.10 (5th Cir. 2002) (holding a CoA is
granted on an issue-by-issue basis, thereby limiting appellate review to those issues); Lackey v. Johnson, 116 F.3d
149, 151 (5th Cir. 1997) (holding the scope of appellate review of denial of a habeas petition limited to the issues on
which CoA has been granted). In other words, a CoA is
granted or denied on an issue-by-issue basis, thereby limiting appellate review to those issues on which CoA is
granted. Crutcher v. Cockrell, 301 F.3d at 658 n.10; 28
U.S.C. §2253(c) (3).

165a
A CoA will not be granted unless a petitioner makes a
substantial showing of the denial of a constitutional right.
Tennard v. Dretke, 542 U.S. 274, 282 (2004); Miller-El v.
Johnson, 537 U.S. at 336; Slack v. McDaniel, 529 U.S. 473,
483 (2000); Barefoot v. Estelle, 463 U.S. 880, 893 (1983). To
make such a showing, the petitioner need not show he will
prevail on the merits but, rather, must demonstrate that
reasonable jurists could debate whether (or, for that matter, agree) the petition should have been resolved in a different manner or that the issues presented are adequate
to deserve encouragement to proceed further. Tennard v.
Dretke, 542 U.S. at 282; Miller-El v. Johnson, 537 U.S. at
336. This Court is required to issue or deny a CoA when it
enters a final Order such as this one adverse to a federal
habeas petitioner. Rule 11(a), Rules Governing Section
2254 Cases in the United States District Courts.
The showing necessary to obtain a CoA on a particular
claim is dependent upon the manner in which the District
Court has disposed of a claim. “[W]here a district court
has rejected the constitutional claims on the merits, the
showing required to satisfy §2253(c) is straightforward:
The petitioner must demonstrate that reasonable jurists
would find the district court’s assessment of the constitutional claims debatable or wrong.” Miller-El v. Johnson,
537 U.S. at 338 (quoting Slack v. McDaniel, 529 U.S. at
484). In a case in which the petitioner wishes to challenge
on appeal this Court’s dismissal of a claim for a reason not
of constitutional dimension, such as procedural default,
limitations, or lack of exhaustion, the petitioner must
show jurists of reason would find it debatable whether the
petition states a valid claim of the denial of a constitutional
right and whether this Court was correct in its procedural
ruling. See Slack v. McDaniel, 529 U.S. at 484 (holding
when a district court denies a habeas claim on procedural
grounds, without reaching the underlying constitutional

166a
claim, a CoA may issue only when the petitioner shows
that reasonable jurists would find it debatable whether (1)
the claim is a valid assertion of the denial of a constitutional right and (2) the district court’s procedural ruling
was correct). This Court did not dispose of any of
Broadnax’s federal habeas corpus claims on procedural
grounds.
In death penalty cases, any doubt as to whether a CoA
should issue must be resolved in the petitioner’s favor.
Avila v. Quarterman, 560 F.3d 299, 304 (5th Cir. 2009);
Bridgers v. Dretke, 431 F.3d 853, 861 (5th Cir. 2005).
Nonetheless, a CoA is not automatically granted in every
death penalty habeas case. See Miller-El v. Cockrell, 537
U.S. at 337 (“It follows that issuance of a COA must not
be pro forma or a matter of course.”). The deferential
standard of review applied to claims of ineffective assistance adjudicated on the merits in the state courts has
particular bite in evaluating the appealability of ineffective assistance claims—the Supreme Court requires that
federal courts “use a ‘doubly deferential’ standard of review that gives both the state court and the defense attorney the benefit of the doubt.” Burt v. Titlow, 571 U.S. at
15.
Reasonable minds could not disagree with this Court’s
conclusions that (1) all of Broadnax’s complaints about the
performance of his trial counsel and state appellate counsel fail to satisfy both prongs of the Strickland standard,
(2) his state appellate court reasonably concluded
Broadnax’s Batson claims were without merit, (3)
Broadnax’s challenges to the Texas capital sentencing
scheme and his punishment phase jury charge are all foreclosed by well-settled Fifth Circuit precedent, (4)
Broadnax’s complaints about the trial court’s admission of

167a
Officer Nelson’s and Dr. Price’s expert testimony lack arguable merit, (5) because he has identified no other capital
murderer who has ever given televised interviews in
which he demanded to receive a death sentence,
Broadnax’s selective prosecution claim lacks arguable
merit, (6) Broadnax’s challenge to the constitutionality of
the death penalty is foreclosed by the holding in Teague
v. Lane, (7) Broadnax’s complaint about the search of his
jail cell is foreclosed by the holding in Stone v. Powell, (8)
the state trial and appellate courts reasonably rejected
Broadnax’s challenge for cause to qualified juror no. 43,
(9) Broadnax’s challenges to the admission of his media
interviews are foreclosed by the state court’s reasonable
factual finding that the television reporters were not acting as state agents and by the jury’s implicit factual determination at the guilt-innocence phase that Broadnax
was sufficiently mentally competent to give his interviews, (10) Broadnax’s freestanding actual innocence
claim does not furnish a basis for federal habeas relief,
and (11) Broadnax is not entitled to an evidentiary hearing in this Court.
Accordingly, it is hereby ORDERED that:
1. All relief requested in Broadnax’s first amended
petition and reply brief (ECF nos. 48 & 69) is DENIED.
2. Broadnax’s request for an evidentiary hearing is
DENIED.
3. Broadnax is DENIED a Certificate of Appealability on all his claims.
4. All other pending motions are DISMISSED AS
MOOT.

168a
APPENDICES
I. SYNPOSIS OF EVIDENCE FROM
GUILT/INNOCENCE PHASE
In the first of the interviews Broadnax gave to television reporters on June 23, 2008, Broadnax met with Channel 11 reporter Steven Antonio Pickett. Copies of
Broadnax’s interview by Pickett appear among the records from Broadnax’s trial as DVD’s marked as State Exhibit nos. 403 & 404. Exhibit 404 contains subtitles. Initially during the Pickett interview, Broadnax defiantly denied any knowledge of, or involvement in, the murders.
After Pickett read Broadnax information from the affidavit included in Broadnax’s arrest warrant, however,
Broadnax’s entire demeanor changed radically. Broadnax
confessed that he and his cousin Cummings had traveled
to downtown Dallas looking to “hit a lick,” decided to take
a train to downtown Garland instead, and searched for a
victim to rob. When the victims exited a recording studio
late at night, Broadnax described how he approached
them in the parking lot, talked briefly, and then asked for
a cigarette. Broadnax then described how, when one of the
victims reached to get a cigarette, Broadnax shot the first
victim, then shot the driver of the vehicle. Broadnax then
described how he subsequently shot each of his victims in
the head because they were both still moving. Broadnax
said he and Cummings rifled through their victims’ pockets, obtained the car keys, and fled the scene in their victims’ Crown Victoria, with Cummings driving. Broadnax
made it clear he was the one who had the gun and fired all
of the shots that night. While Broadnax claimed at one
point during his Pickett interview that he “blanked out”
during the shooting, his highly detailed account of exactly
how he approached and shot both of his victims (and his
detailed accounts of exactly how they each responded to

169a
the shots) belie any assertion that Broadnax was unaware
or not otherwise in full control of his actions. In response
to a question by Pickett about what he would say to the
widow of one of his victims, Broadnax replied “I laugh in
her face.” Broadnax later responded to questions by
Pickett about his future by glumly saying “I ain’t got no
reason to live” and “my life was [expletive deleted] up
since I was born.” Pickett testified that he had not spoken
with law enforcement before he interviewed Broadnax, no
one from law enforcement had asked him to do the interview, and he had never worked for law enforcement.
Statement of Facts from Broadnax’s Trial (henceforth
“S.F. Trial”), testimony of Steven Antonio Pickett, Volume 45, at 120-21 [41-19 ECF at 10050]. Pickett also testified that Broadnax never expressed any remorse for his
crimes, showed no signs of intoxication during the interview, and gave answers that appeared to Pickett to be
both rational and fully responsive to Pickett’s questions.
Id., 45 S.F. Trial at 128-30 [41-19 ECF at 42 of 84]. On
cross-examination, Pickett admitted that during the interview (1) Pickett encouraged Broadnax to tell the truth by
saying “if you tell me the truth, your life will be spared,”
(2) Broadnax claimed to have been “smoking blunts” the
night of the offense, and (3) Broadnax asserted at various
times that he “blanked out” as the robbery began, “everything went colors,” and “I went Psycho.” Id., 45 S.F. Trial
at 142-44 [41-19 ECF at 45-46 of 84]. On redirect, Pickett
testified Broadnax said he did not have a conscience and
did not appear to be having any problems during the interview remembering the events on the night of the shootings. Id., 45 S.F. Trial, at 148-49 [41-19 ECF 47 of 84].
A copy of the interview subsequently obtained by
Channel 5 reporter Ellen Goldberg later the same day appears among the state court record as State Exhibit no.

170a
405 (with subtitles), which was played in open court. During the Goldberg interview, Broadnax once again described in great detail exactly how he approached his victims in the parking lot, asked for a cigarette, and when
one of the victims reached for a cigarette, Broadnax shot
him, shot the other victim, and then shot both victims
again in the head to make sure they were both dead.
Broadnax emphasized that while Cummings went
through the pockets of their victims, it was Broadnax who
had pulled the trigger. While Broadnax displayed a defiant demeanor throughout most of his interview, he did admit near the end of his time with Goldberg “I wish I
wouldn’t have had the pistol on me.” Goldberg testified in
part that she made no threats or offers to induce
Broadnax to consent to be interviewed, she was aware of
no such threats or offers, no one had asked her to get a
confession from Broadnax, and she had never worked for
law enforcement. Testimony of Ellen Goldberg, 45 S.F.
Trial at 274-76 [41-19 ECF at 78-79 of 84].
The interview conducted the same date by Channel 4
reporter Shaun Rabb appears among the state court as
State Exhibit nos. 406 & 407 (407 has subtitles). During
this interview, Broadnax once again stated that he
“blanked out” during the robbery but then described in
great detail how his victims reacted when he first shot
them and how he shot them in the head to make sure they
were both dead. During Rabb’s interview, Broadnax
briefly appeared to break down emotionally, hanging up
the phone and walking out of the interview room when
Rabb asked him to tell him what was going through his
head. But Broadnax immediately returned and confessed
“I kinda regret what I did” and responded to Rabb’s question about what his life had been like with “Hell.”
Broadnax’s defiant demeanor quickly returned, however,
and he informed Rabb “I don’t want life.” Broadnax also

171a
informed Rabb that if given the chance, he would tell his
victims’ families “[expletive deleted] ‘em, straight up.”
Broadnax also told Rabb “I got no family. You see who
snitched on me” and “weed don’t make you blank out.”
Rabb testified that no one suggested or asked him to get
a statement from Broadnax. He had never worked for law
enforcement or in law enforcement, and he did not act under any authority or color of law when he interviewed
Broadnax. Testimony of Shaun Rabb, 46 S.F. Trial at 22122 [41-20 ECF at 98 of 107].
During his interview by Goldberg (contained on State
Exhibit no. 405), when asked by Goldberg if he felt any
remorse over what he had done, Broadnax silently shook
his head from side to side. When asked by Goldberg what
he thought would happen to him, Broadnax replied
“Hopefully, the death penalty.” Broadnax followed that
comment by explaining that if they did not give him the
death penalty, he would kill again, declaring there would
be more bodies if he did not receive the death penalty.
When Goldberg asked him what he had to say to the families of his victims, Broadnax replied “[expletive deleted]
his family too. Both of them.” After Broadnax briefly confessed that he regretted that he had his pistol with him
the night of the murders, Goldberg again sought to elicit
some expression of remorse but Broadnax once more repeated his earlier crude comments about his victims’ families, saying “[expletive deleted] them and their families.”
Broadnax’s crude, dismissive comments about his victim’s families were consistent throughout his other interviews. During his interview by Pickett (contained in State
Exhibit nos. 403 & 404), Broadnax replied to a question
about what he would tell the widow of one of his victims
with “I laugh in her face.” During his interview by Rabb
(contained on State exhibit nos. 406 & 407), Broadnax

172a
made a similarly vulgar reply when Rabb asked what he
would say to his victims’ families.
In addition to the television reporters, the prosecution
called (1) Swan’s father, who identified a photograph of
the vehicle which Broadnax was driving and in which
Cummings and another young male were passengers at
the time they were stopped in Texarkana, Texas the day
after the murders as his son’s vehicle (Testimony of Craig
Anthony Swan, 45 S.F. Trial at 105, 108 [41-19 ECF at 3637 of 84]); (2) a nurse at the Dallas County Jail, who testified that Broadnax (a) informed her he had last drank
beer on June 1 and last used marijuana on June 18 prior
to his arrest, (b) did not appear to be under the influence
of alcohol or drugs when she screened him on June 21, and
(c) was placed in closed behavioral observation and referred for a psychological evaluation because of the severity of the charges against him, i.e., the high profile nature
of the case against him (Testimony of Deborah Ann
Busby, 45 S.F. Trial at 163-69 [41-19 ECF at 51-52 of 84]);
(3) an acquaintance of Broadnax’s aunt, who testified that
the day after the double murder/robbery (a) she saw
Broadnax and Cummings at Broadnax’s aunt’s residence
driving a Crown Victoria vehicle, (b) Broadnax and Cummings said they had “hit a lick,” which she construed as
meaning they had committed a robbery, (c) Broadnax was
carrying a pistol, (d) Cummings looked scared but
Broadnax appeared “bold,” (e) Broadnax appeared to be
the leader of the two, (f) she saw Stephen Swan’s identification, (g) she saw various items in the trunk of the Crown
Victoria, (h) Broadnax and Cummings said they planned
to sell the vehicle, (i) later that same day she saw Stephen
Swan’s picture on the television and realized Broadnax
and Cummings had robbed and murdered Swan, and (j)
she telephoned police to report what she had seen and
heard and was interviewed later that day (Testimony of

173a
Evelyn Barg, 45 S.F. Trial at 208-29 [41-19 ECF at 61-67
of 84]); (4) a Texarkana police officer who stopped the
Crown Victoria vehicle which Broadnax was driving on
June 19 because that vehicle was in a high crime area and
bore a set of license plates that did not match the make or
model of that vehicle, who testified that (a) Broadnax said
he had no driver’s license but gave consent for a search of
the vehicle, (b) a call back reported the vehicle had been
involved in a double homicide and that there were outstanding warrants on all three occupants of the vehicle, (c)
a concealed handgun license owned by Stephen Swan was
found in the vehicle during an inventory search, and (d)
throughout the traffic stop and ensuing arrest, Broadnax
was calm and collected and showed no sign of intoxication
(Testimony of Jeff Johnston, 45 S.F. Trial at 235-67 [4119 ECF at 69-77 of 84]); (5) the Dallas County medical examiner who performed the autopsy on Stephen Swan, who
testified that (a) Swan died as a result of multiple gunshot
wounds to the head and chest, (b) there was no natural
disease apparent, (c) Swan suffered one intermediate
range (i.e., twelve-to-eighteen inches from the skin) gunshot wound to the right temporal area which entered
above the right eye and exited the base of the skull on the
left side just in front of the ear, (d) this entrance wound
showed signs of stippling, (e) this gunshot wound caused
severe immediate and devastating traumatic brain injury
as well as brain contusion, subarachnoid hemorrhage, and
multiple fractures of the base of the skull, (f) Swan also
suffered a gunshot wound to the chest of indeterminate
range (because clothing masked any stippling) which entered the left chest, hit the upper lobe of the left lung and
exited through the lower lobe of the left lung through the
ninth rib and lodged in back muscle, (g) she was able to
recover this bullet, and (h) the chest wound would have
been devastating but not as immediately fatal as the head

174a
wound (Testimony of Dr. Amy Gruszecki, 46 S.F. Trial at
12-36 [41-20 ECF at 45-51 of 107]); (6) a Garland police
officer, who testified he recovered (a) the handgun that
turned out to be the murder weapon after Cummings directed law enforcement officers to the precise location of
that weapon under a mattress in a bedroom inside a specific apartment and (b) a set of tools belonging to Swan
that Cummings and Broadnax pawned on June 19 (Testimony of Clint McNear, 46 S.F. Trial at 37-59 [41-20 ECF
at 52-57 of 107]); (7) a Garland forensic investigator who
photographed and processed the crime scene where the
bodies were discovered, as well as the Crown Victoria vehicle and the clothing of all three occupants of the Crown
Victoria, who identified (a) photographs of various items
recovered at the crime scene, including spent shell casings
and bullets, (b) photographs of blood spatter on the vehicle, and (c) various items of clothing found inside the vehicle (Testimony of Isabel Giannone, 46 S.F. Trial at 61-161
[41-20 ECF at 58-83 of 107]); (8) a forensic firearms examiner, who testified the 9 mm Browning short semi-automatic pistol recovered by law enforcement officers was
the same weapon that fired the shell casings recovered at
the crime scene and the bullets recovered during the autopsies of Swan and Butler (Testimony of Susan Allen, 46
S.F. Trial at 162-83 [41-20 ECF at 83-88 of 107]); (9) a forensic scientist with the Texas Department of Public
Safety, who testified that (a) DNA recovered from the left
side of the handgun was consistent with Swan’s DNA, (b)
blood found on a pair of Nike tennis shoes belonging to
Broadnax was consistent with Butler’s blood, and (c) DNA
obtained from a swab of the handgun’s trigger was consistent with both Broadnax and Cummings (Testimony of
James Nichols, 46 S.F. Trial at 184-208, 41-20 ECF at 8894 of 107]); and (10) the Dallas County Jail detention officer who escorted Broadnax to his interviews on the

175a
morning of June 28, 2008, who testified via deposition that
(1) Broadnax’s demeanor during his transport was not
combative, (2) Broadnax was not talking to himself or
drooling, (3) she had received training in mental health issues, (4) there was no indication Broadnax was behaving
in a psychotic manner, (5) Broadnax did not say he did not
want to go to his interviews, and (6) she asked him before
each interview if he wanted to do it and he said he did
(Testimony of Christie Hicklen, 47 S.F. Trial at 158-73
[41-21 ECF at 48-52 of 60].
The defense called (1) a licensed psychological professional counselor who evaluated Broadnax on the morning
of June 23, i.e., the day of Broadnax’s interviews, who testified (a) he performed a mental health screening and suicide risk assessment, (b) Broadnax reported he was suffering from auditory hallucinations but not any directing
him to take action, (c) Broadnax’s primary symptoms
were irritability and anger, (d) Broadnax reported that he
believed he had been set up, (e) Broadnax reported that
had last used weed, i.e., smoked “wet blunts,” two or three
days before, (f) Broadnax’s affect was dramatic and he
displayed severe agitation, (g) he referred Broadnax for a
psychiatric evaluation, (h) he again saw Broadnax on June
24 and at that time he placed Broadnax on suicide protection protocol, which required the removal of Broadnax’s
clothing and observation every fifteen minutes, because
Broadnax was guarded, irritable, and angry, and because
of Broadnax’s statements to the media the day before that
he was not going to prison for life, (i) he did not note any
indication of mental illness, (j) Broadnax had no problems
responding to him and was capable of speaking voluntarily, and (k) he was not confident in the accuracy of the information Broadnax related to him (Testimony of Jason
Varghese, 47 S.F. Trial at 17-67 [41-21 ECF at 13-25 of
60]); (2) a psychiatrist who also evaluated Broadnax on the

176a
morning of June 23, who testified that (a) Broadnax informed her he was high at the time he arrived at the Dallas County Jail, (b) Broadnax was alert and oriented and
denied depression or anxiety, (c) Broadnax was guarded,
disrespectful, irritable, and angry, (d) his speech was normal and goal directed, his thought processes were congruent, (e) Broadnax gave a history of smoking pot daily since
age twelve but last used on June 21 [despite the fact he
had been in custody since June 19], (f) her notes indicated
she felt she needed further study to rule out malingering
and Antisocial Personality Disorder, (g) she evaluated
Broadnax as functioning in the seventieth percentile, (h)
she concluded to keep Broadnax in close behavioral observation for safety reasons and did not prescribe any medications at that time, (i) while Broadnax claimed to experience auditory hallucinations, she saw nothing that indicated Broadnax needed immediate help, (j) Broadnax did
not appear to be responding to any internal stimuli, (k)
Broadnax asked to see a “psych lawyer,” (l) there was no
objective evidence Broadnax was hearing voices, (m) an
evaluation performed by another jail employee on June 24
concluded Broadnax was manipulative, inappropriate, impatient, and irritable, (n) after his June 24 evaluation,
Broadnax was taken off of suicide prevention protocol and
given Ibuprofen for a bad molar, (o) Broadnax told his
evaluator on June 24 “nothing is wrong with me,” and requested transfer to the general jail population (Testimony
of Dr. Haideh Mirmesdagh, 47 S.F. Trial at 69-119 [41-21
ECF at 26-38 of 60]); and (3) the Dallas County Sheriff’s
Department’s public information officer, who testified (a)
jail policy allows inmates to agree to be interviewed in
writing, (b) she has no role in deciding whether a particular inmate has a right to speak with the media, (c) she received multiple interview requests from members of the
media to speak with Broadnax, (d) she was unaware

177a
Broadnax had been seen by mental health professionals
during his stay at the jail, (e) she forwarded the media interview requests to the jail for them to be presented to
Broadnax, (f) she went to the jail the day of Broadnax’s
interviews because both Broadnax and Cummings had
agreed to multiple interviews and those interviews would
be taking place simultaneously, (g) when she received a
letter from Broadnax’s court-appointed attorney requesting that Broadnax not be interviewed further, she thereafter allowed no more interviews of Broadnax, (h) she
does not believe she had the authority to deny an inmate
access to the media, and (i) at no time did she act out of a
desire to get Broadnax to confess, and (j) she never saw
anything to suggest Broadnax’s will had been overcome
(Testimony of Kimberly Leach, 47 S.F. Trial at 121-48 [4121 ECF at 38-46 of 60]).
In rebuttal, the prosecution called a Dallas County Jail
detention officer who escorted Broadnax to his interviews
on June 23, who testified (1) during her transport of
Broadnax to the interview area, Broadnax’s demeanor
was not combative and she did not feel the need to request
assistance, (2) Broadnax was not talking to himself, drooling, or otherwise showing any signs he was psychotic, (3)
Broadnax never indicated he did not want to give his interviews, (4) she never felt any concern for her safety
while transporting Broadnax, (5) when she asked
Broadnax before each interview if he wanted to be interviewed, he said he did. Testimony of Christie Hicklin, 47
S.F. Trial at 158-73 [41-21 ECF at 48-52 of 60]. Prior to
both parties resting at the guilt-innocence phase of trial,
they stipulated on the record that Broadnax was placed
on suicide prevention protocol after he gave his interviews. 47 S.F. Trial at 173 [41-21 ECF at 52 of 60].

178a
II. SYNPOSIS OF EVIDENCE FROM
PUNISHMENT PHASE
At the punishment phase of Broadnax’s capital murder trial, Butler‘s mother testified in part that (1) her son
was married and had two very young children, (2) Swan
and her son were good friends, (3) Swan often helped her
son after hours at her son’s recording studio, and (4) the
last song recorded on her son’s recording machines when
her family went to the studio after the murders was a song
written by Swan titled “We All Die Before Our Time.”
Testimony of Theresa Butler, 48 S.F. Trial at 28-37 [41-22
ECF at 19-22 of 78]. Swan’s mother testified in part that
(1) Stephen was her oldest child, (2) at a young age Stephen learned to play a variety of musical instruments and
self-trained his voice, (3) he had battled cancer and only
recently been diagnosed in remission, (4) Stephen often
volunteered to help Matt Butler at his recording studio,
and (5) Stephen’s death had been devastating to their family and his friends. Testimony of Jean Swan, 48 S.F. Trial
at 62-66 [41-22 ECF at 28-29 of 78].
The medical examiner who performed Butler’s autopsy testified that (1) Butler died as a result of multiple
gunshot wounds, (2) one of those gunshot wounds, which
showed evidence of stippling, entered Butler in the left
side of his face, went through the mandible, through the
back of the tongue, and exited the left side of his face near
the jawline, (3) a second gunshot wound entered the right
side of Butler’s torso near the right nipple and may have
been associated with a gunshot wound to Butler’s arm, (4)
another gunshot wound passed through Butler’s arm and
reentered Butler’s body on the right side of his chest near
the armpit, (5) this bullet passed through Butler’s arm,
entered the right side of the chest, passed through the
right lung in a downward trajectory, and went through

179a
the liver and into the abdomen, where it was recovered
fairly low in the body near the first lumbar vertebrae, (6)
another gunshot wound entered Butler in the right side of
his back, passed through a rib, through the middle of the
chest, perforating a couple of large blood vessels near the
heart, traveling in a back-to-front, right-to-left trajectory,
(7) yet another gunshot wound entered and exited Butler’s left shoulder, and (8) he was able to recover two bullets from Butler’s body during autopsy. Testimony of
Tracy Dyer, 48 S.F. Trial at 39-61 [41-22 ECF at 22-28 of
78].
The president and chief operating officer of Value
Added Communications testified that (1) his company had
contracted to furnish inmate telephone system at the Dallas County Jail during the time Broadnax was an inmate
there, (2) all inmate telephone calls were made with a personal identification number and the receiving party had to
accept a call from the jail, (3) other than “legal calls,” all
calls from the jail were recorded, and (4) State Exhibit no.
425 was a call log of Broadnax’s calls beginning on September 15, 2008. Testimony of Mark Turner, 48 S.F. Trial
at 72-86 [41-22 ECF at 30-34 of 78].
One investigator from the Dallas County District Attorney’s Office (1) identified State Exhibit nos. 571 and
572 as a complete set of the recordings of all of Broadnax’s
telephone calls; (2) identified State Exhibit nos. 544
through 558 as recordings of individual telephone calls
made by Broadnax; (3) identified Broadnax’s voice on
State Exhibit no. 544 in a conversation between Broadnax
and his sister on January 26, 2009 during which, in response to a question from his sister regarding the family
of his victims, Broadnax responded “[expletive deleted]
the family!”; and (4) identified Broadnax’s voice on a January 9, 2009 telephone call in which Broadnax explained

180a
that he had been involved in a fight with a Special Response Team at the jail during a shakedown of his cell.
Testimony of David Barger, 48 S.F. Trial at 86-113 [41-22
ECF at 34-41 of 78].
A different investigator (1) testified he went to the jail
on June 19, 2009 to photograph the contents of Broadnax’s
cell during a shakedown, (2) identified numerous photographs of the contents of Broadnax’s cell, including numerous books, as well as numerous drawings on the walls
of Broadnax’s cell, (3) testified it was not unusual to photograph the inside of a prisoner’s cell during a shakedown
in high profile cases, (4) testified that during the shakedown, jail officials discovered Broadnax had a blade from
a disassembled razor hidden inside his cell, (5) testified
that among the more than forty books observed inside
Broadnax’s cell were copies of Sun Tzu’s The Art of War
and other books titled The Art of Seduction and The 48
Laws of Power, (6) in addition to the razor blade, other
contraband items found inside Broadnax’s cell included a
loose pill hidden under a magazine and a pornographic
photograph hidden inside a Bible, and (7) the contents of
Broadnax’s cell included a story written apparently by
Broadnax in which he described “hitting a lick” and multiple drawings of six-pointed stars and pitchforks and images resembling those on Tarot cards. Testimony of Darrell Doty, 49 S.F. Trial at 35-73 [41-23 ECF at 73-111 of
198].
State Exhibit no. 565 is a recording of a very brief portion of a telephone conversation on January 12, 2009 in
which Broadnax asks his mother to obtain and send to him
copies of The Art of War and The Art of Seduction.
A Dallas County Jail Special Response Team officer
testified that (1) all jail cells at the Dallas County Jail are
routinely shaken down, i.e., searched for weapons and

181a
contraband, two to three times each week, (2) she supervised a shakedown of Broadnax’s cell on July 23, 2008, (3)
Broadnax exited his cell when directed to do so but refused her directives to face the wall in the hallway and
keep his hands on the wall, (4) Broadnax spoke aggressively to her, (5) eventually, Broadnax had to be taken
down by multiple officers, (5) Broadnax was then taken to
the nurse for evaluation, and (6) while being transported
to the nurse and after arriving at the infirmary, Broadnax
remained noncompliant, cursing and refusing to answer
the nurse’s questions. Testimony of Schesser Rachel Kirvan, 48 S.F. Trial at 130-68 [41-22 ECF at 45-54].
A Dallas County Jail detention officer testified that (1)
on January 21, 2009 he broke up a fight between
Broadnax and another inmate named Trevann Miller in
the jail’s gym, (2) he did not see how the fight began, (3)
once he and other detention officers managed to separate
Broadnax and inmate Miller, Broadnax was still trying to
get to Miller, (4) both inmates received fifteen-day restrictions as a result of the fight, (5) State Exhibit nos.
574-75 were photographs that accurately depicted inmate
Miller’s facial injuries after the fight and State Exhibit no.
576 was a photograph that accurately depicted
Broadnax’s lack of injuries after the fight, and (6) State
Exhibits nos. 562 and 563 were recordings of telephone
conversations in which Broadnax discussed his fight with
inmate Miller. Testimony of Morris Contreras, 48 S.F.
Trial at 173-97 [41-22 ECF at 56-62 of 78].
State Exhibit no. 562 contains recordings of three very
brief snippets of conversation from January 22, 2009 between Broadnax and his mother. In pertinent part,
Broadnax explained during those three brief segments of
conversation that (1) his hand was swollen from a fight he
had the previous day with another inmate after he struck

182a
the inmate in the mouth, (2) he had written more rap
songs, and (3) he joked that it was possible to smoke inside
the jail but only if you didn’t get caught. State Exhibit no.
563 contains a brief conversation from January 21, 2009 in
which Broadnax describes in detail how he fought with another inmate because he felt the other inmate had disrespected him the day before and that when they reached
the gym that day, the two men simply began fighting.
A Dallas County Jail detention officer testified that (1)
on May 13, 2009 while he was escorting Broadnax and another inmate to court, Broadnax suddenly and without
warning turned around and struck the other inmate who
was walking single file directly behind Broadnax, (2)
Broadnax attempted to punch the other inmate in the
face, (3) the other inmate, Matthew Utley, was much
shorter than Broadnax and ducked when he saw
Broadnax’s fist approaching, (4) Broadnax struck Utley in
the arm with sufficient force that, had the blow landed on
Utley’s face, it could have knocked Utley out, (5) the assault was unprovoked as far as he could tell, (6) Broadnax
never said why he decided to strike Utley, and (7) after
the assault, Broadnax told him that he should have allowed Broadnax to strike Utley again. Testimony of Marcos Gutierrez, 48 S.F. Trial at 198-215 [41-22 ECF at 6266 of 78].
The inmate whom Broadnax assaulted in May 2009
testified that (1) he was in jail in May 2009 for a variety of
charges, including domestic violence, felony injury to a
child, and felony retaliation, (2) he later received deferred
adjudication on all his charges, (3) trash talking was common in the jail, especially late at night, (4) Broadnax and
another inmate named D’Angelo often yelled at one another all night long, (5) Broadnax and other inmates often
picked on him because of his small stature, (6) Broadnax

183a
beat him up a lot—almost every day, (7) he did not know
why Broadnax was angry with him but Broadnax had attempted to get him to give up his prescription medications, which he refused to do, (8) he often did not go to
recreation because he did not want Broadnax shaking him
down for his medications and it was too violent at recreation, (9) he never gave Broadnax any of his pills, (10) inside the jail inmates often used strings they pulled off
their bedding to pass items from one cell to another, (11)
on the day Broadnax assaulted him, he saw the punch
coming and was able to move enough to avoid getting hit
in the face, (12) Broadnax struck him in the arm, (13) he
did not strike back but just stepped back after Broadnax
struck him, (13) he denied hitting or kicking Broadnax or
saying anything to antagonize Broadnax, (14) he had been
in the general population but was beaten several times
and that was why he preferred to be in a single cell, (15)
Broadnax behaved like a bully, trash talking and making
threats, using a lot of fighting words, (16) he denies ever
calling anyone a racial epithet, taunting anyone inside the
jail, or calling anyone a “young mutt,” (17) Broadnax was
the meanest, “baddest” person in their area of the jail, (18)
Broadnax bragged about taking money from others in the
free world, (19) Broadnax said that he would not leave the
jail alive, (20) Broadnax spoke as if he were a member of
a gang, often saying the day he joined his gang was his “B
day, and (21) Broadnax often said that eventually he
would get to Utley. Testimony of Matthew Utley, 48 S.F.
Trial at 216-57 [41-22 ECF at 66-77 of 78].
A member of the Dallas Police Department’s gang unit
testified that (1) he had received on-the-job training in
street gangs, attended conferences and classes concerning gang activity, and was a member of the Texas Gang
Investigators Association, (2) his job was to gather intel-

184a
ligence on gang activity, (3) doing research into gangs often includes using information posed by the gangs themselves on Internet web sites, (4) he had watched the videos
of Broadnax’s media interviews, listened to Broadnax’s
telephone conversations, reviewed the documents found
in the vehicle in which Broadnax was arrested and the
documents and drawing taken from Broadnax’s jail cell,
to determine whether Broadnax was associated with a
gang, (5) during one of his televised interviews, Broadnax
declared that he was “folk” and threw up a hand gestures
of a pitchfork, which he believed were indications of gang
membership, (6) he believed Broadnax’s recurring use of
the term “Folks” during conversations and interviews was
a reference to the “Folk Nation,” a loose allegiance of
gangs operating between Chicago and Shreveport, which
included the “Gangster Disciples” and most of the
“Crips,” (7) members of these gangs often refer to themselves as “folk,” (8) the Gangster Disciples were a gang
founded in Chicago, (9) members of the Gangster Disciples used an upward directed pitchfork hand signal and a
six-pointed star as ways of identifying themselves, (10)
the Gangster Disciples often used the letters “G” and “D”
and the numbers “7” and “4” in their writings, including
when they tagged property, (11) the use of “7” and “4” was
because those were the numbers of the letters “G’ and “D”
in the alphabet, (12) in one of Broadnax’s telephone conversations, Broadnax used the term “OG74” which was a
reference to an “Original Gangster,” i.e., an “old school”
or longtime member of the Gangster Disciples, (13) during the same telephone conversation, Broadnax admitted
that he was a member of “that organization,” (14) the
Gangster Disciples sell narcotics, commit murders, and
commit aggravated robberies to fund their organization,
(15) while the Gangster Disciples had once walked with
the Reverend Jesse Jackson and helped to lead protests

185a
in Chicago, more recently, the group had turned to criminal activity to fund itself, (16) the founder and chairman
of the Gangster Disciples was Larry Hoover, to whom
Broadnax referred in one of his jail writings as “King
Hoover,” (17) in a letter Broadnax received from someone
in Flint, Michigan, he identified the phrase “Gangstas
make the world go round,” (18) when tagging property,
the Gangster Disciples often put wings on the figures they
create, much like the Broadnax’s addition of wings to a
heart and a bikini-clad female found in Broadnax’s jailhouse drawings, (19) two spiral notebooks found in the
trunk of the victim’s car among Broadnax’s suitcases contained numerous drawings depicting pitchforks, sixpointed stars, winged creatures, “GD74,” and the use of
the words “Folk Nation,” (20) Broadnax’s notebooks also
included multiple sets of rap lyrics that referred to the
“Folk Nation” and discussed committing murders, robberies, and drug dealing, (21) Broadnax’s drawings reflect
a “pretty good knowledge” of Gangster Disciple symbols
and imagery, (22) in addition to mentioning criminal activity, Broadnax’s raps and other writings include multiple
references to leaving no witnesses alive, i.e., references to
“body bags” and “slaughter everyone so there is no trial,”
(23) the term “flipping a gram,” used in Broadnax’s writings was most likely a reference to drug dealing, and (24)
both of Broadnax’s notebooks bear indicia of gang mentality. Testimony of Barrett Nelson, 49 S.F. Trial at 77133 [41-23 ECF at 115-71 of 198].
An assistant warden who had worked at the TDCJ’s
Polunsky Unit testified regarding the TDCJ prisoner
classification system, TDCJ’s disciplinary procedures, the
manner in which TDCJ handles gang members who are in
prison, the general layout and management of TDCJ’s
death row facilities, and the general layout and management of TDCJ’s facilities for inmates who are not on death

186a
row. Testimony of Melody Nelson, 49 S.F. Trial at 140-255
[only a portion of this testimony, i.e., pages 140-60, appears at 41-23 ECF at 178-98 of 198].
The defense called a psychologist specializing in clinical neuropsychology who (1) used visual aids in the form
of a diagram of a human neuron to describe the two main
processes in brain development: pruning and myelination;
(2) explained that “pruning,” the process through which
the billions of neurons in the human brain are trimmed to
help the brain distinguish between less effective behaviors and more effective behaviors, is not complete until
about age 22; (3) explained myelination is the process
whereby fatty sheath wrap around axons of every neuron
to help insulate the electrochemical reactions that occur
at synapses in much the same way as insulation protects
electrical wiring; (4) explained the brain of a nineteenyear-old does not function the same as an adult brain; (5)
explained the brain’s prefrontal cortex in the frontal lobes
controls executive functioning; (6) explained the amygdala in the temporal lobes, i.e., the seat of memory and
emotions, develop faster in adolescence that the rest of
the temporal lobes, which is why adolescents are more reactive emotionally than adults; and (7) explained adolescents react more emotionally, i.e., react more to stress,
than to logic, and are more emotionally volatile. Testimony of Dr. Cheryl Silver. 50 S.F. Trial at 22-76 [41-24
ECF at 17-30 of 90]. On cross-examination, Dr. Silver
acknowledged that (1) she knew nothing about
Broadnax’s maturity or level of sophistication, (2) she
could say nothing about Broadnax’s propensity for violence, and (3) she could not say that persons aged eighteen-to-twenty-one are too young to be held accountable
for a crime. Id., 50 S.F. Trial at 53-72 [41-24 ECF at 24-29
of 90].

187a
A psychiatrist who examined Broadnax at the Dallas
County Jail testified for the defense that (1) he had
treated Broadnax since July 2008, (2) on July 11, 2008
Broadnax submitted a medical request asking to see a
psychiatrist, in which he complained of insomnia, visual
hallucinations, auditory hallucinations, and paranoia, (3)
Broadnax claimed to see blood on the walls of his cell and
to hear voices, (4) Broadnax’s mental health records
showed that he had been seen on June 23 by Dr. Mirmesdagh and at that time gave no history of mental illness, (5)
there were multiple reports in Broadnax’s medical records in which he denied any mental illness, (6) Broadnax
claimed that he was on “whack,” possibly embalming fluid,
at the time he gave his interviews by television reporters,
of which he claimed to have no memory, (7) when seen in
July 2008, Broadnax was alert, oriented, but drowsy, with
blunted affect, guarded, depressed mood, agitated, suspicious, and fearful, but did not appear to be responding to
internal stimuli, (8) Broadnax stated that he had to talk to
his attorney because he had to use the insanity defense,
(9) his diagnosis was that Broadnax was suffering from
substance-induced psychosis, i.e., a visual and perceptual
disturbance resulting from PCP and marijuana abuse,
(10) he prescribed Trazodone (an antidepressant and sedative), Benadryl (an antihistamine), Bupropion (an antidepressant and stimulant), Clonazepam (an antianxiety
medication), and Risperdal (an antipsychotic), (11) PCP or
“phenylcyclidine” is a unique and dangerous drug that
was outlawed in the 1950’s after patients using it as a surgical sedative reported side-effects similar to schizophrenia, (12) medical notes from October 6, 2008 indicate
Broadnax complained of auditory and tactile hallucinations and requested an increase in his medications, (13)
schizoaffective disorder is an overlapping of a mood disorder (such as depression) with a thought disorder (such as

188a
hallucinations), (14) by November 4, 2008, Broadnax’s
psychotic symptoms had improved as the toxic effects of
whatever drugs Broadnax had taken were likely fading,
(15) he diagnosed Broadnax with post-traumatic stress
disorder (“PTSD”) but could not rule out the possibility of
antisocial personality disorder (“ASPD”) because he had
no information on Broadnax’s life prior to age fifteen, (16)
a very high percentage of people in jail are diagnosed with
ASPD, (17) when examined on November 4, 2008,
Broadnax displayed a blunt affect, depression, and dysphoria, was fearful, displayed a concrete thought process,
no hallucinations or delusions but did show the effects of
an oral cavity infection and PTSD-like symptoms, (18)
when seen on November 6, 2008, Broadnax was diagnosed
with major depressive disorder, generalized anxiety, and
schizoaffective disorder, (19) when seen on February 18,
2009, Broadnax was diagnosed with insomnia and anxiety,
stated that he was reading the Jason Bourne novels, and
appeared alert, oriented, and more positive and hopeful,
with no hallucinations, normal motor activity, but still
some anxiety over his legal problems, (20) because of
Broadnax’s continued depression/mood disorder and continued display of some PTSD symptoms, on February 14,
2009, two new anti-depressants, Doxepin and Mirtazepine
were added to Broadnax’s prescription list, and (21)
Broadnax voiced no significant problems during a June
16, 2009 follow-up examinations, at which time Wellbutrin
was discontinued in lieu of Zoloft. Testimony of Dr. Frank
Lane, 50 S.F. Trial at 77-170 [41-24 ECF at 30-54 of 90].
On cross-examination, Dr. Lane (1) admitted that all
of Broadnax’s mental health symptoms were self-reported, (2) agreed that Broadnax had submitted numerous sick call slips during his time at the Dallas County Jail
stating that he was fine and wanted out of suicide protec-

189a
tion protocol, (3) agreed there was no evidence establishing that Broadnax had ever reacted to internal stimuli
during his stay at the jail, (4) read into the record the definition and characteristics of ASPD from edition IV-TR of
the Diagnostic and Statistical Manual of the American
Psychiatric Association (which was admitted into evidence as State Exhibit no. 582), and admitted that he
never actually diagnosed Broadnax with schizoaffective
disorder. Id., 50 S.F. Trial at 114-62 [41-24 ECF at 40-52
of 90]. During Dr. Lane’s cross-examination, the prosecution played for the jury a series of recordings of
Broadnax’s telephone conversations. In the January 22,
2009 recording, portions of which were admitted and
played for the jury in open court as State Exhibit no. 562,
Broadnax informed his mother that (1) he had injured his
hand in a fight the day before, (2) he had written some
more raps, and (3) you can smoke inside the jail as long as
you don’t get caught doing it. In the March 25, 2009 recording, admitted as State Exhibit nos. 550 & 560,
Broadnax discussed an electrical fire inside the jail, discussed his then-on-going plea bargain negotiations, and
advised that he had rejected and would not accept a plea
offer of life without parole. In a recording made April 1,
2009 admitted into evidence as State Exhibit nos. 549 &
559 (excerpts only), Broadnax (1) jokingly stated that he
had received a plea offer of a 25-year sentence with the
possibility of parole, (2) explained that one of his mother’s
ex-husbands had attempted to rape his sister, (3) explained his mother had gone to jail for writing hot checks,
and (4) explained that he had not seen his younger brother
Michael since Michael was three months old. In the recording excerpts admitted as State Exhibit no. 559,
Broadnax (1) can be heard stating that his aunt Alice
Gatewood would get what was coming to her, (2) stating

190a
that his sister had been raped, and (3) threatening to put
a slug in someone.
A professor and researcher in clinical pharmacology at
the University of Texas Health Science Center in San Antonio testified for the defense that (1) the “wet blunt”
Broadnax stated he smoked the night of the murders was
most likely a mixture of marijuana with PCP and formaldehyde, (2) this opinion was consistent with Dr. Lane’s diagnosis of substance abuse-induced psychosis, (3) PCP
was originally used as an anesthetic but was taken off the
market after patients reported post-surgical reactions including hallucinations and psychotic behavior, (4) PCP is
still used experimentally to induce schizophrenia and psychotic behavior in animals and increases aggression and
hostility, (5) his opinion is also supported by the fact that,
in one of his television interviews, Broadnax claimed he
“blanked out” and saw colors during the murders, (6) a
variety of genetic and environmental factors influence
drug abuse, (7) drug abuse retards brain development and
causes changes in brain chemistry, and (8) while
Broadnax was not intoxicated at the time of the offense,
Broadnax was under the influence of a drug-induced psychosis. Testimony of Dr. John Roache, 50 S.F. Trial at
171-220 [41-24 ECF at 54-66 of 90].
On cross-examination, Dr. Roache (1) admitted he had
not interviewed Broadnax or any members of Broadnax’s
family and had not reviewed any of Broadnax’s school records before reaching his opinion, (2) he was not a psychiatrist but a clinical pharmacologist, (3) he believed that
while Broadnax was not intoxicated at the time of his interviews, Broadnax was still under the influence of PCP
at that time, (4) there have been reports of the effects of
PCP being apparent even days after use of the drug, (5)
there is no literature in the medical community linking

191a
PCP use with violence, (6) he had no access to any of the
recordings of Broadnax’s jail telephone calls, (7) during
one of his interviews, Broadnax described how he asked a
victim for a cigarette before he fatally shot him while the
man was reaching for a cigarette, and (8) Broadnax did
not show any signs of intoxication during his initial postarrest interview by the Garland Police Department and
did not confess during that interview. Id., 50 S.F. Trial at
192-216 [41-24 ECF at 59-65 of 90].
A cousin of Broadnax’s mother, a resident of Hope, Arkansas, testified that (1) Broadnax’s mother was raised by
their maternal aunt (Betty Eason), (2) she had known
Broadnax his whole life but only seen him occasionally, (3)
Broadnax has an older brother named Aaron, two older
sisters, and a younger brother named Michael, (4)
Broadnax’s sisters were raised by their father in Michigan, (5) Broadnax’s younger brother lives with his father,
(6) she saw Broadnax when he was young and his mother
moved back to Texarkana and then again at age ten, (7)
Broadnax’s mother was arrested for writing hot checks,
which is when his sisters moved to Michigan to live with
their father, (8) she had little contact with Broadnax when
he was a child, and (9) his mother treated Broadnax’s sisters well. Testimony of Clara Holyfield, 50 S.F. Trial at
221-39 [41-24 ECF at 66-71 of 90].
A sister of Broadnax’s mother testified that (1) she
first saw Broadnax at age two months at her father’s funeral when Broadnax’s mother was married to James
Broadnax, (2) at that time, Broadnax’s mother was in the
Army and stationed in California, (3) Broadnax’s mother
moved to Hope, Arkansas when Broadnax was three or
four years old, (4) Broadnax’s relationship with his
mother was “okay,” (5) Broadnax’s mother moved around
quite a bit, (6) Broadnax lived with her when he was in

192a
third grade and was not a problem child, was respectful,
(7) at that time., Broadnax’s mother had remarried and
moved, (8) Broadnax grew up in a lot of places and lived
with her on four different occasions, the last time when he
was in eleventh grade, (9) she always treated Broadnax
like a son, (10) when Broadnax was thirteen or fourteen,
his mother married a nice man who lived in Arkadelphia,
named Darryl Maxwell, (11) Broadnax lived with them for
about three years then moved back in with her around age
sixteen, (12) by then, Broadnax was skipping class and
truant, (13) Betty Eason always treated Broadnax like an
outcast because James Broadnax was not Broadnax’s biological father, (14) Broadnax’s father was “some white
man,” (15) Betty Eason hated white people, (16) that was
why Betty Eason did not like Broadnax, (17) Broadnax’s
mother was unstable and not the best mother, (18)
Broadnax’s mother was always in relationships that were
not good, (19) Broadnax did well in school despite the fact
no one motivated him to work hard in school, (20)
Broadnax was “pretty intelligent” but when he grew older
did smoke pot occasionally, and (21) she was unaware that
Broadnax had been arrested for possession of marijuana
prior to his arrest for capital murder. Testimony of Teresa
Thompson, 50 S.F. Trial at 240-72 [41-24 ECF at 71-79 of
90].
Another of Broadnax’s aunts testified that she saw
Broadnax daily when he lived in Michigan for a few
months and she never had any trouble with him. Testimony of Vicki Biggs, 51 S.F. Trial at 187-98 [Volume 51 of
the Statement of Facts from Broadnax’s trial was not filed
electronically by Respondent but does appear on the CDROM marked “Volumes 1-54 & Supp. Volumes” submitted by Respondent along with the audio and video recordings admitted into evidence at Broadnax’s trial.]

193a
A cousin of Broadnax’s mother testified that (1)
Broadnax’s mother has a good heart but falls short as a
mother at times, (2) Broadnax did not have a lot stability
in his life, (3) Broadnax’s mother was not a mother figure
to Broadnax and dropped Broadnax off with others to
raise far too often, (4) Broadnax’s mother abandoned
Broadnax, leaving him to stay with Betty Eason on multiple occasions, (5) Broadnax grew up somber, quiet, and
reserved, (6) Broadnax was not physically abused by his
mother but was abused verbally, especially by Betty Eason, who had abused Broadnax’s mother when she was
growing up, (7) Broadnax’s mother was physically abused
by the men in her life but she never saw any of those men
abuse Broadnax, (8) when Broadnax’s mother was
charged with a crime, specifically abusing her daughter
NiQuia, Broadnax’s older sisters went to Michigan to live
with their father, (9) Broadnax’s mother abused marijuana, pills, and alcohol and once experimented with crack,
(10) Betty Eason was both verbally and physically abusive
toward Broadnax, locking Broadnax outside her house on
multiple occasions when he was a teenager and refusing
to allow him inside to get water or food on extremely hot
days, (11) Betty Eason often threw objects at Broadnax,
including a glass ash tray, (12) Betty Eason called
Broadnax “half breed,” “nasty,” and “trifling,” and called
Broadnax’s mother a disgrace for having borne Broadnax,
(13) Betty Eason loved and doted on Broadnax’s older
brother Aaron but had no love for Broadnax, (14)
Broadnax was hurt by Betty Eason’s words and actions,
(15) Betty Eason told the children she raised not to play
with white people because they meant them no good, (16)
Broadnax never retaliated when Betty Eason struck him,
he just cried, and still respected and loved her, (17) she
last saw Broadnax two years before that in Hope, when
Broadnax was doing well, (18) as far as she was aware,

194a
prior to his capital offense, Broadnax had never been violent, had not been involved in any criminal activity, and
was always respectful, (19 Broadnax was not involved in
gang activity, and (20) Broadnax’s family let him down.
Testimony of Jackie Aaron, 51 S.F. Trial at 255-76.
Broadnax’s mother testified at great length and in
great detail that (1) when she very young her father took
her and her older brother to live with his sister-in-law and
her husband (Betty and Glen Eason) in Hope, Arkansas,
(2) she never saw her parents again, (3) Betty and Glen
Eason adopted her and raised her as their own, (4) as an
adult, she had joined the Army and lived in California,
Texas, Georgia, Michigan, and Arkansas, (5) she was now
working as a long haul trucker, (6) her oldest child, Aaron
was then in custody in McLennan County in connection
with a parole revocation proceeding relating to a sexual
assault conviction, specifically for failing to register as a
sex offender, (7) Aaron was born when she was sixteen
years old, (8) Aaron’s father was her high school crush,
whom she never married, (9) she became married at age
eighteen to a man in the Air Force, who lived in England
for three years while she remained at home, (10) she and
her first husband had a daughter, NiQuia Marie, (11) they
moved to Michigan after her first husband left the Air
Force, where they had a second daughter, Kerrin, (12) in
March 1987 she joined the Army and was sent to Fort
Sam Houston in San Antonio for training in pharmacy
work, (13) she was then sent to Fort Ord, California outside Monterrey, (14) she and her first husband divorced
in 1988, (15) while at Fort Ord, she met and had a liaison
with a white co-worker that resulted in Petitioner’s conception, (16) her father Glen Eason died in November,
1988, shortly after Petitioner’s birth, (17) she married a
man named James Broadnax in 1989, (18) her then-husband, a black man, without her knowledge put his name

195a
on Petitioner’s birth certificate as Petitioner’s father, (19)
Petitioner never met his biological father but she told Petitioner about him, (20) she was honorably discharged
from the Army, (21) two years after marrying James
Broadnax, she became pregnant with her last child, Michael, who was born in November 1989, (22) she divorced
James Broadnax in July 1990, (23) when she attempted to
leave James Broadnax prior to their divorce, he rammed
his vehicle into the vehicle in which she and her children
were driving, causing her vehicle to flip three times, and
forcing her to the go to the hospital, (24) James Broadnax
was arrested for ramming her vehicle but a few months
later, James Broadnax grabbed and fled with baby Michael, (25) police in California refused to help her, telling
her that he ex-husband James Broadnax had a right to his
son, (26) she was unable to hire an attorney to fight for
Michael’s custody, (27) Michael grew up with her ex-husband James Broadnax in Tulsa, Oklahoma, (28) she moved
back to Hope, Arkansas with Petitioner and, in 1991,
joined the Army Reserves, (29) she later married Darryl
Maxwell and lived with him in Arkadelphia, Arkansas,
with Petitioner, (30) after three years, in 1996, she divorced Maxwell and moved back to Hope, Arkansas, (31)
she experienced alcohol-related problems, (32) child protection authorities brought charges against her for injury
to a child when her daughter NiQuia was seven years old,
(33) as a result, both of her daughters went to live with
their father in Michigan, (34) she experimented with
drugs occasionally, including crack once, (35) she lived
with Richard Wimbley for six years, (36) she wrote bad
checks while living with Wimbley and went to prison in
February 2001 for six months, (37) Broadnax was twelve
or thirteen at the time of her incarceration, (38) Wimbley
and many of her other male partners were physically abusive toward her, (39) Broadnax witnessed those men

196a
treating her abusively, (40) when she was released from
prison, Broadnax was no longer a happy child, (41) her
mother (Betty Eason) treated Broadnax poorly because
he was half-white, on one occasion when she was in jail,
Wimbley attempted to molest NiQuia, (42) Wimbley went
to prison in 2001, (42) when she was released from prison,
she went to live in Texarkana and, later, Dallas in 2003,
where she lived with her sister, Raleshia Cummings, the
mother of Demarius, (43) she and Broadnax moved to San
Antonio for six months when Broadnax was fourteen or
fifteen and then back to Texarkana for a few months and
then back to Dallas in 2004, (44) she married Russell Kelly
in June 2004, (45) Broadnax stayed with her sister in Arkansas while she went on the road with Kelly, (46) Kelly
was verbally and physically abusive toward her and
Broadnax saw bruises on her several times, (47) she later
learned Kelly had a drug problem (crack cocaine) and had
done time in prison for drug trafficking, (48) Broadnax did
not like Kelly, (49) after she and Kelly separated, Kelly
went to Memphis and she went to Mt. Vernon, (50) by the
time they reached Mt. Vernon, Broadnax was two years
behind in school, (51) after she found a job in Mt. Vernon,
Kelly moved back in with her, (52) later, she, Broadnax,
and Kelly moved to Fort Worth, (53) she and Kelly separated again and she and Broadnax moved back to Arkansas, (54) in Texarkana, Broadnax briefly lived with Betty
Eason and then moved out on his own, (55) she went to
truck driving school and then moved to Memphis in 2006,
(56) she later got back with Kelly while Broadnax was living in Dallas with Alice Gatewood, (57) she later went to
Georgia to live with one of her daughters, (58) Broadnax
visited them in Georgia, (59) she wired money for the bus
fare Broadnax used to travel to Georgia, (60) she later
went on the road and left Broadnax in Georgia in the Fall
of 2007, (61) at that time, Broadnax was attempting to find

197a
a job and needed his California birth certificate, (62)
Broadnax left Georgia for Michigan to take NiQuia’s son
Treybeon to see his father (Darnell Wynn), (63) she lived
with Alice Gatewood in Dallas in April 2008 and sent
Broadnax money to come there from Michigan, (64)
Broadnax lived in Dallas with Alice Gatewood, (65) she
has never known Broadnax to be violent, (66) both
Broadnax and Demarius Cummings are good persons,
(67) Broadnax held one job, did not have a driver’s license,
and wanted to be an architect. Testimony of Audrey Kelly,
50 S.F. Trial at 274-308 [41-24 ECF at 80-90 of 90]; 51 S.F.
Trial at 28-93, 133-37.
On cross-examination, Broadnax’s mother (1) admitted Broadnax knew the difference between right and
wrong and was not mentally retarded, (2) testified
Broadnax was always well-clothed and well-fed, (3)
claimed she had never beaten or abused Broadnax, (4)
Broadnax’s “Aunt Betty” loved Broadnax and Broadnax
loved his “Aunt Betty” but Aunt Betty did not believe in
mixing the races, (5) after Broadnax’s “Aunt Betty” died,
Broadnax called his mother from jail and said he was going to tattoo Aunt Betty’s name and date of birth on himself, (6) she had counseled Broadnax not to talk with Demarius Cummings’s sister Lakarrame Cole, (7) Broadnax
had asked her advice on pursuing “the crazy defense,” and
(8) Broadnax asked her to send him a copy of The Art of
War. Id., 51 S.F. Trial at 93-133, 137-40.
The estranged husband of NiQuia Wynn testified that
(1) Broadnax came to Michigan in January 2008 to escort
his son Treybeon, (2) Broadnax remained in Michigan until the end of April, (3) he met Broadnax in Hope, Arkansas in 2007, (4) in Arkansas, Broadnax lived with them and
watched their son, (5) Broadnax did a good job taking care
of their son, (6) Gangsta rap music has violence and drugs

198a
as common themes, (7) he had never known Broadnax to
be violent or in a gang, and (8) he is aware that the Gangster Disciples use a pitchfork and “GD” as symbols. Testimony of Darnell Wynn, 51 S.F. Trial at 155-86.
Broadnax’s high school age cousin from Eldorado, Arkansas testified that (1) he has been close to Broadnax
since he was four or five years old, (2) Broadnax always
wanted to be an architect, (3) Broadnax’s mother is
“sweet” but Russell Kelly is abusive and has a history of
“putting hands on” Broadnax’s mother, (4) there is plenty
of gang activity in Eldorado, (5) Broadnax said he was involved in “74G” at one point, (6) Broadnax writes free
style rap lyrics similar to those of major rap performers,
and (7) Broadnax has counseled him to stay in school and
get his education and stay away from gangs. Testimony of
Gary Aaron, 51 S.F. Trial at 203-24.
Broadnax’s college age cousin testified (1) he attends
Arkansas State University, (2) Broadnax was a “normal”
kid despite never having a stable home, (3) after Broadnax
moved to Texarkana, he shared a room with Broadnax, (4)
Broadnax told him and his sister that he felt misplaced
and unwanted, (5) Broadnax was sad and lonely, often
cried, and felt unloved, (6) Betty Eason belittled
Broadnax and often called Broadnax “half baked” and
said Broadnax’s mother did not want him, (7) Broadnax
once began working toward a GED but stopped because
of a lack of transportation, (8) Broadnax draws well and
wanted to become an architect, (9) Broadnax also wanted
to get into the Job Corps, (10) he was unaware of any gang
involvement by Broadnax, who was never violent, (11)
Broadnax’s only guidance when living in Arkadelphia was
Darryl Maxwell, and (12) “Big Mama” Betty Eason
treated Aaron better than she treated Broadnax. Testimony of Kevon Eason, 51 S.F. Trial at 225-54.

199a
The Dallas County Jail inmate with whom Broadnax
fought on January 21, 2009 testified that (1) he and
Broadnax fought in the recreational area after he had
been angrily yelling from his cell and Broadnax yelled
back for him to “give it up to God” and “let it go,” (2) he
struck Broadnax with his fists in an attempt to take out
his anger on Broadnax, and (3) Broadnax got the better of
him during their fight. Testimony of Tre’vaun Miller, 51
S.F. Trial at 277-98.
One of Broadnax’s neighbors in Arkansas testified via
deposition that (1) the neighborhood in which Broadnax
resided as a child was “crack infested,” (2) Broadnax was
always hungry as a child, (3) Broadnax’s mother did not
take good care of him but did feed him, (4) she observed
Broadnax on one occasion with bruises and a knot on his
head, (5) she once asked to let Broadnax live with her family but Broadnax’s mother demurred, (6) she took
Broadnax to church with her family for about three to four
months, (7) Broadnax had no structure in his home life
and seemed troubled, (8) Broadnax spoke little as a child
and was withdrawn, and (9) she last saw Broadnax two
years before as he rode a bicycle in Hope, Arkansas. Testimony of Francine Mazone (as read by Keri Mallon), 52
S.F. Trial at 8-36 [40-1 ECF at 11-18 of 83].
Another former neighbor of Broadnax’s family testified via deposition that (1) Broadnax’s older brother Aaron was locked up somewhere in Texas, (2) Broadnax’s
mother did not have a relationship with Broadnax, never
bonded with Broadnax, and was never very stable in her
personal life, (3) the best time Broadnax enjoyed growing
up was when he lived with Darryl Maxwell—which was
Broadnax’s only stable childhood relationship, (4)
Broadnax moved around a lot growing up, (5) Broadnax’s
mother left him with whoever would take him in, (6) as a

200a
child, Broadnax acted afraid and would clam up, (7)
Broadnax’s mother once beat him so badly his back looked
like a slave’s, (8) Broadnax’s mother was unstable, (9)
Betty Eason was mean to Broadnax and refused to allow
him to eat with the other children, forcing Broadnax to
sneak food, (10) Betty Eason did not like Broadnax because he was half-white, (11) Betty Eason would verbally
and physically abuse Broadnax (slapping him so hard that
she left hand prints on Broadnax’s face), (12) Betty Eason
was equally cruel and abusive toward Broadnax’s mother,
(13) Betty Eason also locked Broadnax outside on hot
days without access to food or water, (14) Broadnax’s
mother dropped Broadnax off with people she didn’t
know, (15) the men in her life ruled Broadnax’s mother,
(16) Broadnax’s mother never showed any love to
Broadnax—no one did, (17) Broadnax quit school in the
tenth grade because he had nothing to wear to school, (18)
Broadnax was never violent and never argued with anyone, (19) she had never seen Broadnax under the influence
of drugs or alcohol, (20) on one occasion when Broadnax
was three or four, Broadnax’s mother beat him so badly
his back split open, (21) Broadnax’s mother wanted her
own life so she dropped Broadnax off with others, (22)
Broadnax’s mother was “mental,” and (23) Broadnax
never retaliated when he was beaten. Testimony of
Juanita Mayes, 52 S.F. Trial at 37-83 [40-1 ECF at 18-29
of 83]. On cross-examination, she admitted that, despite
the abuse she witnessed Broadnax suffering, she never
called child protective services or law enforcement to report any of that abuse. Id., 52 S.F. Trial at 82 [40-1 ECF
at 4964].
Broadnax’s sister NiQuia testified that (1) their
mother physically abused both her and her sister to the
point she and her sister both went to live with their father
in Michigan, (2) their family moved around a lot when she

201a
was young, (3) “Big Mama” Betty Eason beat both her
and her sister, (4) Broadnax’s mother was equally abusive,
on one occasion, grabbed her by the throat and throwing
her against a wall when she very young, breaking her arm
in the process, (5) Broadnax, who was in diapers at that
time, witnessed that incident, (6) despite that history of
abuse, when she was in high school she moved in with her
mother in Texarkana, (7) after high school she married
and moved to Georgia, (8) during his teenage years,
Broadnax became romantically involved with a young
woman whose family did not approve of Broadnax, (9) after a fight with his girlfriend, Broadnax moved in with her
family in Georgia, (10) while in Georgia, Broadnax took
care of her children, (11) Broadnax’s girlfriend later
talked him into moving back to live with her, (12) after another fight with his girlfriend Broadnax again moved to
Georgia to live with her and her family and to take care of
her son Tre’vaun, (13) in January 2008 Broadnax took
Tre’vaun to Michigan to see Tre’vaun’s father, (14)
Broadnax and Tre’vaun accompanied her friend Trina on
that trip, (15) Broadnax talked about gangs but she did
not believe he was actually in one, (16) she believes that
Broadnax is a “Wannabe” gang member, (17) their older
brother Aaron is a member of the Gangster Disciples, (18)
Broadnax knows about that gang through their older
brother, (19) Broadnax would hang out with a friend
named Mario who she believes is a “wannabe” Blood, (20)
since Bloods and Gangster Disciples do not hang out together, she believes Broadnax is not a gang member, (21)
she has never seen Broadnax violent and had never heard
Broadnax called women “bitches,” but (22) she does know
Broadnax smokes weed. Testimony of NiQuia Wynn, 52
S.F. Trial at 99-113 [40-1 ECF at 33-37 of 83]. [Please note
the spelling of Niquia Wynn’s son’s name appears in the
trial record at various points as either “Treybeon” or

202a
“Tre’vaun.”]. On cross-examination, she admitted that (1)
Broadnax is quick-witted, loquacious, and has no problem
getting girlfriends, (2) members of the Gangster Disciples
call each other “Folk,” (3) the letters “OG” refer to a
Gangster who has been around awhile, (4) their brother
Aaron is in jail, (5) Broadnax’s friend Mario is a “wannabe” Blood, (6) Broadnax has never rapped about killing
anybody, (7) you don’t have to be in the Gangster Disciples to know their signs and symbols, (8) the Gangster
Disciples is a ruthless street gang, (9) the clothing
Broadnax had with him when arrested is not inexpensive
but, rather, included a number of items of expensive
brands, and (10) while their mother abused them, she always made sure they had what they needed. Id., 52 S.F.
Trial at 113-44 [40-1 ECF at 37-45 of 83].
Broadnax’s mother’s third husband testified that (1)
he is currently an assistant minister, (2) he went to high
school with Broadnax’s mother but was a few years behind her and did not know her at that time, (3) they met
again years later when they worked together, (4)
Broadnax’s mother got in trouble for hot checks and he
tried to help her out, (5) they married in the early nineties,
(6) he did not know Broadnax was her son, (7) Broadnax’s
mother seemed to have three very different personalities,
was very jealous, and at times violent, (8) on one occasion,
Broadnax’s mother hit him with a glass jar and cut him,
(9) on another occasion when they were visiting Betty Eason’s home, Broadnax’s mother bit him on the chest, (10)
on another occasion, Broadnax’s mother bit his hand, (11)
about a year and a half after they married, Broadnax’s
mother informed him that Broadnax was her son and
brought Broadnax over to live with them, (12) at that time,
Broadnax was a young boy and a mess, in need of a bath,
(13) while bathing Broadnax, he found a fully grown cockroach inside Broadnax’s ear, (14) Broadnax was never a

203a
problem for him, (15) he bonded with Broadnax and they
went fishing and to church together, (16) Broadnax’s older
brother Aaron later came to live with them, (17)
Broadnax’s mother was prone to sudden mood swings and
would suddenly start throwing things, (18) on one occasion, Broadnax’s mother beat Broadnax savagely, (19) after that beating, Aaron came and brought him to see
Broadnax’s bloody back, (20) he became so distraught, he
threw Broadnax’s mother out of his home, and (21)
Broadnax’s mother left with Aaron and Broadnax. Testimony of Darryl Maxwell, 52 S.F. Trial at 146-73, 184-87
[40-1 ECF at 45-52, 55 of 83]. On cross-examination, Maxwell admitted that he never reported Broadnax’s mother’s
abuse of Broadnax to law enforcement authorities and
never took Broadnax to the hospital for treatment of the
injuries inflicted by Broadnax’s mother. Id., 52 S.F. Trial
at 173-84 [40-1 ECF at 52-55 of 83].
Called in rebuttal by the prosecution, an investigator
for the Dallas County District Attorney’s Office identified
call logs (State Exhibit nos. 890 & 591) and a set of recordings of Broadnax’s telephone conversations from August
12, 2009 (State Exhibit no. 592) that were admitted into
evidence. Testimony of David Barger, 52 S.F. Trial at 199212 [40-1 ECF at 58-62 of 83]. State Exhibit no. 592 contains recordings of eight different telephone conversations between Broadnax and a female acquaintance on August 12, 2009. In the first such conversation, which commenced at approximately 4:34 PM, Broadnax can be
heard laughing and joking while he and his friend discuss
the fact the jury returned its guilty verdict after deliberating only forty minutes. In the next conversation, which
began at approximately 4:55 PM, Broadnax asks his
friend to contact one of his relatives and find out why that
relative has been called to testify at the punishment phase
of his trial. The next such conversation, which began

204a
around 5:31 PM, includes Broadnax giving detailed instructions to his friend regarding how to complete a threeway telephone call to a female acquaintance of Demarius
Cummings and Broadnax’s instructions regarding passing along a message from Cummings to that young
woman. In the next such conversation, which began
around 8:55 PM, Broadnax explained to his friend that,
during the trial, when the prosecution showed the crime
scene photographs of his victims’ bloody bodies, the victims’ families became agitated, stood up, and began crying. In the next such conversation, which began around
9:15 PM. Broadnax discussed how he “zoned out” during
the trial and found himself wondering how he had gotten
to that point in his life. The three remaining telephone
conversations, which began around 9:30 PM, 11:19 PM,
and 11:34 PM, respectively, are progressively more lurid
in content and do not justify summarization. It will suffice
to explain that Broadnax’s vocal demeanor throughout all
of his conversations on that day reflected that of a teenager seemingly far more interested in flirting shamelessly
with his female acquaintance than in discussing the seriousness of his legal situation.
Another rebuttal witness, a legal adviser to the Dallas
County Sheriff, identified Broadnax’s jail commissary
record and testified that Broadnax received multiple deposits into his inmate trust account from his mother, as
well as from two other women, including the young
woman with whom Broadnax carried on his conversations
on August 12, 2009. Testimony of Elizabeth Lutton, 52
S.F. Trial at 231-38 [40-1 ECF at 66-68 of 83].
The clinical and forensic psychologist called by the
prosecution in rebuttal testified that (1) he would not testify that Broadnax is a psychopathic personality, (2) he
was not going to express an opinion as to Broadnax’s state

205a
of mind at the time of his offense, (3) psychopathy or “psychopathic personality” is a label roughly comparable to
what is known as ASPD, (4) it consists of a cluster of traits
that describe a person’s behavior, emotions, the way they
interact with others, i.e., long-standing personality traits
or a personality disorder, (5) psychopathic personality
traits include (a) “glibness,” i.e., a superficial charm and
superficial knowledge of any area and the ability to speak
in an amusing, entertaining manner, (b) “grandiosity,”
i.e., a grandiose sense of self-worth, an inflated ego, which
can be reflected in an insensitivity to their own legal problems, (c) “stimulus seeking,” i.e., a need for excitement,
desire for life in the fast lane, a tendency to become bored
easily, which can often lead to alcohol or drug abuse, (d)
“pathological lying,” i.e., the tendency to lie when the
truth would serve them better and the tendency to lie frequently without embarrassment, (e) “manipulative,” i.e.,
tendency to employ scheme and scams to get what they
want, in other words, “the ability to engage in fast talking
to slow people,” (f) “lack of remorse or guilt,” i.e., a lack of
concern over what their behavior has done to others, lack
of sense of guilt or remorse, the tendency to blame others
or “the system,” (g) “shallow affect,” i.e., little expression
of emotion other than anger, a cold and unemotional demeanor, and an inability to describe their emotions or to
express any emotion other than anger, (h) “callous; lack of
empathy,” i.e., selfish, lack of concern for others, tendency
to be a loner by choice, (i) “parasitic lifestyle,” i.e., financial dependence on others as a way of life, a lack of interest
in regular jobs or steady employment, tendency to find
someone whom they can live off of, (j) “poor behavioral
controls,” i.e., a bad temper, tendency to be angered easily
and to become aggressive over small things, (k) “promiscuous sexual behavior,” i.e., tendency to see sex as impersonal, casual, trivial, viewing sex as an end in itself, not as

206a
part of a relationship, and tendency to have multiple sexual partners, (l) “early behavioral problems,” i.e., criminal
lifestyle (whether caught or not, whether incarcerated or
not) starting at an early age (around age twelve), (m) “lack
of realistic long term goals,” i.e., the tendency to live dayto-day with no long term plans and a lack of concern over
not having achieved goals in the past, (n) “impulsivity,”
i.e., tendency to act without thinking, without understanding or considering consequences, a lack of reflection on
the impact of their actions on others, tendency to act on
the spur of the moment, (o) “irresponsibility,” i.e., little
sense of loyalty or duty to family or others and a lack of
commitment, both financially and otherwise, to others, (p)
“failure to accept responsibility for their own actions,” i.e.,
an inability or unwillingness to accept full responsibility
for their own criminal or non-criminal behavior, tendency
to give excuses and make rationalizations, (q) “many short
term marital relationships,” i.e., tendency to display a lack
of commitment to others, a lack of loyalty to others, (r)
“early problems at school,” i.e., truancy prior to age
twelve, (s) “revocation of conditional release,” i.e., tendency to fail to fulfill conditions or probation or parole,
and (t) “criminal versatility,” i.e., escalation of criminal behavior over time, movement from less violent to more violent behaviors, (6) a true psychopathic personality is an
exceedingly rare condition, and (7) there is no effective
treatment for a psychopathic personality, i.e., while it can
be managed it cannot be cured. Testimony of Dr. Jack
Randall Price, 52 S.F. Trial at 239-65 [40-1 ECF at 68-75
of 83]. On cross-examination, Dr. Price (1) admitted the
definition of “psychopathic personality” is not found in the
DSM-IV-TR and is not an official diagnosis but is still recognized within the psychological community, (2) testified
the closest diagnosis in the DSM-IV-TR is ASPD, (3) tes-

207a
tified not everyone with the traits he listed has a psychopathic personality, (4) about eighty-five percent of the
people in jails qualify as ASPD whereas between fifteen
to twenty-five percent of the general population displays
ASPD, and (5) immaturity can result in some psychopathic traits, including impulsivity and self-centeredness.
Id., 52 S.F. Trial at 259-63 [40-1 ECF at 73-74 of 83].
Swan’s sister testified that (1) Swan had been her best
friend, (2) she learned to play the guitar early on thanks
to him, (3) she had experienced “a hard time” since his
death in playing guitar, (4) when law enforcement officers
notified her of her brother’s murder, she became so emotional she was unable to pass that information on to her
mother over the telephone and handed her phone to the
police officers who were present, (5) because she was responsible for putting together the funerals for Swan and
Butler, she was unable to grieve until after the joint funeral, and (6) her late brother had successfully fought
Hodgkins Lymphoma. Testimony of Deborah Swan, 52
S.F. Trial at 273-86 [40-1 ECF at 77-80 of 83]. Swan’s
younger brother testified that (1) Swan was a good
brother, a good musician, a programmer, and a gentle
man and (2) he was no longer able to smile the same way
since his brother’s murder. Testimony of Michael Swan,
52 S.F. Trial at 265-72 [40-1 ECF at 75-77 of 83].
III. SYNOPSIS OF EVIDENCE FROM STATE
HABEAS PROCEEDING
Broadnax presented a wide array of evidence to the
state habeas court. A criminal defense attorney testified
that (1) Dallas County policy called for appointment of
counsel in capital cases within one working day of the defendant’s filing of a request for appointment of counsel,
(2) the current Dallas County plan called for the “prompt
appointment of counsel,” (3) she believed arraignment is

208a
a critical stage of the criminal justice process and immediate appointment of counsel in capital cases is preferred,
(4) most capital defendants are not high functioning mentally, (6) if she had been appointed to represent Broadnax
promptly she would have advised him against giving any
interviews, and (7) one of her clients gave an interview
prior to learning of her appointment. Testimony of Catherine Bernhardt, State Habeas Corpus Evidentiary Hearing December 7, 2012 (henceforth “S.F. State Habeas
Hearing”), at 22-50 [42-17 ECF at 7-14 of 44].
A second criminal defense attorney testified that (1)
her practice is to visit her clients in jail as soon as possible
after appointment, (2) most capital defendants are not
high functioning, (3) she has represented one capital defendant who was schizophrenic and another who was mentally retarded, (4) she once stopped the police from taking
a statement from one of her clients, (5) jailers frequently
encouraged inmates to talk to the press, and (6) she had
six capital defendants who had experienced considerable
delay in appointment of counsel. Testimony of Brooke
Busbee, S.F. State Habeas Hearing at 51-69 [42-17 ECF
at 14-19 of 44].
A third, even more veteran criminal defense attorney
testified that (1) his first priority at every initial meeting
with a criminal client is to tell that client “keep your mouth
shut,” (2) his clients run the gamut in terms of intelligence, (3) currently, it is common for a delay of one to two
days in him learning that he has been appointed in a high
profile case, which often results in his clients being interviewed before he is even aware of his appointment, (4) on
one occasion, he was notified within two hours of his appointment yet his client had already given a media interview, (5) the media are not under the same restrictions as
law enforcement when it comes to interviewing a criminal

209a
suspect, (6) the Dallas County Sheriff’s Office makes
available to jail inmates a form that asks a jail inmate if he
wants to “tell his side of the story” to the media, (7) in his
opinion, media interviews are a critical stage of the criminal justice process, and (8) the Dallas County Sheriff’s Department encourages jail inmates to give media interviews. Testimony of William E. Karo Johnson, S.F. State
Habeas Hearing at 88-113 [42-17 ECF at 23-30 of 44].
The court-appointed investigator for Broadnax’s defense team, Clifton Jenkins, furnished an affidavit accompanying Broadnax’s state habeas corpus application. In
his affidavit Jenkins stated that (1) he undertook an investigation prior to Broadnax’s trial to attempt to find evidence showing the television and newspaper reporters
who interviewed Broadnax were acting as “state agents”
which could be used to help Broadnax’s attorneys to suppress Broadnax’s media interviews, (2) he met with attorneys for one station who refused to give him any helpful
information, (3) he was told by an employee at another
station that he would not be allowed to enter the building
without an appointment, (4) his subsequent efforts to obtain an appointment proved unsuccessful, (5) employees
of two other stations informed him their stations relied
upon public databases, telephone calls to public information officials with law enforcement agencies, and online
sources to learn when a suspect had been arrested. 42-3
ECF at 111-13 of 263.
At Broadnax’s state habeas hearing, Jenkins testified
that (1) he was denied access to the television stations of
the reporters he attempted to serve with subpoenas, (2)
employees at some of those stations refused to inform him
how they gained information regarding Broadnax’s arrest
and subsequent transfer from Garland to the Dallas
County Jail, (3) he was told by persons at those stations

210a
that they did not know who informed them of Broadnax’s
arrest, and (4) his efforts to contact law enforcement to
discover the same information proved equally fruitless.
Testimony of Clifton Jenkins, S.F. State Habeas Hearing
at 7-19 [42-17 ECF at 3-6 of 44]. More significantly, Jenkins did not offer any testimony suggesting he was able to
locate any evidence showing that any of the television stations or newspapers that interviewed Broadnax acted in
concert with, at the behest of, or in cooperation with any
law enforcement agency.
In an affidavit accompanying Broadnax’s state habeas
corpus application, Broadnax’s gang expert, Dwight
Stewart (who possessed a bachelor’s degree in criminal
justice and experience as a testifying expert on gang affiliation) opined that prosecution gang expert Detective
Nelson had created a false and misleading impression that
Broadnax is a member of the Gangster Disciples street
gang. Stewart opined in his affidavit that (1) Detective
Nelson’s trial testimony identifying Broadnax as a member of the Gangster Disciples did not satisfy the criteria
for establishing gang membership set forth in Chapter 61
of the Texas Code of Criminal Procedure, (2) there was no
evidence Broadnax had ever engaged in any gang-related
criminal enterprise or gang-related activity, (3)
Broadnax’s fascination with gang culture did not establish
membership in a street gang, (4) many young men from
poor, socially isolated backgrounds, are attracted to
gangs in an effort to find identity and belonging in a surrogate-type gang family, (5) Broadnax’s trial counsel did
not cross-examine the prosecution’s witnesses regarding
the nature of the gang signs found inside Broadnax’s jail
cell, (6) Broadnax’s trial counsel did not check to see if
Broadnax were listed in the Dallas Gang database, and (7)
in his opinion, the prosecution failed to present credible

211a
and sufficient evidence of Broadnax’s gang membership.
42-3 ECF at 115-22 of 263.
When called by the State to testify at the evidentiary
hearing held in Broadnax’s state habeas corpus proceeding, however, Stewart admitted that (1) he was not a member of law enforcement and did not know if the National
Gang Center of which he was affiliated has a database on
street gangs, (2) he was unaware that Chapter 61 of the
Texas Code of Criminal Procedure does not govern the
admissibility of evidence at trial, (3) the Gangster Disciples are a recognized street gang in the Dallas area, (4)
the Gangster Disciples are one of the largest street gangs
in the United States, (5) there are members of the Gangster Disciples in the military, (6) he uses a power point
presentation which shows the Gangster Disciples are affiliated with a six-pointed star, pitchforks, hearts with
wings, and the term “Folk Nation,” (7) he was unaware
that Broadnax’s notebooks were filled with drawings of
such items, (8) he was unaware of the other evidence relating to Broadnax’s gang affiliation admitted into evidence at trial, (9) he was unaware that Detective Nelson
was asked to examine numerous trial exhibits which included gang symbols and references to the Gangster Disciples, (10) there is a fine line between a gang member and
a gang wannabe, (11) he was unaware that Broadnax’s
older brother was a Gangster Disciple, (12) he was unaware of Gangster Disciples in Texarkana, and (13) he was
unaware that Broadnax had only been in the Dallas area
a few weeks prior to committing capital murder. Testimony of Dwight Stewart, S.F. State Habeas Hearing at
70-88 [42-17 ECF at 19-23 of 44].
The attorney who served as second chair for the defense during Broadnax’s capital murder trial testified at
Broadnax’s state habeas corpus evidentiary hearing that

212a
(1) the defense team attempted to show there was “state
action” in connection with the interviews of Broadnax to
get the interviews suppressed, (2) the Supreme Court’s
Rothgery decision came down the same day Broadnax was
interviewed, (3) he believed further investigation by the
defense into suppression of the interviews would have
been fruitless because a constitutional violation requires
state action and they were unable to prove state action in
Broadnax’s case, and (4) he cross-examined Dr. Price regarding whether psychopathy was defined in the DSMIV-TR. Testimony of Doug Parks, S.F. State Habeas
Hearing at 114-30 [42-17 ECF at 30-34 of 44].
Broadnax’s lead trial counsel testified at the same
hearing that (1) he believed they were able to establish
that jailers at the Dallas County Jail knew Broadnax had
requested appointment of counsel prior to the time
Broadnax was interviewed by the media, (2) he was notified of his appointment in Broadnax’s case around nine to
nine thirty AM on June 24, 2008, the day after Broadnax
gave his interviews and after he had seen broadcasts of
Broadnax’s interviews on local television, (3) Broadnax
was booked into the Dallas County Jail at 2:51 AM on
June 21, 2008 and appeared before a Magistrate at 5:45
AM the same date, (4) some of the media requests to interview Broadnax predated Broadnax’s arrival at the Dallas County Jail, (5) two hours before Broadnax gave his
interviews, a jail psychiatrist (Dr. Lane) diagnosed
Broadnax with psychosis due to polysubstance abuse and
ordered Broadnax to be kept in closed behavioral observation, (6) he believed the defense established all of the
foregoing at trial, (7) he called Kim Leach to testify to establish the foregoing, (8) the reporters who interviewed
Broadnax would not talk with the defense prior to trial,
(9) he believed the Dallas County Sheriff’s Department

213a
facilitated the interviews and that was sufficient to establish state action, (10) he objected to admission of the interviews and obtained a pretrial hearing on the matter of
their admissibility, (11) at trial, the defense called four
mental health experts, including a brain development expert, (12) the defense also had two other mental health experts (Dr. Kessner and Dr. McGarrahan) on call and
ready to testify but decided not to call them because Dr.
Price did not testify that Broadnax was either ASPD or a
psychopath and the defense team feared that calling additional mental health experts might furnish the prosecution with an opportunity via hypothetical questions to get
the defense’s experts to opine that Broadnax either displayed ASPD or was a psychopath, (13) for those reasons,
the defense team chose not to rebut Dr. Price’s testimony
regarding psychopathy, (14) he was aware of no valid basis for objecting to the testimony of prosecution gang expert Detective Nelson, (15) the defense made a strategic
decision not to call its own gang expert because there was
little use in trying to convince the jury that Broadnax was
“not at least a wannabe gang member,” and (16) the defense’s trial strategy was to attempt to show the Dallas
County Sheriff’s Department facilitated Broadnax’s media interviews prior to the appointment of counsel. Testimony of Brad Lollar, S.F. State Habeas Hearing at 13165 [42-17 ECF at 34-43 of 44].
More specifically with regard to the issue of why the
defense chose not to challenge Detective Nelson’s opinion
that Broadnax was a gang member, attorney Lollar explained the defense team’s decision-making as follows:
Well, B.K. Nelson was called by the State. He is a
gang expert for the Dallas Police Department, and he
testified basically, in his opinion, that James was

214a
a member or wannabe member of the GD’s, Gangster
Disciples.
We, having the same information that the State
had already shown the jury, which is the combination
of one of the media interviews where James said that
he was a member of the Folk Nation and he wrapped
his flag around his gun.
They had presented a telephone call that James
had made from the jail where he is talking to his
mother’s boyfriend, and he is talking about being a
member of the GD’s and asking the boyfriend if it
wasn’t true that he had also been a member of that
back in his younger age.
We had all of the journals that were found with
James in the car in Texarkana which were introduced
that contained all sorts of references to GD’s and contained the pitchfork, the three-tined pitchforks and
the six-pointed star of David, all sorts of writings
about that organization in his journals. The State had
presented testimony from the—well, from his jail cell
where there’s all sorts of six-pointed stars and pitchforks drawn on his jail cell.
We felt that in light of that, that there was little use
in trying to convince the jury that he was not at least
a wannabe gang member in GD’s, if not a full-fledged
member. Also, part of the testimony provided by our
witnesses, the witnesses we called in punishment, including the sister, she testified that James’ older
brother, Aaron, was a GD and James was a wannabe
GD.
Okay? So we felt that it would be useless and futile
and would irritate the Judge and irritate the jury if we

215a
tried to convince the jury that he really wasn’t, in light
of all this evidence.
Now, the main thing about all of that is this: We did
not feel the offense had anything to do with James being either in or out of a gang. This was two guys, two
cousins who went out to hit a lick. It had nothing to
do—it was not a gang initiation. It was not an order
from a gang member. It wasn’t an order to, you know,
elevate the gang in any way.
We felt that whether James was a member of GD
or not was irrelevant really to the evidence in this case.
And those were the arguments we made to Judge
Snipes that the testimony of B.K. Nelson was irrelevant to this case. Id., at 161-63 [42-17 ECF at 42 of 44].
In an affidavit accompanying Broadnax’s state habeas
corpus application, Dr. John Edens opined that (1) there
was no scientific justification for introducing a diagnosis
of ASPD or testimony concerning the characteristics of a
psychopathic personality, (2) testimony concerning psychopathy, in particular, has the potential to stigmatize the
defendant with an irrelevant and pejorative label having
little to do with the likelihood of future dangerousness, (3)
at the time of Broadnax’s trial there existed scientific literature and scholarly reviews criticizing the use of an
ASPD diagnosis and psychopathy in capital murder trials,
(4) the PCL-R list from which Dr. Price read the list of
psychopathic personality traits is not the equivalent of a
DSM-IV diagnosis but, rather, a commercially-marketed,
proprietary rating scale based on a conceptual model constructed by a Canadian psychology professor, (5) while
there is some overlap, the DSM-IV-TR’s ASPD diagnosis
is not the same thing as the psychopathy reference used
by Dr. Price during his trial testimony, (6) not every
prison inmate who meets the criteria for ASPD also meets

216a
the criteria for psychopathy, (7) more recent scientific
studies suggest there may be “interventions” that can significantly reduce the likelihood of future violence among
individuals with psychopathic traits, (8) use of the list employed by Dr. Price has been shown to artificially increase
the perception that a capital defendant will be dangerous
in the future, (9) there is little evidence linking the psychopathy checklist with accurate predictions of future violent behavior of life-sentenced capital offenders in
prison, (10) a growing body of scientific knowledge suggests the checklist employed by Dr. Price is actually a
highly unreliable predictor of future violence. 42-3 ECF
at 125-29 of 263. At the evidentiary hearing held in
Broadnax’s state habeas corpus proceeding, when called
by the State, Dr. Edens testified (1) he was aware of no
one who diagnosed Broadnax with either ASPD or a psychopathic personality during Broadnax’s trial and (2) he
was unaware of the strategic reasons Broadnax’s trial
counsel gave for not cross-examining Dr. Price and not
challenging the testimony concerning ASPD and psychopathic personality during Broadnax’s capital murder trial.
Testimony of Dr. John Edens, S.F. State Habeas Hearing
at 165-68 [42-17 ECF at 43 of 44].

217a
APPENDIX C
UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

No. 19-70014

JAMES GARFIELD BROADNAX,
Petitioner-Appellant,
v.
BOBBY LUMPKIN, DIRECTOR, TEXAS DEPARTMENT OF CRIMINAL JUSTICE, CORRECTIONAL
INSTITUTIONS DIVISION,
Respondent-Appellee.

Filed: March 23, 2021
Before: JONES, HIGGINSON, and OLDHAM, Circuit
Judges.
ORDER
PER CURIAM.
IT IS ORDERED that the petition for rehearing is
DENIED.

218a
APPENDIX D
UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

No. 19-70014

JAMES GARFIELD BROADNAX,
Petitioner-Appellant,
v.
LORIE DAVIS, DIRECTOR, TEXAS DEPARTMENT
OF CRIMINAL JUSTICE, CORRECTIONAL INSTITUTIONS DIVISION,
Respondent-Appellee.

Filed: July 24, 2020
Before: JONES, HIGGINSON, and OLDHAM, Circuit
Judges.
OPINION
PER CURIAM.


Pursuant to 5TH CIR. R. 47.5, the court has determined that
this opinion should not be published and is not precedent except under the limited circumstances set forth in 5TH CIR. R. 47.5.4.

219a
The court has pending the parties’ briefing on a motion for COA from the district court’s denial of habeas relief in this capital case. The court GRANTS COA limited
to one issue:
Whether the district court erroneously concluded that
the spreadsheet was barred by Pinholster and 28
U.S.C. § 2254(d)(2). (Issue IA(2)(b) and (d) in Petitioner’s Briefing).
Because significant briefing about this issue has already been provided, any further briefing must be limited
to supplemental evidence and authorities. The parties’
supplemental briefs are limited to 20 pages each. Petitioner’s brief is due thirty days from today, with Respondent’s brief due 21 days thereafter.
SO ORDERED.

